<html>
<title> - STATUS OF EFFORTS TO IDENTIFY GULF WAR SYNDROME: MULTIPLE TOXIC EXPOSURES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    STATUS OF EFFORTS TO IDENTIFY GULF WAR SYNDROME: MULTIPLE TOXIC 
                               EXPOSURES
=======================================================================







                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 1997

                               __________

                           Serial No. 105-66

                               __________

Printed for the use of the Committee on Government Reform and Oversight











                       U. S. GOVERNMENT PRINTING OFFICE
45-480                         WASHINGTON : 1998
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                    Subcommittee on Human Resources

                CHRISTOPHER SHAYS, Connecticut, Chairman
VINCE SNOWBARGER, Kansas             EDOLPHUS TOWNS, New York
BENJAMIN A. GILMAN, New York         DENNIS J. KUCINICH, Ohio
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARK E. SOUDER, Indiana              TOM LANTOS, California
MICHAEL PAPPAS, New Jersey           BERNARD SANDERS, Vermont (Ind.)
STEVEN SCHIFF, New Mexico            THOMAS M. BARRETT, Wisconsin

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Robert Newman, Professional Staff Member
                       R. Jared Carpenter, Clerk
                    Cherri Branson, Minority Counsel



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 1997....................................     1
Statement of:
    Garthwaite, Thomas, Deputy Under Secretary for Health, 
      Department of Veterans' Affairs, accompanied by John 
      Feussner, Chief Research Officer, Department of Veterans' 
      Affairs; and Frances Murphy, Director of Environmental 
      Agents Services, Department of Veterans' Affairs; Bernard 
      Rostker, Special Assistant for Gulf War Illnesses, 
      Department of Defense, accompanied by Gary Christopherson, 
      Acting Principal Deputy for Health Affairs; Col. Hershell 
      Wolfe, Assistant for Occupational Health, Assistant 
      Secretary of the Army, ASA, ILNC; and Col. Eric Daxon, 
      Radiological Hygiene Staff Officer, AEPI, U.S. Army........   158
    Metcalf, Hon. Jack, a Representative in Congress from the 
      State of Washington........................................    19
    Nicolson, Garth, chief scientific officer, Institute for 
      Molecular Medicine, accompanied by Nancy Nicolson, chief 
      executive officer, Institute for Molecular Medicine; 
      Leonard Dietz, physicist and research scientist; and Asaf 
      Durakovic, former chief, Nuclear Medicine Service, 
      Wilmington, DE.............................................    92
    Roman, Col. Gilbert, retired, Gulf war veteran, Denver, CO; 
      Paul Canterbury, Gulf war veteran, Ashley, OH; Michael 
      Stacy, Gulf war veteran, Inola, OK; Staff Sgt. Mark Zeller, 
      Gulf war veteran, Fort Rucker, AL..........................    25
Letters, statements, etc., submitted for the record by:
    Canterbury, Paul, Gulf war veteran, Ashley, OH, prepared 
      statement of...............................................    30
    Christopherson, Gary, Acting Principal Deputy for Health 
      Affairs, list of members of the Department's peer review 
      organization...............................................   222
    Dietz, Leonard, physicist and research scientist, prepared 
      statement of...............................................   125
    Durakovic, Asaf, former chief, Nuclear Medicine Service, 
      Wilmington, DE, prepared statement of......................   141
    Garthwaite, Thomas, Deputy Under Secretary for Health, 
      Department of Veterans' Affairs:
        Detailed information concerning Dr. Baumzweiger..........   225
        Prepared statement of....................................   161
    Metcalf, Hon. Jack, a Representative in Congress from the 
      State of Washington, prepared statement of.................    21
    Nicolson, Garth, chief scientific officer, Institute for 
      Molecular Medicine, prepared statement of..................    96
    Roman, Col. Gilbert, retired, Gulf war veteran, Denver, CO, 
      prepared statement of......................................    42
    Rostker, Bernard, Special Assistant for Gulf War Illnesses, 
      Department of Defense:
        Information from the Armed Forces Radiological Research 
          Institute..............................................   231
        Prepared statement of....................................   182
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, letter dated June 20, 1997...............     7
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Stacy, Michael, Gulf war veteran, Inola, OK, prepared 
      statement of...............................................    53
    Zeller, Staff Sgt. Mark, Gulf war veteran, Fort Rucker, AL, 
      prepared statement of......................................    71

















    STATUS OF EFFORTS TO IDENTIFY GULF WAR SYNDROME: MULTIPLE TOXIC 
                               EXPOSURES

                              ----------                              


                        THURSDAY, JUNE 26, 1997

                  House of Representatives,
                   Subcommittee on Human Resources,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Pappas, Towns, Sanders, and 
Kucinich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Robert Newman, professional staff member; R. Jared 
Carpenter, clerk; Cherri Branson, minority counsel; and Ellen 
Rayner, minority chief clerk.
    Mr. Shays. I welcome our witnesses and our guests, and we 
will begin this hearing.
    In the course of these oversight hearings on Gulf war 
veterans' illnesses, we have delved deeply into complex 
scientific, clinical, military, and administrative issues. We 
are likely to do so again today as the subcommittee examines 
the possible synergistic effects of exposure to toxic 
cocktails, including low-level chemical weapons, pesticides, 
smoke from oil well fires, experimental drugs, depleted 
uranium, and biological agents.
    Immersed in a sea of technical details, it is possible to 
lose sight of the larger question that still confronts us as a 
Nation 6 years after the war: Are sick veterans getting better?
    Fortunately, testimony before this subcommittee from the 
General Accounting Office, GAO, Tuesday cut through the 
complexity and reasserted that simple, yet profound, important 
question as the moral, medical, and operational test of 
everything this Government does in the name of those it serves.
    As directed by Congress last year, GAO evaluated the 
effectiveness of the clinical care and research programs for 
six Gulf war veterans. They found neither the Veterans' Affairs 
Department, VA, nor the Defense Department, DOD, can say 
whether the veterans on their health registries since 1992 are 
any better or worse today than when they were first examined. 
GAO also found the research effort reactive, predisposed to 
certain lines of inquiry, and highly unlikely to provide 
conclusive answers regarding the causes of Gulf war illnesses, 
and they found some official conclusions about Gulf war 
illnesses by the Presidential Advisory Committee, the PAC, 
weakly supported or premature.
    In short, 6 years after the war, when asked what progress 
has been made healing sick Gulf war veterans, VA and DOD cannot 
say where they have been and may never get where they are 
supposed to be going.
    Part of the journey from cause to cure runs through the 
pools, clouds, and plumes of toxins in which Gulf war veterans 
lived and fought. It is a leg of the trip DOD and VA have never 
taken, too quickly dismissing the potential health hazards of 
many known exposures. Just as research into the effects of low-
level chemical weapons was thwarted for 5 years by denials, 
inquiries into toxic effects of other agents, alone and in 
combination, have been dismissed or ignored.
    It is simply not acceptable for VA and DOD to declare 
repeatedly ``there is no evidence'' of exposures or effects, 
when the evidence has never been sought.
    Today, we will hear evidence of two ingredients of the 
toxic soup to which many Gulf war veterans were exposed: 
depleted uranium and mycoplasmas. No one claims either agent is 
the silver bullet causing the myriad of Gulf war illnesses, nor 
should anyone in the face of very real symptoms and very real 
suffering likely dismiss their potential for causing, 
enhancing, or accelerating the health effects of toxic 
exposures.
    Depleted uranium is a heavy metal, like lead, which is 
highly toxic when ingested or inhaled. Mycoplasma infections 
may explain apparent transmission of illnesses to veterans' 
family members.
    We asked VA and DOD witnesses to describe what is known 
about the extent and effects of exposures to these agents and 
how that knowledge is reflected in research, diagnosis, and 
treatment protocols. We also invited researchers familiar with 
the pathology and these agents to describe their work. The 
subcommittee appreciates the benefit of their views and their 
expertise.
    The Gulf war veterans testifying today, like those who 
appeared here before, still travel the uncertain road they hope 
will lead to answers, good health, to the home they left to 
fight our desert battle. We are honored by their presence and 
we value their testimony.
    Are sick Gulf war veterans getting better? Until the answer 
is yes, our work as a Congress and as a Nation remains 
unfinished, our debt to veterans unpaid.
    At this time, the Chair would like to recognize a partner 
in this effort, Mr. Sanders from Vermont.
    [The prepared statement of Hon. Christopher Shays follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Sanders. Thank you very much, Mr. Chairman, and I 
continue to applaud you and your staff for the outstanding work 
that you have done for a very long period in keeping this issue 
before the public eye and in trying to bring forth truths 
which, in fact, have been hidden for a number of years.
    Mr. Chairman, within the last week or two, I think two 
important developments have occurred, which I want to very 
briefly mention. No. 1 was the release of a GAO report which 
basically concluded what many of us have been saying for a 
number of years, and that is that neither the Pentagon nor the 
Veterans' Administration have been doing a good job in helping 
us understand the cause of the problems or developing a 
treatment for the some 70,000 veterans who are hurting today. 
And that report, of course, did not come as a surprise to the 
members of this committee, because that is exactly the report 
that we have been making for a number of years.
    Second, I submitted for the record a letter that was sent 
to the chairperson of the Presidential Advisory Committee that 
had the names of 86 members of the U.S. House of 
Representatives, and basically what that letter said to the 
Presidential Advisory Committee is that we, Members of 
Congress, disagree with the conclusion of your December 1996 
report which suggests that stress and stress alone is the cause 
of Persian Gulf illnesses.
    And I must tell you that we could have had many more 
signatures on that letter. I must tell you that it was not a 
partisan issue. Democrats, Republicans, conservatives, 
progressives all responded, because very few people today in 
the House of Representatives and, I expect, in the Senate as 
well and, I expect, within the veterans' community and, I 
expect, within the United States of America today accept the 
conclusion that only stress was the cause of the problems.
    Is stress an important factor? Yes, it is. I happen to 
believe it is. But is it the only factor? No. And I think what 
we have been hearing, month after month after month, testimony 
before this committee is the role that chemicals, in one form 
or another, and the synergistic, the combined effect of 
chemicals, the role that they have played in causing illness, 
and it is impossible, in my view, to deny that conclusion any 
more.
    Mr. Chairman, very briefly, the concern that I have and 
what the GAO had is the lack of focus and the lack of direction 
on the part of the DOD and the VA. In the letter that we sent 
to the Presidential Advisory Committee, we briefly summarized a 
dozen different studies by outstanding and well-known 
scientists and physicians who, in one way or another, point out 
the role that chemicals have played.
    Interestingly, two of the studies were funded by the DOD 
itself. In 1995, the DOD, in one of their own studies at Fort 
Detrick, MD, concluded that pyridostigmine bromide, combined 
with DEET and pyrimethamine, have a synergistic effect, much 
more so than the additive effect on making rats sick, dying 
earlier than one would have expected, similar to the findings 
released by a Duke University study. A dozen different studies, 
and what the GAO is saying, where is it all going? In 5 years 
from now, in 10 years from now, are we going to have more and 
more studies? So I would suggest this is not an academic 
exercise.
    Now, the problems are many.
    No. 1, I happen to believe, and I can understand it from a 
human nature point of view, that the DOD is not happy to 
acknowledge that after that smashing military victory in the 
Persian Gulf, a victory of enormous consequence, much better 
than anyone dreamed possible, that a two-bit despot like Saddam 
Hussein may have been able to cause yet so much damage. People 
do not want to acknowledge that.
    No. 2: What about the role of pyridostigmine bromide? As we 
all know, the DOD received a waiver from the FDA, and I suspect 
that there is--and I am not here to criticize, in that sense, 
the DOD. We know that they want the best for our troops. We 
know the VA wants the best for our troops, but maybe there is a 
reluctance to investigate the fact that they themselves brought 
forth pyridostigmine bromide, administered it to hundreds of 
thousands of our troops, and maybe that is part of the problem.
    And, No. 3, and maybe most significantly, there is a strong 
difference of opinion within the medical community; honest 
physicians, honest scientists disagree about what is called 
``multiple chemical sensitivity,'' and you have many 
physicians, I think, in the VA and the DOD who simply do not 
accept that diagnosis.
    I will be curious to know from the DOD and the VA how many 
scientists they have on board who believe in the synergistic 
impact of chemicals, that chemicals can make us ill. And if you 
do not believe that, then you can have all the scientists you 
want peer-reviewing everything, and they are going to think, 
hey, this is quackery; this does not mean anything.
    So I think those are some of the questions that we will 
want to explore today, and, Mr. Chairman, I simply congratulate 
you and your staff for the outstanding work that you have been 
doing.
    [The letter referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shays. I thank the gentleman. At this time, we have a 
Member of Congress, a distinguished Member of Congress, Jack 
Metcalf, who, while not a member of this committee, has been 
very active on this issue and very involved. We appreciate your 
involvement, and appreciate any testimony or statement that you 
would like to give.

 STATEMENT OF HON. JACK METCALF, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Metcalf. Thank you very much, Mr. Chairman, for your 
work and support and for the opportunity to speak to the 
subcommittee on this vital issue. I would like to have my 
entire statement entered in the record.
    Mr. Shays. Without objection, so ordered, and I will use 
your point here as an excuse to do two business things and ask 
unanimous consent that all members of the subcommittee be 
permitted to place any opening statement in the record and that 
the record remain open 3 days and without objection, so 
ordered, and ask unanimous consent that all witnesses be 
permitted to include their written statement in the record and 
without objection, so ordered.
    And does the ranking member mind if I just--OK. We welcome 
your statement now.
    Mr. Metcalf. Thank you very much. Gulf war illnesses have 
affected thousands of service personnel, both United States 
troops and those of our allies. In the beginning, the 
Department of Defense officially refused to recognize the 
possibility of serious illnesses related to operations in the 
Gulf that were not clearly the result of an identifiable 
source. However, reluctantly, in the past year there has been 
an increasing acknowledgement of events during the operation 
that could have potentially exposed troops to chemical and 
biological warfare agents.
    Considering United States shipments of both chemical and 
biological material to Iraq as well as statements by Retired 
General Schwarzkopf and Secretary of State Albright and others 
regarding Iraq's development of biological weapons, it is 
difficult to understand how the Department of Defense can 
continue to deny the possibility that our troops could have 
been exposed to biologicals.
    Additionally, I have a grave concern that the Government's 
unwillingness to seriously consider the cumulative health 
consequences, cumulative health consequences of exposures to 
multiple-risk factors has resulted in inadequate care for the 
sailors, soldiers, airmen, and Marines who put their lives on 
the line when their Nation called.
    The most sobering experience I have had since I came to 
Congress has been to meet the sick young men and women that 
were in excellent health before their service in the Gulf. I 
have heard over and over their stories of multiple-risk-factor 
exposures.
    Ed, a Marine scout sniper, was in outstanding health before 
his service in the Gulf, as evidenced by the award he received 
for attaining the maximum score on physical fitness tests. His 
performance as a Marine was continually commended. His health 
has steadily deteriorated since his return. As he related his 
story, what is clear is the complexity of the potential 
exposures.
    He was seriously ill shortly after arrival in the Gulf, 
although the cause was unknown. He was ordered to take PB 
tablets and a botulinum vaccine. During his experiences, 
chemical alarms were continually sounding and blister agents 
were being detected. He and his team were breathing smoke from 
oil well fires, as well as smoke from burning tanks destroyed 
by depleted uranium rounds. He described a dark, foul rain that 
came from the north, its cause unknown. He was exposed to 
pesticides and other environmental hazards in the field.
    The work done to date to help Ed and thousands like him is 
woefully deficient. The Department of Defense is quick to point 
out that the Government is funding 91 Gulf war medical research 
studies. A close look, however, reveals a sobering reality: Of 
those 91, only 3 are looking at issues associated with chemical 
weapon exposure, and only 2 are examining the health 
consequences of depleted uranium. What is truly amazing is that 
none of these three chemical weapons studies are even being 
done in this country.
    Why are not the best and the brightest of our doctors and 
scientists working to find answers? The young men and women who 
serve this Nation deserve better.
    Finally, I want to thank Dr. Garth Nicolson and Leonard 
Dietz for their testimonies today. When scientists with the 
stature of these researchers speak, we need to be listening. I 
can only hope that the public will do so, that the Pentagon and 
the public will do so.
    We in Congress have a moral obligation to press for 
truthful answers and to ensure adequate health for our veterans 
and their family members who may be sick as a result of 
exposures in the Gulf.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Jack Metcalf follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I thank the gentleman for being here for his 
statement.
    At this time, the Chair would like to recognize Mr. Towns, 
who truly is an equal partner in this process. I may have the 
gavel, but I consider us equal partners, and I particularly 
appreciate the fact that he is busy on the Commerce Committee 
but spends so much time as the ranking member on this 
subcommittee. Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me begin 
by first thanking you for your kind words, and let me also 
thank you, as well as the majority staff and the minority 
staff, for arranging this hearing today on Persian Gulf war 
illness.
    While I look forward to hearing the testimony of all of our 
witnesses, I am particularly interested in our treatment of the 
disorder known as multiple chemical sensitivity. Some people 
have questioned the VA's reluctance to recognize multiple 
chemical sensitivity as a compensable injury. However, this 
criticism ignores that the medical community is divided over 
whether MCS is a bona fide disease. The California Medical 
Association, the American Academy of Allergy and Immunology, 
the American College of Physicians, the American College of 
Medicine, and the Council on Scientific Affairs of the American 
Medical Association have all published position papers which 
question the existence of MCS, its diagnosis, and its 
treatments.
    Additionally, the legal community is not unified on this 
issue, either. Courts have been divided over whether MCS is to 
be considered as an injury under State workers' compensation 
laws, and we in the Federal Government have not been 
consistent, either.
    MCS has been classified as a disability under the Americans 
with Disabilities Act. MCS has also been recognized by the U.S. 
Department of Housing and Urban Development as a basis for 
seeking protection under the Federal housing discrimination 
laws, yet the Social Security Administration considers MCS on a 
case-by-case basis, and the Department of Veterans' Affairs 
does not recognize it at all.
    In August 1997, the U.S. Agency for Toxic Substances and 
Disease Registry will publish an interim report on MCS. The 
Agency is composed of representatives from the Departments of 
Defense, Energy, Health and Human Services, and Veterans' 
Affairs, as well as the National Center for Environmental 
Health, the National Institute of Occupational Safety and 
Health, and the National Institute of Environmental Health 
Sciences, and the U.S. Environmental Protection Agency.
    The report is expected to contain findings and 
recommendations which may affect the compensation policies of 
every Federal agency and provide some general agreement in the 
scientific and medical communities, which would lead to Federal 
recognition and also uniformity.
    Mr. Chairman, I suggest that when the report is released, 
we hold a hearing on its findings. Additionally, I suggest that 
if the situation warrants, we consider legislation to require 
Federal benefit uniformity for all those who are disabled by 
multiple chemical sensitivity.
    So I look forward to working with you, as I have done in 
the past, and I would like to also applaud you for staying with 
this issue, because I think it is important that we do so, and 
at this time I yield back.
    Mr. Shays. I thank the gentleman. In fact, we both are 
staying with this issue, obviously, along with Mr. Sanders. At 
this time, I am inviting to the table, recognizing our four 
witnesses, Col. Gilbert Roman, retired, Gulf war veteran--oh, I 
am sorry. Mr. Kucinich, I apologize. I did not see you walk in.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I will be 
brief. I want to thank the Chair for his diligence in pursuing 
this issue over the past few years, and I have had a chance to 
look at testimony that has been presented to this committee, as 
well as the initial report which we received, and it is very 
apparent that there were many shortcomings in the approach that 
the Department of Defense used.
    I would like to think that the United States of America has 
a Defense Department which is second to none in the world and 
that they really are dedicated to protecting the American 
people and assuring the security of Americans around the world 
and making sure that Americans' interests are protected.
    But in this one case I think we have seen where despite 
perhaps some of the best intentions and some of the best 
people, it is quite possible some serious mistakes were made 
and those mistakes were repeated, that people went into the 
crisis affecting the Gulf war veterans with a theoretical 
forward which did not allow for the consideration of other 
possibilities other than post-traumatic stress or psychological 
conditions which can arise from people being separated from 
family and being in a certain environment, and the analysis was 
flawed from the beginning.
    And so if we can, in these hearings, find a way to not just 
admit that possibility, but to remedy the injustice which has 
been done to the Gulf war veterans, then we can celebrate the 
unending possibilities of a democratic tradition which can 
include error and seek to create remedies which can overcome 
those errors.
    Thank you very much, Mr. Chairman, for the work that you 
have done on this.
    Mr. Shays. I thank the gentleman. At this time, we will 
recognize our four witnesses and ask them to stand to be sworn 
in: Col. Gilbert Roman, retired, Gulf war veteran, Denver, CO; 
Mr. Paul Canterbury, Gulf war veteran, Ashley, OH; Mr. Michael 
Stacy, Gulf war veteran, Inola, OK; and S/Sgt. Mark Zeller, 
Gulf war veteran, Fort Rucker, AL.
    Gentlemen, we swear in all our witnesses, including Members 
of Congress. Raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Please be seated. I note for the 
record that all four have answered in the affirmative.
    We will begin in the order in which I called you, so we 
will just go right down the table. We are going to have a timer 
on, but you are free to run over the timer. We want to just 
keep track of how we are doing here, so I welcome you, Colonel.

 STATEMENTS OF COL. GILBERT ROMAN, RETIRED, GULF WAR VETERAN, 
  DENVER, CO; PAUL CANTERBURY, GULF WAR VETERAN, ASHLEY, OH; 
  MICHAEL STACY, GULF WAR VETERAN, INOLA, OK; STAFF SGT. MARK 
           ZELLER, GULF WAR VETERAN, FORT RUCKER, AL

    Col. Roman. Thank you, sir. Mr. Chairman, distinguished 
members of the subcommittee, my fellow veterans, I am Gilbert 
D. Roman, Colonel, U.S. Army, retired, Reserve. I thank you for 
the opportunity to be here today.
    I would like to start out with a newspaper item quotation, 
a very brief one, taken from the Army Times, 1994. It says, 
``Sick Gulf Vets Wary, Wait for Treatment.'' It goes on to 
quote, ``We are committed to the treatment of the veterans of 
the Persian Gulf conflict who are experiencing problems as a 
result of their service,'' said Edwin Dorn, Under Secretary of 
Defense for Personnel and Readiness. ``We are determined to 
fashion compensation for those who are too sick to work.'' Army 
Times, March 1994.
    We are still waiting, sir. I am greatly saddened by recent 
newspaper accounts of what is not occurring in the dialog and 
discussion on this issue, because I see a continuing pattern of 
official DOD misinformation and negligence tantamount to 
malfeasance in office for ignoring testimony and documentation 
referring to the use or presence of chemicals and other 
biological agents our reports indicate were found in the 
theater of operations during Desert Shield/Desert Storm.
    I arrived in the theater of operations on January 6, 1991--
by the way, that would happen to be my birthday--after 
volunteering to serve in the Persian Gulf and being brought on 
active duty in December 1990. My primary responsibility as 
Colonel, Medical Service Corps, was the Deputy Commander of the 
311th Evacuation Hospital----
    Mr. Shays. Colonel, could you just slow down a little bit? 
We are not going to rush you.
    Col. Roman. Are you sure?
    Mr. Shays. Yes.
    Col. Roman. OK.
    Mr. Shays. Let me just say something to all of you. We 
learned early on that you are voices in the wilderness, with 
very few people listening.
    Col. Roman. Thank you. Thank you.
    Mr. Shays. And we decided that in almost every instance we 
would begin our hearings listening to those voices. So you are 
a very important voice, and you take your time.
    Col. Roman. I took very serious that 5 minutes, though, 
that we were given.
    Mr. Shays. Well, I want to explain to you, we would like 
you to have been aware of the 5 minutes. If you run over, we 
are just going to turn the light back on.
    Col. Roman. Thank you, sir. My primary responsibility as 
Colonel, Medical Service Corps was as the Deputy Commander of 
the 311th Evacuation Hospital. I was responsible for 
operations, logistics, and security. In secondary assignments I 
was also the public affairs officer and liaison to the Ministry 
of Health in Abu Dhabi, United Arab Emirates, where the 311th 
was physically located.
    We were also near Al Dafra and Al Bateen Air Force Bases 
where the United States Air Force flew daily sorties north. 
Also flying out of Al Bateen were daily air shuttles called the 
``Star Shuttle,'' which were either C-130's or C-141's that 
flew daily shuttles to Riyadh, Dharhan, King Khalid Military 
City, and other points in the Gulf operations.
    During several of the official visits to these strategic 
military cities there were frequent SCUD attacks in SCUD Alley 
during which I often heard the chemical alarms. When I asked if 
these alarms meant chemicals, and I was a colonel, I was told 
that the chemical alarms had malfunctioned. I do not think they 
malfunctioned that often, sir.
    My first time in Riyadh, I became ill. I was treated for 
nausea, headaches, vomiting, diarrhea, and a high temperature. 
My commander, a physician, was with me and treated me for the 
symptoms, which appeared to be food poisoning. There was 
nausea, headache, vomiting, and--I am bleeding; and the reason 
I am bleeding, sir, is because I have precancerous polyps--
excuse me--that have not been treated in my nasal passages and 
colon. But if I can continue, I would appreciate it.
    Mr. Shays. You may continue, and you may slow down.
    Col. Roman. I am slowing down.
    Mr. Shays. And we can also go to another witness and then 
come back to you.
    Col. Roman. If I can just continue, I will be finished in a 
few minutes.
    Mr. Shays. I just want to emphasize to you, though, just 
feel free to slow down.
    Col. Roman. OK.
    Mr. Shays. We just want to hear every word you have to say.
    Col. Roman. Thank you, sir. This nausea, headache, 
vomiting, and flu-like symptoms continued throughout the time I 
was in the Persian Gulf, and I continued to treat it like food 
poisoning, with Immodium and 800 milligrams Motrin, the Army's 
blessed answer to all pain.
    The rashes I had over my body while I was in the Gulf I 
thought were normal and expected, since I spent most of my days 
in the sand, wind, and the sun with all the attendant fleas, 
flies, and other desert parasites. A calamine lotion-like 
substance served to sooth but not relieve or get rid of the 
severe rashes that I experienced.
    Life in the theater of operations was a constant adrenalin 
rush, with 3 or 4 hours of sleep in between. Headaches I began 
to experience attributed to fatigue and the lack of sleep were 
actually other things, as I found out later.
    Upon returning home to the States and my discharge from 
active duty, I returned home, and the symptoms I experienced in 
the Persian Gulf continued after I got there, and they got 
progressively worse.
    In 1993, I registered myself with the Washington, DC 
Veterans Hospital after receiving an invitation from the VA to 
come in for an examination because I was a Persian Gulf vet. 
The Washington, DC VA noted----
    Mr. Towns. Mr. Chairman, may I make a suggestion that we 
allow him to go to the restroom and then return and allow 
someone else to testify and then let him come back and 
continue?
    Col. Roman. OK. Thank you.
    Mr. Shays. I think that is a good suggestion.
    Col. Roman. I apologize. I just have not been able to stop 
these nosebleeds for a number of years now.
    Mr. Shays. You know, you are apologizing to us, and we 
should be apologizing to you. Thank you, Colonel. We will see 
you back here. Mr. Canterbury.
    Mr. Canterbury. Yes, sir.
    Mr. Shays. We welcome your testimony; and, again, I just 
want to say we are in no rush.
    Mr. Canterbury. Yes, sir.
    Mr. Shays. So we welcome your testimony. You may begin.
    Mr. Canterbury. Thank you. Hello. My name is Paul 
Canterbury, and I want to thank you for allowing me to come and 
testify before you.
    Mr. Shays. I am sorry to interrupt. I want you to move the 
mic a little closer to you, and I want you to bring it down 
just a speck. There you go. Thank you.
    Mr. Canterbury. I served in the U.S. Army at Fort Hood, TX 
from 1989 to 1992 in Delta Company, 57th Signal Battalion. I 
was sent to the Middle East as a private from September 1990 to 
April 1991. In August 1990, myself and my company went on alert 
and spent over 24 hours painting vehicles with the CARC paint, 
and I remember the fruity smelling odor. For several days after 
painting the battalion's vehicles, I felt very nauseous.
    We were shipped to King Abdul Aziz Port. I stayed there for 
about 2 to 3 weeks. The facilities were pretty disgusting, 
filthy. There were not enough restrooms and showers to 
accommodate the amount of people who had to utilize them. They 
were not properly cleaned either.
    On the port that I was at, food and water was rationed out 
to us. After a couple of weeks on the port, I began 
experiencing nausea, headaches, and diarrhea.
    During the convoy to our first site in the desert, my 
condition became worse, with vomiting, migraines, and diarrhea. 
While setting up camp, I passed out and was taken to a field 
hospital and treated for what was then said as dysentery and 
dehydration. I was treated with pills and an IV.
    After Christmas, my communication team supported the 18th 
Airborne Corps Main, where we were sent to King Khalid Military 
City, just days before the air campaign. KKMC was where I first 
heard chemical alarms and SCUD alerts. Hours before the air war 
started, we began taking the bromide tablets. During the first 
hours of the air war, we traveled in MOPP-4 at night to a city 
called Rafha, just miles from the Iraqi border.
    I continued to take the bromide tablets for a total period 
of 8 to 9 days, three times a day, in front of a 
noncommissioned officer. At Rafha, we experienced many chemical 
alarms, and after the alarms were sounded, my platoon sergeant 
and my platoon leader would call for a private to unmask to see 
if it was all clear. I was one of those privates, and we were 
told we were expendable.
    Sometime during this period, I was driving through Hafa-
Albotin the day a SCUD landed. A soldier gave us the sign 
``GAS, GAS, GAS.'' I noticed a rainbow in the sky, and I 
questioned what that rainbow was caused from. Today, I still do 
want to know what it is, sir.
    A day or two prior to the ground war, I went to Rafha to 
receive a shot. I was handed a piece of paper to sign and 
release the Army or the Government--I am not sure which--of any 
and all adverse side effects. The paper stated it was an 
experimental drug, which I do not remember the name. I was not 
allowed to refuse the shot. I was not allowed to receive the 
paper, but I was allowed to refuse to sign it.
    After the shot was administered, I began noticing heart 
palpitations and tunnel vision. When the ground war started, we 
convoyed to Iraq and established a site. We were told by our 
first sergeant to turn in all live ammunition, and the only 
ones allowed to have it would be the guard points. Because of 
my lack of knowledge of the dangers of depleted uranium on 
destroyed tanks, armored vehicles, and bunkers, I did not 
protect myself with my MOPP gear while climbing on and in them.
    In April 1991, I returned to Fort Hood, TX, and numerous 
times I reported to the troop medical clinic, complaining of 
heart palpitations, migraines, severe diarrhea, and muscle 
spasms. No tests were run, and I was always told to take a 
couple of days off and bed rest. Prior to getting out of the 
Army and my ETS physical, I stated those same problems I went 
to the TMC for.
    They had me wear a heart monitor, and the results were that 
my heart was beating faster than normal, and I was told that it 
was nothing to worry about.
    After I left the Army in 1992, I moved my family to Ohio. I 
first went to the VA Clinic in Columbus, OH, June 1994, to sign 
on the Persian Gulf Registry Exam. Upon completion of the exam, 
the attending physician stated to me, and I quote: ``There is 
nothing wrong with you. It is all stress-related.''
    I believed him, and I thought from his opinion and my 
family's comments that there was nothing wrong with me. I later 
found out from a patient rep that the physician for the Persian 
Gulf Registry Exam had set various appointments for me, which 
my records indicate a no-show for all set appointments. To the 
best of my knowledge, I do not remember him setting those 
appointments for me. I was not aware of them.
    As time went on, my symptoms had been increasing in number 
and seemed to be getting worse. I did nothing medically until 
July 1996, when I returned to the VA Clinic for another, a 
second Persian Gulf Registry Examination. After that time, a 
primary physician was established. She then started setting 
appointments, lab work, CAT scan of head, heart monitor, et 
cetera.
    The problems I have had with the VA Clinic, outpatient 
clinic in Columbus, OH are numerous. One, not receiving test 
results. My appointments with my primary physician started out 
at about every 2 weeks, then they started going every couple of 
months. I had a problem with my physician personally walking me 
to the mental health clinic like I am a crazy person and I 
cannot find my own way.
    I have a problem with a psychologist trying to hypnotize me 
for pain control. Stare at a black dot on the wall and listen 
to this tape.
    On one occasion, after telling my physician my health has 
gotten worse, she told me this: Your lab work is normal. There 
is nothing to treat. There is no diagnosis. I can give you 
Tylenol or Motrin for your pain, but please note, before this 
time, she had been prescribing me meds such as Solodac and 
Hyproxin for my pain.
    In November 1996, I admitted myself to the VA Hospital in 
Chillicothe, OH to get help for my health problems, depression, 
and suicidal tendencies. They diagnosed me with PTSD and 
Dysthymic Disorder.
    In December 1996, I tried to commit suicide because of my 
declining health problems, which everyone said there was 
nothing wrong with me, and the breakup of my marriage. I was 
admitted to Knox County Community Hospital's psych ward for 
about a week.
    In January 1997, I returned to my primary physician again, 
explaining everything that had happened, and I told her I had 
not worked for quite a while, and she said she could not give 
me a work excuse to turn in; she could not provide me with one. 
I asked for a referral to another medical facility, and she 
said she could not do that, either.
    On my very first appointment with the physical therapist, 
she diagnosed me with fibromyalgia by having me push my arms 
this way, pull my arms that way, same with my feet. I do not 
see how this is possible.
    In March 1997, I experienced bad blurred and double vision, 
and I went to an optometrist. His diagnosis was hypertropia, 
large vertical muscle imbalance, esophoria at near, 
accommodative deficiency. And vision therapy was recommended 
for treatment, prescription sunglasses, and bifocals.
    May 12, 1997, I went to the VA Hospital in Washington, DC, 
and had numerous tests done on me, which I do not have the 
results of as of today. May 12 to 14, 1997, I went to 
Georgetown University Medical Center for further studies. No 
results as of today.
    I was told that I would be at the VA Hospital in 
Washington, DC, between 10 to 14 days, but I was only there 6, 
2 of which were on the weekend, and the first day nothing was 
done.
    When I joined the Army, I signed a contract with the United 
States stating that if anything happened to me in an act of a 
war, peacekeeping process, what have you, if I die, if I become 
ill during my time in service, the United States would take 
care of me. I fulfilled my portion of that contract; now it is 
time for you to fulfill your portion of the contract.
    In closing, I would like to say, due to the time 
restraints, I was not able to provide you with all the 
information I have knowledge of. Thank you, sir.
    [The prepared statement of Mr. Canterbury follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Mr. Canterbury. Mr. Roman.
    Col. Roman. Sir, I am ready.
    Mr. Shays. OK. And I am going to emphasize again----
    Col. Roman. Yes, sir.
    Mr. Shays [continuing]. The only time restraint we have now 
would be self-imposed by you.
    Col. Roman. OK.
    Mr. Shays. So I want you to really take it slower.
    Col. Roman. Thank you, sir. One of the reasons I started 
talking a little fast was because I felt the blood starting to 
come, and I was trying to get it over with before I start--
well, anyway, thank you very much. I will continue. If I could 
pick up right from where I left off, I would appreciate it.
    Mr. Shays. I am going to ask you just to slow down a second 
and tell me where were you. Do we have the same document you 
have? What page are you on?
    Col. Roman. I am on page 3----
    Mr. Shays. OK.
    Col. Roman [continuing]. And I am down at the last 
paragraph, and I am not giving it all; I have cutoff some of 
it.
    Mr. Shays. You cutoff some of the better parts, frankly.
    Col. Roman. I was afraid, trying----
    Mr. Shays. OK.
    Col. Roman. OK. I think what I will do, sir, because I 
think I was bleeding all over myself at the time that I was 
talking earlier, is pick up just at the second paragraph on 
page 3, if I may.
    Mr. Shays. That is fine.
    Col. Roman. And say to you that my first time to Riyadh, I 
became ill, was treated for nausea and headaches and vomiting, 
diarrhea, and a high temperature.
    My commander, who was a physician, was with me, and he 
treated me for the symptoms which appear to be like food 
poisoning. This nausea, headaches, and vomiting-like symptoms 
continued throughout the time I was in the Persian Gulf, and I 
continued to treat it like food poisoning, with Immodium and 
800-milligram Motrin. As I indicated, it really is the Army's 
blessed answer to all pain because it works, at least for pain.
    Rashes, I had over my body while I was in the Gulf, I 
thought they were normal and expected, since I spent most of my 
days in the sand and the field, wind and sun, with all the 
attendant fleas, flies, and other desert parasites. I used a 
calamine lotion-like substance which served to sooth but did 
not relieve or get rid of the severe rashes that I experienced.
    Life in the theater of operations was a constant adrenalin 
rush, with 3 to 4 hours' sleep in between. Headaches I began to 
experience, I attributed to fatigue and the lack of sleep. Upon 
returning to the States and my discharge from active duty, I 
returned home like thousands of other United States soldiers, 
and the symptoms I had experienced in the Persian Gulf 
continued after I returned home and got progressively worse, as 
a matter of fact.
    In 1993, I registered myself into the Washington, DC 
Veterans Hospital after receiving an invitation from the VA to 
come in for an examination if I was a Persian Gulf vet. The 
Washington, DC VA noted a number of problems, including sleep 
apnea--and short-term memory loss, hearing loss, and they 
recorded all the ailments I had indicated to them, including my 
flu-like symptoms, swelling in my hands, knees, and ankles, 
respiratory problems, and severe headaches.
    No treatment was offered. Rather, the VA Hospital billed me 
for my supposed free examination and ended up attaching my next 
year's meager tax return for money I owed them for an 
examination that I was offered, which I was requested to take 
by the VA. So I do not know why I was being billed, but I could 
not fight it enough. They kept fighting it back, and they sent 
it over to the IRS, and they took the money out of my return.
    I went back to Denver in 1994 and registered at the Denver 
VA Hospital, where instead of requesting my examination files 
from the Washington, DC VA, I underwent a second complete re-
examination, with, I might add, similar results.
    Then, in 1995, the United States Army sent me a letter to 
report to Fitzsimmons Army Medical Center if I was suffering 
any ill effects from the Persian Gulf war. Once more, I 
underwent a complete examination, from blood to MRI, and 
everything in between. The results this time were much clearer. 
The Army doctors found out again that I had chronic fatigue, 
precancerous nasal and colon polyps, chronic skin rashes and 
hives, which have not been tied to a cause yet, sleep apnea--
respiratory illness of mysterious origin, short-term memory 
loss, flu-like symptoms which would come and go, lasted for 6 
weeks, and chronic arthritis of the joints.
    The young Army doctors tried to treat me and had scheduled 
me for an operation to remove the polyps from my nose. Had they 
done that, maybe I would not be bleeding, but the colonel in 
charge of the Persian Gulf examinations advised me that they 
could not treat me because it was not determined that I had 
been injured or had received that particular illness in the 
Persian Gulf.
    To date, although I now have had three official VA and Army 
examinations since 1993, I still continue to receive requests 
for more and more information from the VA Claims Office in 
Phoenix, AZ. Materials I send them are never acknowledged as 
received, and the telephone numbers that are given are not to 
any VA-recognized exchange, and the name given for contact is 
not a true VA employee; at least the number that answers at 
IRS, by the way, is not the name of the VA office I have tried 
to reach.
    Frustration is a word that does not begin to explain the 
feeling of being in the system 4 years now with no real contact 
from a person, just requests for more and more information. It 
is particularly maddening when I personally sent my records 
from the VA hospitals and the Army to them for evaluation, yet 
when I called them in the winter of 1997 in Phoenix and left a 
message via a third party to advise me of what records they 
had, they sent me back a written message that said they were 
requesting my records from the VA hospitals in Washington, DC, 
and in Denver.
    I thought they were evaluating me at that time, but without 
those records, how could they have been evaluating me?
    1996 was not a good year for me. I was hospitalized three 
times and was treated by my private physician for a respiratory 
ailment. I could not walk more than 25 steps without having to 
stop, out of breath and fatigued. This ailment, which was life-
threatening, would not allow me to lie on my back to sleep, as 
I would begin to drown, or at least it would feel like I was 
drowning, when my lungs were filling up with fluid.
    I was forced to sit up to sleep and was constantly fatigued 
due to the lack of sleep and no energy. My cardiologist in 
Denver, Dr. Peter Steele, diagnosed me as having cardiomyopathy 
with congestive heart failure. The onset of symptoms, he said, 
``which would suggest that possibility that this was induced by 
a source in the Middle East during the Gulf war.'' ``What is 
clear,'' Dr. Steele stated, is that ``he served in the Middle 
East and that he has a cardiomyopathy.'' He goes on to say that 
I would submit that this may well be a part of the Gulf War 
Syndrome; I attach a letter for your convenience from Dr. 
Steele.
    Last December 1996, I was examined by Dr. William 
Baumzweiger, and I misspelled the name. For the record, it is 
B-A-U-M-Z-W-E-I-G-E-R. He is a neurologist at the Los Angeles 
Veterans Hospital. After a 3-hour examination, Dr. Baumzweiger 
advised me that I had suffered severe neurological damage while 
in the Persian Gulf and had, in fact, suffered brain stem 
damage as well. Dr. Baumzweiger further advised me that my 
neurological damage was as severe as he had seen and was, in 
fact, caused by exposure to unknown chemical agents while in 
the Persian Gulf.
    He also advised me that I probably would not live as long 
as I would have had I not been in the Persian Gulf and that 
unless I took 1 year off to do nothing but recuperate, I would 
most likely be a candidate for a heart transplant within 3 to 5 
years.
    Dr. Baumzweiger also concurred with Dr. Peter Steele's 
diagnosis of cardiomyopathy caused by my service in the Middle 
East during the war. He suggested that this cardiomyopathy may 
well be a part of the Gulf War Syndrome.
    Incidentally, while I was in Dr. Baumzweier's office, he 
was summoned into the chief neurologist's office. Upon his 
return, he informed me that he was no longer authorized to 
treat Persian Gulf vets. When I asked him why, he advised me 
that his findings had not coincided with the VA's on the 
reasons for Gulf war vets' illnesses; therefore, he was asked 
to not treat Persian Gulf vets anymore.
    Mr. Shays. Col. Roman, you are under oath right now, and 
you are saying that while you were having this examination, 
this doctor left and then came back, and, to the best of your 
recollection, this is precisely what he said, almost what he 
said, or maybe something like that?
    Col. Roman. He advised me exactly what I just said.
    Mr. Shays. OK.
    Col. Roman. And I also saw or happened to see the letter 
that he had from the chief neurologist where he was asked not 
to treat Persian Gulf vets anymore. I just glanced at it. They 
had it on the table there, and I saw it. He was somewhat 
distressed, by the way, at the time.
    The still-too-recent memory of the Vietnam veterans and 
Agent Orange casts a pall on the ongoing denial by the same 
bureaucracies who continue to deceive Persian Gulf veterans. 
Didn't we learn anything from the Agent Orange debacle? Must we 
be condemned to remaking the same mistakes with our Persian 
Gulf veterans?
    Ironically, on November 2, 1994, the President signed a 
Veterans Benefits Improvements Act of 1994, Public Law 103-446. 
This law authorized the Department of Veterans' Affairs to pay 
service-connected compensation to Persian Gulf veterans who are 
suffering from chronic disabilities resulting from undiagnosed 
illnesses. And I think ``undiagnosed illnesses'' here is the 
key, since the precedent had already been made to Agent Orange 
victims who, after many, many years a compensatory fund was 
created for them by the U.S. Congress. This occurred after a 
study by the Centers for Disease Control failed to establish a 
link between Dioxin absorption to any serious Vietnam-veteran 
malady.
    Two and a half years after this law went into effect, the 
information letter I received from Secretary of Veterans' 
Affairs Jessie Brown still has not borne fruit for most of my 
fellow Persian Gulf veterans. Lip service and voluminous 
correspondence from the VA is all that has resulted for most of 
us.
    A bullet from an AK-47, a land mine, a mortar shell, or 
grenade would all cause trauma to the body or death. How 
different are these weapons of war to those invisible, but 
equally devastating, mortar weapons of war in the form of 
lethal chemicals and biological agents? Answer: There is no 
difference in the effect; it just takes a little longer to 
cause the casualty.
    I am going to add to you that on the question that you 
asked me, Mr. Chairman, I did have a retired Major, Denise 
Nichols, fax a letter that I wrote on that particular issue to 
Dr. Baumzweiger, and I gave her in writing what had happened on 
that particular day so that I had it on the record.
    I believe that every Gulf war veteran who has suffered the 
effects of a chemical-biological-warfare weapon should be just 
as eligible for the Purple Heart as those wounded by 
conventional weapons. The wounds might look different, but the 
effect is the same.
    Thank you for allowing me to testify today.
    [The prepared statement of Col. Roman follows:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Colonel. Colonel, we are going to be 
asking questions as soon as we hear from Mr. Stacy, who is 
next, and Staff Sgt. Zeller.
    Mr. Stacy.
    Mr. Stacy. Thank you. I would like to say it is an honor 
for me to be here today. My name is Michael J. Stacy. I was a 
loader on an M1A1 main battle tank. I was exposed to depleted 
uranium and various other toxins, including possible chemical 
and biological agents. First, I would like to thank God; my 
wife; daughters, Haskell and Suzanne Dixon; Dan Fahey; the 
Military Toxins Project; and all of our family and friends.
    Before deploying, I was in prime physical condition. I 
weighed 185 pounds, served with the 2nd Armored Company. I 
served with Alpha Company, 2nd Armored Division, Forward. I 
served in the Gulf from December 30, 1990 to May 6, 1991. I did 
get the anthrax shot, as well as others. I did take the PB 
pills three times a day. We kept the same chemical suits, even 
though it was opened 1 month before the war started. We took 
our protective gear off before we crossed the border into Iraq. 
We had the RAD meters. They looked like a wrist watch, but only 
key personnel were issued these.
    In a report from the U.S. Army Ballistics Research Lab, 
dated December 1989, test results showed that soldiers who came 
into contact with contaminated vehicles could inhale 
resuspended depleted uranium dust or ingest depleted uranium 
via food intake, cigarette smoking, et cetera, prior to not 
washing hands and face. It was a very unclean environment over 
there.
    Also, I have a letter here from the Office of the Secretary 
of Defense. It is dated May 30, 1997 and signed by Bernard 
Rostker. Prior to fielding the M1A1 tank and the munitions 
containing depleted uranium, controlled-burn tests were 
conducted in the United States to determine the hazards of 
depleted uranium burning at high temperatures. Such a high 
temperature would have to be sufficient to melt steel.
    In the event of such a fire, a small fraction of the 
material may be dispersed into the atmosphere as the depleted 
uranium oxide fume or smoke and hence could be inhaled by the 
persons situated immediately down wind of an accidental fire or 
explosion involving depleted uranium ammunition. We saw tanks 
that were melted, that burned hot enough to melt steel.
    I was involved in more than one friendly fire incident 
while I served in the Gulf. Our tanks had depleted uranium 
armor. I slept on the tank, over the blowout panels. We spent 
90 percent of our time on the tanks. We were never warned of 
any health risks of depleted uranium. I climbed on and in 
tanks, trucks, and bunkers after they were hit with depleted 
uranium to inspect damage. We were never warned of the health 
risks. We knew we were shooting depleted uranium, but we were 
never warned of the health risks.
    We went back through the battlefields after the war. I 
first got sick while in the Gulf, with headaches, nausea, chest 
pains, stomach cramps, and diarrhea. We assumed that it was 
from the water that we were drinking. We were told to go on a 
48-hour fast, but under the operating conditions, we were 
unable to do that, so we just dealt with our condition.
    My wife miscarried soon after returning to the Gulf. At 
that time, we did not know who to go to. She was 1 month 
pregnant. We did not report this incident, to my knowledge.
    We returned to the States. My wife's health got worse. My 
health got worse. I have been diagnosed with multiple--I have 
multiple, undiagnosed illnesses: chronic fatigue, chest pain, 
joint pain, swelling of the joints, upper respiratory problems, 
sinus problems, and severe memory loss.
    The VA has denied me for testing of depleted uranium. The 
VA has denied me for further testing. The VA still said all of 
my problems are from PTSD. We gave the Iraqi POWs when we 
captured them better treatment than the VA provides for myself. 
I believe my declining health is due to the shots taken before 
and in country, the PB pills, depleted uranium, and possible 
chemical and biological agents.
    This has been a disgrace to me, my family, my unit, and the 
soldiers who died over there. Something needs to be done before 
my wife dies, before I die, or any other Gulf war vets die. I 
would also like to say, my wife weighed 127 pounds before I 
deployed to the Gulf. She was an ornery, mean, Oklahoma girl. 
Since my return, she has weighed under 100 pounds. She has 
dropped under 80 pounds. We were told by the doctor at the 
Indian Hospital in Claremore, OK, it would be in my best 
interest to have her committed to an insane asylum. They said 
they cannot find any reason why she is sick.
    My daughter was born before the Gulf. She is displaying 
some symptoms. She has got aching bones and sinus problems. So 
was everybody I was around when I got back. I watched my wife's 
grandfather. His health severely declined. I believe it was 
because I spent lots of time with him. He passed away this 
spring--cancer. It ate up his whole body. His immune system 
failed.
    My wife's mother-in-law; we lived with them when we soon 
returned from the Gulf. They started developing upper 
respiratory problems, other ailments since. They have moved to 
Nashville now. We are no longer around them. Her health has 
seemed to improve.
    I feel abandoned. I feel mistreated. My wife has suffered 
the brunt of this illness. My wife sits behind me. She has lost 
all pride, all dignity--but supports and believes in me. I have 
been told for too long that it is all related to stress, and I 
will not take that any longer.
    Thank you.
    [The prepared statement of Mr. Stacy follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Stacy, thank you. I would like to ask you. 
You did not read much of your testimony. On page 2 of the 
testimony I have, I have a typed sheet. Do you have that typed 
testimony?
    Mr. Stacy. No, sir. Sir, I am 40 percent disabled. I 
receive $467 a month. I left the Post Office after 3 years. My 
house payment is $500 a month. I do not even have money to 
drive or put gas in my car. We are literally starving to death. 
We receive no help from nobody. I was unable to get this typed. 
I was lucky to be able to get my written testimony typed and 
sent to you whenever I did.
    Mr. Shays. So the testimony we are looking at, we retyped 
ourselves.
    Mr. Stacy. I believe so, sir.
    Mr. Shays. Well, I just feel inclined to ask you to read 
what we have on page 2, the typed sheet. Do you have it? It 
starts on January 21.
    Mr. Stacy. Talking about on January 21?
    Mr. Shays. I would like you to read that page.
    Mr. Stacy. On January 21, 1991, which, sir, I would like to 
say every bit of this came from my diary, is true, to the best 
of my knowledge. Some information may be incorrect, but 
everything written in my diary was written at that date.
    ``On January 21, 1991''--also a day I will never forget, my 
22nd birthday--``we rolled toward Iraq. We prepared for war and 
waited and waited and waited and waited and waited. Then it 
started, February 16, 1991. A company from our brigade made 
contact. They shot a truck and a berm with TOW missiles and had 
a couple of small gun fights. February 17, war hit home, and we 
lost a Bradley to enemy fire, a rocket-propelled grenade. Two 
killed, four badly wounded. The bombing continued, so heavy at 
times, you could not sleep for days.
    ``We crossed the border for good on February 24, 1991. When 
we crossed, we were in MOPP-4; after we crossed, we went to 
MOPP Level 0, and then repackaged our MOPP suits, the same ones 
we opened in base camp back in early January 1991, and had worn 
on numerous training expeditions and had repackaged each time, 
unaware that they were useless after their initial opening. On 
the same day, February 24, 1991, we came under attack from 
enemy artillery, some of which exploded in the sky over us and 
created a white cloud, which then disintegrated over us.
    ``We had thought it was a marker, so we moved. This 
continued all day until our artillery knocked them out for 
good.''
    Sir, would you like for me to continue?
    Mr. Shays. Yes, I would like you to continue.
    Mr. Stacy. ``February 25, 1991, we started making contact 
as we were moving toward Iran. February 26, 1830 hours, we 
rolled out onto a small battlefield, a place I will never 
forget. There were trucks, tanks, BMPs, and troops. We freely 
engaged the enemy until 4:15 a.m. I heard `Cease fire, cease-
fire, cease-fire. There are friendlies to the front.' Before 
the third `cease-fire,' we had already engaged them, shooting 
an American M1A1 from the 3rd Armored Division. We shot them 
six times. We provided rescue efforts, but their ammo was 
cooking off, exploding, so we abandoned any further rescue, 
backed up 100 meters, set up a perimeter, and waited until 
dawn.
    ``That night, we lost an M1A1 and a Bradley Fighting 
Vehicle tofriendly fire. Eight buddies from my battalion were 
dead, and wewere responsible for killing them.''
    Would you like me to continue, sir?
    Mr. Shays. If you do not mind. This is your testimony, and 
I just hink it is important.
    Mr. Stacy. ``The first depleted uranium penetrator we fired 
was on January 27, 1991. We fired Sabot and Heat.'' ``Sabot'' 
is a de-
pleted uranium penetrator, and the ``Heat'' is high explosive. 
``We fired three of each to battle sight our main gun. After we 
fired our first Sabot round, we knew then the DU penetrator was 
the round of choice. I think a full combat load for an M1A1 
Heavy is 56 rounds. There is a certain load plan you follow, so 
many Sabot and Heat in your main ammo storage area and so many 
of each in your secondary storage area. I was the loader on my 
tank, and after we fired our first DU penetrator, our platoon 
switched the ammo. Put all DU penetrators in the main storage 
area, put the heat rounds in secondary storage. We were told, I 
quote: `Shoot 'em while you got 'em.' The DU penetrators were 
so devastating that we used them for everything, tanks, trucks, 
light-armored vehicles, bunk- 
ers--everything but the troops. We found out very fast that the 
de-
pleted uranium penetrators were 1,000 times more devastating 
than we expected. When a bunker was shot with the DU penetra-
tor, just the percussion from the round will kill any troops in 
the area. We wanted to shoot the good stuff and as much as 
possible.
    ``We were at war, with the best equipment out of all the 
Coalition Forces. No law, no rules, engage at will. My Platoon 
alone,'' these numbers are all estimated; no numbers are exact. 
I was just a pri-
vate in the Gulf; I only knew what I was told. ``Fired 
approximately 120 DU penetrators, with 4 tanks per Platoon. 
Thirty penetrators fired per tank, plus another 3 penetrators 
to battle sight our main gun, on January 27. Plus another 3 
penetrators on January 28, 1991. That is approximately 36 
depleted uranium penetrators each tank fired. There are 12 
tanks per Company, 4 Companies per Bat-
talion, we had two battalions on line, the 2nd Armored Division 
and 3rd, that is a total of 96 tanks. Plus we were attached to 
the 1st Infantry Division. They are a mechanized battalion with 
un-
known numbers of Bradleys, which fired 30-millimeter DU rounds. 
So as you can well expect, we were constantly in contact with 
this ammo.''
    Mr. Shays. Thank you, Mr. Stacy.
    Mr. Stacy. Thank you, sir.
    Mr. Shays. Is there anything else of your testimony you 
want to read us, or shall we go to Staff Sgt. Zeller?
    Mr. Stacy. No, sir. Thank you.
    Mr. Shays. Thank you. Sgt. Zeller.
    Staff Sgt. Zeller. Yes, sir. Gentlepersons, this is about a 
grunt's life, blood, sweat, and tears. Some of you up here will 
not under-
stand this. I am not a good speaker, but was blessed with the 
gift of gab. I thank you for the opportunity to speak, and I 
hope the money spent for me coming here will change my present 
position.
    Possible causation: Service in the Gulf war due to combat 
in the theater. Nuclear radioactive weapons and atomic energy 
plants. Depleted uranium, microwave technology kill zone 
creating electric storms. We had electric storms in the desert, 
sir, that the lightning went this way--OK--and that is 
explainable.
    Destroyed power plant at Quasyr Hammid and Al Anbar Atomic 
Research Space Center. OK? And that is documented. Biological 
weapons: cholera, anthrax, botuluum microtoxin. Chemical 
weapons: cyclo sarin/sarin, soman, tabun, mustard, blister 
blood. Prophylactic drugs, serums, and vaccines, malarian 
drugs. PB (pyridostigmine bromide); it causes damage to number 
6 chromosome. My children are susceptible at third generation 
to come out being deformed.
    Specific oil-based adjuvants: NTTTP, squalene, Vax Syn, 
Vacinae, Type C Retrovirus, Canary Pox Virus, Glycoprotein 120 
and 160 Antigens; oil fire environmental factors.
    They are now recognizing Exxon Valdez Syndrome, 
leshamenasis, ultraviolet-light overexposure, malaria; 
Mohammed's Revenge, which is a rare bacterium that is very 
pathogenic.
    Questions: Plausible denial, true or false? I am it, sir. I 
have been in SOCOM, Special Operations Command. Something is 
wrong when all the resources are spent on history, how we got 
sick, instead of cures for it, if any. Diagnoses have been 
made, but no treatments are being utilized or considered.
    I would like to point out that Congress is being wrongfully 
briefed by the leadership of the investigation. Could agencies 
in the Government utilize national security titles to develop 
and research without notice? Could this national security title 
provide them protection from within to continue the facade?
    From the registration data base in California to the 
investigation team in Virginia, what is their purpose and 
command? At the end of the command, why is there a logistics 
expert and not a doctor of medicine? Is the data base to cure 
or to count, sir? Why are they not using subject matter experts 
like us Gulf war sick and wounded to get the most eyewitness 
accounts? I volunteer for the investigation team.
    Can it be that the truth or the cure is intentionally being 
ignored for the purpose of protocol protection? Are the studies 
conducted for a possible cure to our disease process or for 
reinventing the intelligence already available? Does research 
take time, and is this a delay so we never find a possible cure 
or remedy? Can the cure be purposely hidden as not to expose 
the cause of the effect? The cure is the effect and will 
inevitably expose the cause to this Gulf War Syndrome.
    Is the cause reflective of some unethical decision or 
practice? We have come back on our word many times in the 
investigation process. Why not consider the possibilities? 
Cause: If your word is changed several times, either you are 
lacking knowledge or intentionally diverting the information. 
Can we hold supposed national security in such high degree as 
to allow our brave soldiers denied causation? National security 
is to protect the Nation. It seems as though we are taking 
individuals' protection to a new height.
    Will this protection continue until every last vet is dead 
and gone, or will the priorities be recognized? Human life is 
too precious a resource to be sacrificed for the good of a few 
men's securities. What gives the person not in harm's way the 
power to make these decisions? Considerations: If they had done 
this, it might have been better.
    This is brief, due to time limit on testimony. Most Gulf 
war veterans are not actually interested in cause of illness, 
just being cured or at least being acknowledged as having the 
physical illness. The below items may make the search for a 
cure more readily available. We know a lot of these things 
about this illness, but most of it is considered not conclusive 
or left at that. We need to take restrictions off valuable 
information and consider it for cause.
    All I want to do is to see my grandchildren grow up, 
because this illness is not over with me. And my five boys at 
least deserve this. Koch's Postulate: Define the pathology. 
This is doctor talk, sir, that I looked up. Define the 
pathology. Isolate suspect ideology agent. Reintroduce that 
agent into host. Reproduce the pathology. Naturally, we cannot 
do this with humans; however, we can back track and use 
information which is out there to build our case.
    Cardinal rule in science: ``Occam's Razor.'' Entities 
should not be multiplied unnecessarily, or, more succinctly, 
the simplest of competing theories be preferred to the more 
complex. Definitions: What is the disease process? Systemic 
autoimmune disease process; neurological disease process. 
Environmental illness infectious disease. Chemical-
characterized disease process. Biological-characterized disease 
process. Radiological characterized disease process.
    What do we know? All forms of immune disease are being 
recognized.
    Next one. From the central nervous system two peripheral 
neuropathies are being recognized: cholinergic crisis due to PB 
tablets. That also happens with nerve agent. Oil well smoke and 
spill Exxon-Valdez Sickness is being recognized. The 
chemicals----
    Mr. Shays. Sergeant, let me just interrupt a second.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. I want to make sure that I learn from what you 
are saying. I am having a hard time knowing--I got the first 
part of your testimony. I am in left field now in this part of 
your testimony. Tell me your point in going through this list.
    Staff Sgt. Zeller. The point is, sir, on the definitions, 
for example, like, I went all the way up to Walter Reed----
    Mr. Shays. Right.
    Staff Sgt. Zeller [continuing]. And they said, well, this 
sounds like lupus, but they did not do anything for it. Well, I 
went home and did my homework, sir, and I read lupus; and what 
I have wrong with me, sir, is to a ``T'' lupus. And there are 
ways to test for lupus and find out for sure, and why haven't 
they done it, sir?
    Mr. Shays. OK. It is important for me that you be allowed 
to continue and do what you want to do.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. And then I just need to tell you what I think it 
will be helpful for the committee afterwards, but maybe I could 
tell that to you now as well. We need to know a little bit 
about your experience in the Gulf because we have others who 
testify, we are trying to see where there are similarities.
    I mean, for instance, the first two witnesses talked about 
the alarms going off. The military has consistently told us the 
hundreds, if not thousands of times, the alarms went off, they 
were false; and yet we have people who will come to this 
committee, sometimes off the record, and say that is simply 
garbage, that those alarms were not false; they detected low-
level chemicals. And we are building a case, and we need to 
make sure we are doing that.
    It is important for me that you continue because this is 
important to you, and, therefore, it is important to me. 
Afterwards, I am going to have you come back and describe a 
little of your experience. OK?
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. Feel free to continue.
    Staff Sgt. Zeller. Radiological characterized disease 
process. What do we know? All forms of autoimmune disease are 
being recognized, from central nervous system to peripheral 
neuropathies are being recognized. Oil well smoke, chemical 
chiasma, as well as isolated reports in theater not considered 
official are being recognized. Rad Haz Al Anbar, Quasyr Hammid 
Atomic Power Plant, and depleted uranium 235 are now being 
recognized.
    Quasyr Hamid, sir, was an atomic energy plant that was 
bombed by the Coalition. Cholinergic crisis due to 
pyridostigmine bromide also nerve agent. And it talks about the 
receptors and how they work in motors, causing contractions in 
the muscles, secretion-causing glands to secrete. I have got 
all these things, sir. Inhibitory causing most organs to become 
quiescent. Well, sir, this diarrhea and stuff that we have that 
is really gross, well, the intestinal tract becomes quiescent, 
and that is why we have this happening to us.
    And it goes on and goes on, and then final on this, before 
I get to who I am, the chain of command to the Commander-in-
Chief, I have solicited them, sir, and I thank you so much for 
letting me come here because I have not gotten anything but a 
wall that I cannot climb, sir.
    Another thing, sir, is it talks about this cholinergic 
crisis, and it talks about the body, and I have got military 
reports, the cover sheets for them, and it says that if you 
take pyridostigmine bromide for more than 8 days constantly, 
and I took over six packs of 22 or 24 in a pack of those 
pyridostigmine bromides because they told us to take them and 
never told us to stop, so----
    Mr. Shays. Sergeant, they did not tell you; they ordered 
you to take them.
    Staff Sgt. Zeller. Yes, sir. Yes, sir. They said, you do 
it, or you die, that type of order. The 101st is expecting no 
mercy, sir. But it says here, body will dysfunction; it causes 
permanent injury through the blood-brain barrier, and it says 
it in the reports.
    Sir, I just want to finish this, and I want to say that 
this Iraqi protection prisoner program, taxpayers' money, I 
regret to be treated like the enemy. I watched C-141's, and I 
watched Iraqis get on the aircraft and come home, here in the 
United States, sir. OK.
    This is only the beginning of the information out in the 
field. God help us and our families. P.S.: We are like Teenage 
Mutant Ninja Turtles, if you are familiar. I have five boys 
that teach me about them.
    Sir, my name is Mark James Zeller, and I went through basic 
training in 1986, and I got my Aircraft Armament School in 
1987. I went from there, in February 1988, to Fort Bragg, NC, 
and was assigned to 1st SOCOM. I participated in Operation 
Prime Chance I, Prime Chance II, Praying Mantis, and Earnest 
Will, Persian Gulf-Kuwaiti Oil Tanker Security Force. April 
1989 to present day, Fort Rucker, Delta Company, 2/2nd 229th. I 
participated in Operations Desert Shield, Desert Storm, Desert 
Calm.
    Sir, these are all in the same geographic area. My 
involvement in this geographic area dates back to the late 
1980's. While assigned at Fort Rucker, NC, we assisted Kuwait 
and Iraq with their oil flow to the rest of the world, because 
the common enemy was Iran. The common enemy, Iran, discontinued 
their actions after we built Iraq up with military might, but 
Iraq changed their minds after defeating Iran. The operations I 
list above are continuations to the present day to include this 
committee meeting today.
    The Persian Gulf war is not officially over, sir. I do not 
know if you realize that. My tour of duties at Fort Bragg were 
temporary duty missions with 90-day intervals. During this 
time, I lived off the economy and only got sick from Rift 
Valley Fever from eating uncooked lamb meat in a souk, or 
ancient, mall-like area, downtown.
    I was honestly protected less from the environment during 
this mission because it was all stuff provided by host nations. 
What I mean is USDA and grading of health is not as controlled, 
and green tracers were a fact from the Iranian Government.
    So why do I get only Rift Valley Fever and come home well 
as to be expected? In addition, PTSDs should have surfaced then 
under stress of Special Ops. Why am I now sick as can be with 
Gulf War Syndrome?
    Let me try to explain my maneuvers and experiences now 
during Desert Shield and Desert Storm. Duty: Aircraft Armament 
Technician, AH-64 Apaches. Assigned, 2/229th Attack Helicopter 
Regiment, Fort Rucker, AL, June 1990, aka 2/101st AHR after 
deployed. OPCON to the commander of 101st Air Assault Division, 
Fort Campbell, KY, August 1990, via deployed to Kingdom of 
Saudi Arabia. Arrived, Dhahran International Airport, August 
1990. Moves--``moves,'' sir, meaning going from one FOB to 
another of forward operating base.
    Moves, FOB Eagle I or King Fahd International Airport 
between August 1990 to December 1990. Explored the FOB 
Tranquility Area, readied all aircraft for deep attack mission. 
Key personnel got wrist watches with no face on them and 
strange, smoke-screen operation was conducted at King Fahd 
International Airport.
    Sir, that wrist watch, I do not know this gentleman. I did 
not know him until we got in the hotel, and we just started 
gabbing. A long story short: He has the same claims I have. 
This wrist watch, on the back of it, they are told not to take 
them off. I peeled it back on one of the females that was in 
our unit, a medic, and it said ``PRC Radiac 27'' on the back. 
OK? So I know it is a Radiac meter.
    And there were people that came along, and they had this, 
like, board thing they put over it, and they were able to 
register whatever it was, but they never told us what the 
registrations were, what was going on, and so forth and so on. 
It was the circle with the ``A'' in the middle, Third Army. It 
was a test-activity group.
    Smokescreen operations was conducted at King Fahd 
International Airport. The wrist watches were Radiac monitors 
labeled on back, and why we needed them, I do not know. They 
were picked up from key personnel, March 1991, and the smoke 
screen is still a mystery to all of us to this day. We were 
only told it was something they were testing. I got really sick 
after being at FOB Tranquility, so for the first time I came 
back to the airport with a 104 fever, sweats, chills, and loose 
stools, if I may say that, sir. It is pretty disgusting. I got 
a real bad reaction to medicine given by a flight surgeon after 
being seen.
    FOB Tranquility or West Nariya, North AxZil-Fi-Frontier, 
December 1990. I started taking pyridostigmine pills for the 
prevention of nerve agent poisoning in the event Iraq chose to 
use it. I was only told it would help me survive, not that it 
could have side effects or kill you and that it was 
experimental. I took more than 60 of these pills.
    Sir, I must also add about those pyridostigmine situations, 
there were people dying, dropping dead on Taplin Road, and if 
you cannot find records of it, I cannot either, but I remember 
the National Guard unit in Florida that had the dolphins on 
their Blackhawks, and whatever that regiment is, you will be 
able to figure it out, and they will be able to tell you about 
these people.
    Mr. Shays. Let me just say, that is now part of your 
testimony.
    Staff Sgt. Zeller. Roger that, sir. A radio message----
    Mr. Shays. Sergeant?
    Staff Sgt. Zeller. Sir?
    Mr. Shays. I do not want you to be casual.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. You were saying ``dropping dead.'' You just mean 
collapsing out of fatigue?
    Staff Sgt. Zeller. Well, cholinergic crisis, sir, causes 
the nerves----
    Mr. Shays. No, no. That is not what I asked. You made a 
statement that people walking on the street----
    Staff Sgt. Zeller. Their hearts stopped, sir. That is what 
they said. They said their heart stopped, is the way they died.
    Mr. Shays. OK. And you are saying that you know for a fact 
that they were dead?
    Staff Sgt. Zeller. Yes, sir.
    Mr. Shays. How many soldiers are you talking about?
    Staff Sgt. Zeller. What I was told, down the Taplin was, 
like, 125 people had adverse effects from these PB tablets.
    Mr. Shays. What I am going to ask you to do is we are going 
to have a vote, and we are going to have a second vote after. I 
am going to ask you to finish your testimony in the next 3 or 4 
minutes, and then we are going to go vote, and then we are 
going to ask questions.
    Staff Sgt. Zeller. Sir, yes, sir. A radio message came 
down, go to MOPP Level 4, full protective gear; SCUD has been 
fired in your vicinity and is down wind, contaminant to your 
vicinity. That night, a few M-8 alarms went off, but it was 
told to be all clear. I began to leak blood out of my ears on a 
pillow every morning, just spots; nosebleeds; lip began to 
split. Sir, my lip split all the way up to my nose, and the 
center of my tongue started splitting. I do not know what it 
was, sir, but it happened. They tried to say it was 
dehydration, but I do not see how it was dehydration for that 
to be happening.
    Headaches, pounding in the ears, eyes sore. My hair felt 
like something was pulling it out, and I urinated a lot. I hope 
I am allowed to say that. FOB Eagle II, or King Khalid Military 
City, Al Qaysumah/Hafar Al Batin-Frontier, January 1991. On 
guard duty around midnight to the west of our position SCUD 
missile is shot down.
    Next morning, before stand-to, some more M-8 alarms go off, 
but it was ignored. Also received these injections said to be 
benefit of my health. One was called gamma globulin, and the 
other two were coined ``NUC Juice'' and ``Bot Tox/Anthrax 
Vaccine.'' I stepped up to receive my shots with shot records 
in hand, and only GG was annotated, so I objected to the other 
two shots. The flight surgeon took me immediately to the 
commanding officer, who showed me the blue book and told me, 
``Take them or be court-martialed.''
    I felt really sick after the shots, became really tired, 
and could sleep through anything, including allied bombing over 
the border. FOB G-Day, or North Samah/South Al Julaydak-
Frontier, January 1991. This is a rally point for ground 
convoys to assemble for insertion into Iraq.
    MSR Dakota to Virginia. Many practices were held prior to 
the actual day. We were instructed to go to MOPP Level 4 
because we will be entering a known contaminated area. A man 
was seen on a fence who died instantly, and animal herds, no 
flies around, alive. SCUD missile found next to road south of 
Samah. M-8 alarms connected to vehicles went off and paper was 
changing colors. Drive on, was the order. I began to get 
lesions all over my body. I told by medical personnel it is 
because of the lack of hygiene under these conditions.
    FOB Cobra, or North Tukayyid/North Quiban Layyah/South Al 
Busayyah.
    Mr. Shays. Sergeant, I am going to ask you to pick the 
best, most important part of what remains because we do need 
to----
    Staff Sgt. Zeller. Yes, sir. Upon arriving in Cobra, we 
received artillery that produced proofs of off-white dust. Air 
Force A-10 aircraft, 10 foot off deck, flew overhead after 
calling rear for support and leveled a flat-top mountain north 
of Quiban Layyah. I began to have pinkish conjunctivitis, 
blurred vision, thick spit, tasted metal, no hunger, ears, 
fingernails bled. I slept a lot when not working, and hands and 
feet felt like ants crawling on them.
    I had an incident where I was driving, could see, hear, et 
cetera, but could not move all of a sudden. I ran into a sand 
ditch, and hitting the steering wheel shook me out of it. The 
prisoners that I was able to talk to said they were sick and 
tired. I was starting to worry at this point because it sounded 
like they had what I had. Alarms and paper were turning colors 
during the whole time.
    Fire Base Viper----
    Mr. Shays. Sergeant, you are not going to be able to read 
the whole thing through, so just pick the part that you think 
in the end----
    Staff Sgt. Zeller. OK. This is Dhahran/Kasmeeyah, and there 
were more dead animals, POWs, very sick ones, I may add, MPs 
holding them, with inoperable radio and no water or food, left 
behind by their unit because movement; MPs told to stay and 
guard them by their commander. We gave them what food and water 
we had and called to the rear National Guard Fills--that means 
people that were put in their unit were helping out convoy 
police. On the road past that, Tallil, were bunkers with SCUD 
trucks next to them on the left.
    When we were coming back out of the country, sir, at Fire 
Base Cobra, where we came back to the same fire base we came 
from----
    Mr. Shays. Excuse me. We are going to have to go. We have 3 
minutes before----
    Staff Sgt. Zeller. OK, sir.
    Mr. Shays. I am going to interrupt you and just say one 
last point before we go. During Watergate, when Martha Mitchell 
was describing absurd things that were happening, everyone 
thought she was crazy, and everyone around her was sane. When 
she talked about all these crazy things that were happening 
around her, she happened to have been right, and I just say 
that to some of our audience who may hear some things that 
sound a little strange, but may in the end it may be very 
right. We are going to recess.
    [The prepared statement of Staff Sgt. Zeller follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Recess.]
    Mr. Shays. My hope is that we can have a candid dialog, in 
which we will learn more about your experiences in the hope of 
coming to this ultimate goal of properly diagnosing, 
effectively treating, and fairly you and our other veterans. 
That is the motive of this committee.
    Now, we want to properly diagnose, effectively treat, and 
fairly compensate. Now, some of what I have heard today, I 
understood; some of what I heard, I did not quite understand. 
One thing, though, I will say to you: It wrenches my heart to 
think that you have so little faith in the DOD, the Department 
of Veterans' Administration, in the doctors that have looked at 
you, that you then start the process of trying to figure out 
what is wrong with you because you do not think the doctors 
are, and that wrenches my heart.
    And we have had other veterans who have come and testified. 
When I was going to vote--I have come to this conclusion. I am 
tired of the DOD telling us that the alarms were false alarms. 
I have just come to conclude that I cannot accept that anymore.
    And the reason is that those alarms did not go off 
basically before the war; they went off during the war. They 
did not go off when they were exposed to all other things, but 
when the war started, these alarms started to go off. I cannot 
reconcile the loss of data, and so your testimony of the alarms 
going off and so on are not unimportant to me. I am not going 
to accept anymore the DOD position that these are false alarms. 
I just do not accept it.
    Col. Roman. Thank you.
    Mr. Shays. They are going to have to prove to me that they 
are false before I accept them. I obviously discounted a long 
time ago the DOD's position that held us back for 4 years, that 
if you did not basically show acute signs of chemical exposure, 
that if you were exposed to low-level exposure that was not, 
therefore, acute, in the end there is no harmful result from 
that. We know in this country, working with chemicals, low-
level exposure leads to illness and death. So I do not accept 
that and I did not accept a long time ago.
    Now, all of you are heroes, all of you, and you served our 
country with distinction, and I believe your testimony will 
help us get the answers you want. Now, one of the lines of 
questions that I want is, I want to know--again, some of you 
have said on this record, if you were in any area of the 
operation where the alarms went off, and I want to know those 
experiences, and I want to know how you reacted to it. I want 
to know what you did and how you reacted to it. Col. Roman, I 
will start with you.
    Col. Roman. I was in SCUD Alley there in Riyadh the first 
time I saw a SCUD. They trained us to put on our gas mask 
equipment in 14 seconds, from the time you pop it out of your 
container until you put it over your head and tie it real 
quick. I think the first time I saw a SCUD, I had it down to 
about 7 seconds, maybe shorter than that, and at that point in 
time the alarm did, in fact, go off. After the Patriot struck 
the SCUD, the chemical alarm started going off, and five or six 
times subsequent to that or after that, about the same things 
happened.
    Mr. Shays. Was that the first time the alarm went off, 
after the war had begun?
    Col. Roman. After the war had begun.
    Mr. Shays. So you did not hear alarms before the war.
    Col. Roman. Oh, no, sir, only when the SCUDs were in the 
air.
    Mr. Shays. Now, that is conceivable that the alarm went 
off, though, because of the SCUD and not because of a detector. 
Is that correct?
    Col. Roman. Yes, sir.
    Mr. Shays. OK.
    Col. Roman. I did not hear them go off at any other time 
personally unless there was a SCUD attack. And on one 
occasion--no, two occasions, I heard the alarms go off while I 
was in the Dhahran, but also it was after the SCUD attack.
    Mr. Shays. Did you have confidence in the gear that you 
wore? Did you feel that if you were, in fact, exposed to 
chemicals, that the gear would do the job it was required to 
do?
    Col. Roman. That the what, sir?
    Mr. Shays. Did you have confidence that the protective 
gear, when you went into MOPP-4, that when you put this 
protective gear on, that it would do the job?
    Col. Roman. We were not given that MOPP gear, sir. We had 
our chemical masks with us at all times, but we did not have 
access to the MOPP gear when I was----
    Mr. Shays. So you just had the masks.
    Col. Roman. Yes, sir.
    Mr. Shays. No other equipment?
    Col. Roman. No, sir.
    Mr. Shays. OK. And did you take PB?
    Col. Roman. Yes, sir.
    Mr. Shays. For how many days?
    Col. Roman. The required number of days and the required 
number of dosage.
    Mr. Shays. Were you warned that it was an experimental drug 
for that purpose?
    Col. Roman. No, sir.
    Mr. Shays. Were you asked to take it, requested to take it, 
or what?
    Col. Roman. No. It was given to us. In the Army you are 
given something to take like that as part of your equipment or 
as part of your dosage, and you take it without question.
    Mr. Shays. OK. Thank you.
    Mr. Canterbury. Sir, I remember the first time I 
experienced chemical alarms sounding and SCUD alerts was when 
just days prior to the air campaign starting. I was at King 
Khalid Military City when this occurred, and I remember during 
those alarms we immediately donned our masks, got into 
protective gear, MOPP-4.
    Mr. Shays. So you had protective gear.
    Mr. Canterbury. That is correct, sir.
    Mr. Shays. And you put it on. Let me first go back to you, 
Col. Roman. How many times did you end up putting the mask on 
during the operation before?
    Col. Roman. I remember having the mask on only on two 
occasions. Yes, sir.
    Mr. Shays. How many times, Mr. Canterbury?
    Mr. Canterbury. I am going to guesstimate probably about 
eight, total.
    Mr. Shays. So it happened enough times that you are not 
quite sure of the count.
    Mr. Canterbury. That is correct, sir.
    Mr. Shays. In any of those experiences of the first two of 
you did you feel, taste, or react to those alarms? Did you see 
anything, did you feel anything, and did you have any effect? 
Colonel.
    Col. Roman. No, sir. I could not say that I felt anything 
different or saw anything different.
    Mr. Shays. OK.
    Mr. Canterbury. The same, sir.
    Mr. Shays. OK.
    Mr. Canterbury. I cannot really honestly say.
    Mr. Shays. Thank you. Mr. Stacy.
    Mr. Stacy. Sir, to my knowledge, we at one time----
    Mr. Shays. First off, how many times did you hear an alarm?
    Mr. Stacy. Sir, I did not hear an alarm. At one time, the 
only people I saw the whole time I served in the Gulf was the 
16 men in my company. I am unaware of anybody that was testing 
for chemicals. We did not test for chemicals. We did not have 
any fear of chemicals. As soon as we crossed the border was the 
last time we had our protective gear on.
    Mr. Shays. But you had the protective gear with you.
    Mr. Stacy. Yes, sir.
    Mr. Shays. And you never heard any alarms?
    Mr. Stacy. No, sir.
    Mr. Shays. And in terms of you took the pill, the PB, Mr. 
Canterbury, you took the prescribed doses?
    Mr. Canterbury. Yes, I did, sir. I took it for probably a 
period of 8 to 9 days.
    Mr. Shays. Did you take it voluntarily, under order?
    Mr. Canterbury. Under order and in the presence of a 
noncommissioned officer.
    Mr. Shays. Now, the purpose of the noncommissioned officer 
was to what?
    Mr. Canterbury. To ensure that the younger enlisted were 
taking those pills.
    Mr. Shays. It was not to just help you figure out how to 
take it; it was to make sure you took it.
    Mr. Canterbury. That is correct, sir.
    Mr. Shays. Were you warned by anyone that it was an 
experimental drug?
    Mr. Canterbury. No, sir, not that drug.
    Mr. Shays. Mr. Stacy.
    Mr. Stacy. Sir, I would like to add, we did go past a 
blown-up ammunition dump, and we did find rounds that were 
suspected to be chemical. We took the pills. I never asked any 
questions because I believed in my chain of command, I believed 
we were doing the right thing, and I wanted to survive in case 
there was chemicals used on us.
    Mr. Shays. So you were not warned that it was an 
experimental drug.
    Mr. Stacy. No, sir.
    Mr. Shays. OK. And since you did not hear any alarm in the 
course of the operations that you were involved in, did you 
come into areas where others had the masks on?
    Mr. Stacy. No, sir. We had very little contact with any 
other people. We were in the tanks, so we would not be able to 
hear any alarms if they did go off. The NBC NCO from my unit, I 
never saw him until the war was over and we were ready to 
deploy back to Germany.
    I do not know if they were testing. I know that we did not 
test. There is one tank out of our platoon that is designated 
to test for chemicals and they did not test. I was under the 
assumption that we were trying to either save the materials for 
testing or that we were not in the fear of any chemicals.
    Mr. Shays. I know others are going to question you on 
depleted uranium. I am going to come back on that issue. As 
someone who was involved in sending you to Kuwait, we rejoiced 
in the fact that there were so few who lost their lives; and, 
frankly, much of what we heard was the battle from the air and 
what occurred there.
    You have had very vivid description of the battlefield as 
it took place, and it was something that I do not think enough 
Americans have an appreciation of because there were some units 
that were never really involved in the battle directly to the 
intensity you were.
    Mr. Stacy. Sir, that was the only skirmish that we had 
encountered that was of any significance to myself or any of 
the other soldiers. To my knowledge, now this engagement, the 
night engagement I am talking about, first of all, we were on a 
200-kilometer attack into Iraq, 36 hours nonstop, no sleep. It 
was at night. We were already tired. To my knowledge, we did 
not even move 5 miles. We rolled out there at 6:30 p.m., and it 
was 4 a.m., when the friendly fire incident did occur, and we 
stopped and sat in the battlefield until daylight and moved 
from there.
    Mr. Shays. Well, we are going to come back, just to talk to 
you about depleted uranium. So you did take the pill. You were 
not warned that it was an experimental drug.
    Mr. Stacy. Yes, sir.
    Mr. Shays. OK.
    Mr. Stacy. Sir, I would like to also say, we did take 
another pill. I did not know what it was. I have been told by 
another soldier in my unit they were malaria pills. I am not 
sure of that, though.
    Mr. Shays. Let me go to Sgt. Zeller. Sgt. Zeller, did you 
hear any alarms go off?
    Staff Sgt. Zeller. Sir, the ones I admitted to in this 
testimony, and then, like I said before, the ones that were 
connected to the vehicles who were convoying, they just went 
off all the time. And before we did the convoy, we were told to 
go to MOPP Level 4, and do not take it off until you go to the 
river, and we literally lived in them. And, sir, I just want to 
let you know something, that I was a chemical NCO, not fully 
schooled trained to have the MOS but enough trained to be a 
battalion NCO.
    The long story short is, sir, those cry-backs with the 
suits in them with all the charcoal all over them, that we 
looked black as night after we wore them, those things only 
last 12 hours, sir, and the one I testified to when I was up at 
Eagle, OK, and I was on guard duty--no, not guard duty, but in 
Tranquility, and they said SCUD is in the vicinity, we ripped 
the bags open and wore the suits. Twelve hours later, we should 
have gotten new suits, sir. We wore those suits all the way to 
Basra. We went all the way up to Basra and then back, cutting 
off the Republican Guard.
    Mr. Shays. How many days was that?
    Staff Sgt. Zeller. Sir, that had to be at least 2 months. 
We worked that long, and we sweat our tail feathers off in 
them. There was no more charcoal left with them, but we still 
had nothing else. We had no other skin.
    Mr. Shays. I know you have it in your testimony, but I want 
it part of this questioning when we refer back to the record. 
How many times did the alarm go off that you recall?
    Staff Sgt. Zeller. While driving all the time, it would 
just like go off, and whoever's alarm went off, they would 
stop, and then they would go and they would reset it and then 
we would drive along and then keep going.
    Mr. Shays. Well, let me ask you this. Did you have the 
alarm before when you were driving, and did it go off?
    Staff Sgt. Zeller. No, sir. It did not go off while we were 
on the other side of the border.
    Mr. Shays. So when you were on the other side of the border 
driving----
    Staff Sgt. Zeller. When we crossed----
    Mr. Shays. Hear my question. Hear my question.
    Staff Sgt. Zeller. Sir.
    Mr. Shays. You had the alarm in this vehicle for a while.
    Staff Sgt. Zeller. No, sir. We did not put them on until we 
were entering.
    Mr. Shays. You did not turn on the alarm.
    Staff Sgt. Zeller. We did not hook them to the vehicles 
until we were entering Iraq----
    Mr. Shays. OK.
    Staff Sgt. Zeller [continuing]. Because they had knowledge 
of contamination.
    Mr. Shays. So it would really be pointless for me to make 
an assumption that the alarm did not go off before because you 
did not have them hooked up.
    Staff Sgt. Zeller. Well, they were hooked up to a ground 
point. On our perimeter we would set up a camp, and we would 
have them on the outskirts of our perimeter, and each company 
was at the outskirts of the perimeter, and they had 
responsibility for theirs, and they had responsibility for 
theirs, and it was set up strategically so if the wind blew 
this way and took something, that one would go off, and all the 
message----
    Mr. Shays. So those alarms did not go off, but when you 
mounted them on the vehicle----
    Staff Sgt. Zeller. They were going off all the time when we 
were driving, sir.
    Mr. Shays. OK. Well, that would lend argument to the fact 
that they would have been false alarms on the vehicles. It was 
not like you had been driving with them on the vehicle before 
and not going off.
    Staff Sgt. Zeller. Sir, I would challenge that for the fact 
that we saw dead animals and so forth.
    Mr. Shays. OK.
    Staff Sgt. Zeller. And they did not have a bullet in them.
    Mr. Shays. OK. I am going to just end with that, and we are 
going to go. We have plenty of time here. The dead animals; I 
am wondering if this is becoming folklore here. I would like to 
have any of you who saw dead animals, did you see dead animals 
sometimes with flies and sometimes without? Did you see humans 
dead with flies, without? Can any of you respond? I will start 
with you Sgt. Zeller.
    Staff Sgt. Zeller. Sir, the flies were like epidemic.
    Mr. Shays. They were everywhere.
    Staff Sgt. Zeller. Everywhere, but when we found these 
herds, they were nowhere to be found, or they would be laying 
on the animal dead, deader than a door nail.
    Mr. Shays. What would be laying on the animal?
    Staff Sgt. Zeller. The fly.
    Mr. Shays. So if you saw flies on the animal, they were 
dead flies?
    Staff Sgt. Zeller. Right, sir, on the animal. I mean, why 
would the flies not be there, and they are everywhere else----
    Mr. Shays. OK.
    Staff Sgt. Zeller [continuing]. That might be clean 
possibly?
    Mr. Shays. And then when you saw them, they were dead. That 
is something you saw. Correct? If you saw----
    Staff Sgt. Zeller. They were on the side of the road, sir. 
I mean, you would be jogging, and then all of a sudden you 
would see a flock of animals deader than a door nail.
    Mr. Shays. OK. And you did not see gunshot wounds.
    Staff Sgt. Zeller. No, sir. No bombs dropped, no nothing. 
The area we went through, sir, was like the 82nd, 24th, and 
101st. We all went through an area that was called, like, a 
spearhead move. We were not supposed to even be known that we 
were there. We jumped over the top of Taplin Road. We moved up 
Taplin Road, and supposedly Saddam did not know we were going 
to be there because he moved all his men down toward Kuwait.
    Mr. Shays. Yes. OK.
    Staff Sgt. Zeller. So it was one of those, like, blitzkrieg 
situations, and we were a part of that. So----
    Mr. Shays. I hear you. Mr. Stacy, any dead animals without 
flies or dead flies?
    Mr. Stacy. Sir, the dead that we saw, we were mounted on 
the tanks. We did not stop and investigate. We just assumed 
everything that we saw dead as a casualty of the war.
    Mr. Shays. And you do not have any story about flies not 
being on them. That was not something----
    Mr. Stacy. We did not investigate, sir.
    Mr. Shays. I understand.
    Mr. Stacy. Until the war was over with, that is when we 
started going on clearing missions, but at that time we were in 
a different location, and I did not witness any of that.
    Mr. Shays. OK. And when you did the clearing mission at the 
end, you did not witness any of that?
    Mr. Stacy. Not to my knowledge, sir. I have memory loss, 
and it is hard to recollect some things.
    Mr. Shays. Listen, I do not expect you are going to always 
have an answer that you are going to know or that I am going to 
like; I just want it on this record. OK?
    Mr. Stacy. Yes, sir.
    Mr. Shays. Let me just ask the two of you gentlemen, and 
then we will get to Mr. Sanders, did you see dead animals? Did 
you see humans? Were there flies? Weren't there flies?
    Col. Roman. I have no experience, Mr. Chairman, with the 
dead animals. The only flies I saw were on myself usually.
    Mr. Shays. OK.
    Mr. Canterbury. Sir, I experienced both dead sheep and 
human bodies. I, like the sergeant down here, was up near the 
Taplin, and that is where I experienced the sheep, and I did 
not see any flies on those sheep.
    Mr. Shays. And at the time did you notice it? Was it that 
interesting, or was it later on that people--I am just 
wondering if we are reconstructing this later.
    Mr. Canterbury. No, sir.
    Mr. Shays. Did you notice it then?
    Mr. Canterbury. I remember discussing it with fellow 
soldiers at that point in time. We were just right across the 
street from the Taplin that the sergeant speaks of, and there 
were a lot of sheep herding around that area, and just days 
prior to ground war is when I saw, I personally saw the dead 
sheep with no flies. As far as humans, I saw a lot, but I was 
in a convoy, and I did not have time to look to see. OK? Sir?
    Mr. Shays. Yes, sir.
    Mr. Canterbury. There is something that I want to re-
emphasize about the chemical alarms.
    Mr. Shays. Yes, sir.
    Mr. Canterbury. You asked, what did you do when chemical 
alarms would go off? We would get into our MOPP-4 gear. 
Something that bothers me a lot is the fact that I was a 
private over there, and I was expendable. I was forced to take 
my mask off to see if it was all clear. It bothers me when this 
French detection team is 2 miles up the road that could come 
down and check out the area to see if it is all clear, but 
instead, because my lieutenant and my platoon sergeant were 
uncomfortable in their protective gear at 100-some-degree 
temperatures, they would grab a private, take off your mask.
    Mr. Shays. When they said that, did they keep their mask 
on?
    Mr. Canterbury. Yes. They kept their mask on, and there 
were times when a couple of us privates----
    Mr. Shays. Yes, sir.
    Mr. Canterbury [continuing]. Basically said, we are not 
taking our masks off. And they threatened with court martials 
and threatened to have NCOs come over and take the masks off of 
you. I had my mask removed, and I am going to tell you right 
now, I took a sergeant's mask off with me.
    Mr. Shays. So your testimony before this committee is that 
you were ordered to take off your mask and you did not and then 
a sergeant attempted to take it off and you took his mask off 
with you.
    Mr. Canterbury. Along with it, as he was taking mine off, 
sir. I am sorry.
    Mr. Shays. That needs to be part of the record.
    Mr. Canterbury. There is no regard for human life there, 
and this is my life he was playing with.
    Mr. Shays. I would like to think that that was an unusual 
experience in the war. We have never had anyone else testify to 
that, but I think it is very important that you made it part of 
the record.
    Col. Roman. I would like to think, sir, that that would 
have been an isolated incident as well because as a member of 
the officer corps and having been a former enlisted person 
myself, an NCO, the men always came first.
    Mr. Canterbury. Not a private.
    Mr. Shays. Pardon me?
    Mr. Canterbury. Not a private.
    Mr. Shays. Mr. Sanders, you have as much time as you would 
like.
    Mr. Sanders. Thank you, Mr. Chairman, and I will be 
reasonably brief. I would just like to ask all of you if you 
could just respond.
    As you know, or may know, the official position of the 
Presidential Advisory Committee in trying to understand Persian 
Gulf war illness is that they did not believe that chemicals 
played a role in the illness and believed that the primary 
cause was stress, that stress is the cause of Persian Gulf 
illness. Could you give me your observation on their 
conclusion? Just, Colonel, if you would start and just go down 
the line. Do you agree with that conclusion?
    Col. Roman. I do not. I am not certain how trained medical 
personnel could come to that conclusion, much less a committee 
or a commission such as has been appointed by the White House 
to investigate this. I think that everyone who goes to war or 
who is in combat has some form of a trauma or a stress; 
however, to put the blame on trauma or stress like that is 
ridiculous.
    It goes way beyond, I think, a conclusion that most normal 
people would have, and it particularly concerns me because it 
also obliterates the obvious, and that is that, in fact, 
chemicals and biological warfare weapons were found in the Gulf 
after the war, and that has become a matter of congressional 
testimony in the Congressional Record, so I cannot understand 
how they come to that conclusion.
    Mr. Sanders. Thank you.
    Mr. Canterbury. Sir, my opinion about stress is that I do 
believe that stress can have a reaction on the human body, but 
as far as it having a reaction the way it is having on me, I 
doubt it, sir. I doubt it very much. There has got to be 
something more to my ailments, my illness, whatever, however 
you want to put it, sir. There has got to be.
    Mr. Stacy. Sir, I agree with him also. I have had some 
anger problems, but I would like to say----
    Mr. Sanders. So have we all.
    Mr. Stacy. Well, sir, to be honest and to be blunt, we are 
trained killers, defenders of this country. You cannot expect a 
soldier to take his training and to use that training and to 
come back the peaceful man that he once was. The things that 
you do in combat, I can only say that it is like hell. That is 
what hell is going to be like.
    Now, I agree, my health is not because of stress. I have 
tried the counseling and everything else. It has not helped any 
at all.
    Mr. Sanders. Sergeant.
    Staff Sgt. Zeller. Sir, yes, sir. Sir, I was in SOCOM 
before this mission. OK? And you are pedigreed. You are taken 
care of. Your every need you ever needed was done. You never 
had to do anything but get in an aircraft and deploy. When you 
would come back, you would get that same old brief. It is 
called a ``down brief.'' You are told about zoning. You are 
told about PTSD, so forth and so on. So, sir, I was somewhat 
educated. OK? And that is why I have been so argumentative, all 
the way up to Walter Reed about them trying to say that I have 
frustration.
    No, I have aggravation, and the aggravation is caused by 
the U.S. military using plausible denial on me to cover the 
protocol.
    Mr. Sanders. The bottom line is you do not believe that 
stress is the source of it.
    Staff Sgt. Zeller. No, sir, because I was trained on every 
deployment prior to that.
    Mr. Sanders. OK. Let me ask my second question, and that 
is--and the chairman has already gone over this a little bit--
there have been a number of studies, including one from the DOD 
actually, which suggest that pyridostigmine bromide, in 
combination with other chemicals, can cause perhaps problems. 
Could you just very briefly tell us in your own personal 
observations with PB reactions that you may have had and what 
you have heard from your comrades about that. Colonel, did you 
want to start on that?
    Col. Roman. Sir, I would love to answer the question if I 
had enough detail or information. I am not qualified to make 
that.
    Mr. Sanders. Thank you. If that is the case, that is the 
answer that we want. Private?
    Mr. Canterbury. Sir, I did not know about bromide tablets 
until I got into the Persian Gulf region, and I do not know 
enough about it to form an opinion also.
    Mr. Sanders. OK. Your own personal observations of what 
people may or may not have--if you do not know, then that is 
the answer that we want. We do not want you to say what you do 
not know. Private?
    Mr. Stacy. That is the same here, sir. I took the pills, 
but I cannot recollect any effects I had from them. The shots, 
I know I had gotten sick from one of the shots. There was too 
many things going on to be concerned about the effects of any 
pills. We were under a lot of stress. We were tired, et cetera.
    Mr. Sanders. OK. Sergeant?
    Staff Sgt. Zeller. Sir, I will be happy to give you what I 
have. I knew nothing about them. I will be honest with you. I 
did not get interested in them until some people were talking 
about them having adverse effects. So I studied them and I 
asked all the right people and they gave me this cholinergic 
crisis. So I can tell you now I know all about them, and every 
one of my symptoms that I have can be given to that. I have 
endocrine problems. I have nerve problems.
    Mr. Sanders. But in terms of your observations when you 
were over there in the midst of all this stuff----
    Staff Sgt. Zeller. Sir, I did not think nothing of it; I 
was thinking of my job. I am the gun bunny on helicopters, and 
it is a tough job.
    Mr. Sanders. OK. My next question actually is for Private 
Stacy; and, Private, you indicated to us that right now your 
family is in serious financial straits. Why are you not 
receiving compensation that might be due to you because of your 
wartime condition?
    Mr. Stacy. I have been denied, sir. I have been denied 
undiagnosed illnesses. I have a claim pending for chronic 
fatigue. It has been pending for 2 years. My records are being 
shuffled back and forth from Nashville, TN, to Muskogee. They 
believe that all of my complaints are due to stress. I have a 
copy of my medical records, which I do not have on me now. But 
the doctor does say in my records, I believe the patient is 
exaggerating symptoms, I believe the patient has been coached, 
and I believe he is here to try to get increased disability.
    Mr. Sanders. OK. My last question, maybe I will start with 
you, Private, again, is you mention memory loss. In my own 
State of Vermont, we have run into folks who are suffering the 
same problem. Can you talk a little bit about what that is like 
and how that compares to----
    Mr. Canterbury. Are you addressing me, sir?
    Mr. Sanders. I was talking to Private Stacy. I want anybody 
who feels comfortable to answer that. Talk to me a little bit 
about----
    Mr. Stacy. I will answer that, sir. I was unaware I had 
memory loss because I could not remember that I was forgetting. 
Whenever questions are asked me, I can recall incidents. 
Certain details, I did not focus on because I was more 
concerned about my wife and my daughter and coming home. My 
diary is real sketchy. I was not concerned about any of those 
things.
    I did not realize I had memory loss until my wife started 
putting little notes up and stuff. And it is just little stuff, 
sir, just little things, going back and forth, trying to get 
something done around the house. I go back and forth, forget 
what I was doing, just little things that I am not even aware 
of.
    Mr. Sanders. OK. And is this different than before you went 
over?
    Mr. Stacy. Yes, sir. I have changed. My friends, nobody 
wants to be around me. They think I am crazy. They think I am 
talking about this Gulf war illness, that there is no such 
illness. It would be easier to convince people that I was 
abducted by aliens than I got sick in the Gulf.
    Mr. Sanders. OK. Would anybody else like to comment on 
memory loss?
    Col. Roman. Yes, sir, I would.
    Mr. Sanders. Colonel.
    Col. Roman. In my two VA evaluations and my one U.S. Army 
evaluation of myself at Fitzsimmons, two out of the three 
doctors who examined me who were certified to examine me for 
that particular question indicated in their notes that I have 
short-term memory loss, and I am not sure, quite frankly, 
whether it is because of my advancing age or because of 
something that occurred in the Gulf, but the neurologist, Dr. 
Baumzweiger, as I said earlier, did indicate that my short-term 
memory loss, at least a good portion of it, is due to 
neurological damage, perhaps brain-stem damage.
    Mr. Sanders. Anybody else want to comment on the issue of 
memory loss? Sergeant.
    Staff Sgt. Zeller. Sir, I have got, like, I will give you 
an example that happened here. I forgot to pack my head gear 
coming here or I forget my keys or my wife asks me to do 
something, and I will go through the entire day, get home, and 
she said, Well, where is this? or What did you do with this? or 
How come you did not do that? And I am, like, I forgot. And it 
is very aggravating, sir.
    Mr. Sanders. Colonel, let me go back to one point that you 
just made. You indicated that you visited a physician in L.A. 
at the Veterans----
    Col. Roman. At the VA, yes, sir.
    Mr. Sanders [continuing]. Who examined you and concluded 
that you were suffering from nerve damage as a result of 
chemical exposure?
    Col. Roman. His exact words, sir, to be for the record 
would be that I had severe, neurological damage as a result of 
my service in the Gulf war. Perhaps chemicals or whatever you 
contracted over there was responsible for your nerve damage, 
but something occurred over there while you were there.
    Mr. Sanders. He determined that you had nerve damage as a 
result of your service.
    Col. Roman. Yes, sir. Yes, sir.
    Mr. Sanders. And he later indicated to you that the VA no 
longer wanted him to be treating----
    Col. Roman. At that particular time, he had finished his 
examination at 12 o'clock. It started at 9. He was summoned by 
the chief neurologist. He came back half an hour later somewhat 
in distress. He indicated that he was no longer authorized or 
allowed to treat Gulf war veterans because--he felt it was 
because that his conclusions or his findings that he was coming 
up with were not the same or expected findings that the VA 
expected him to find.
    Mr. Sanders. Unfortunately, Mr. Chairman, we have heard 
that tale once or twice before, I think, as well. Mr. Chairman, 
that is the extent of my questions at this time. Thank you.
    Mr. Shays. Thank you. Just a few more questions, not many. 
I would like to know if each of you are registered in either 
the VA Health Registry and/or the Comprehensive Clinical 
Evaluation Program.
    Col. Roman. Yes, sir. I am registered with both the VA in 
DC and the VA in Denver and the U.S. Army's program when they 
had me on their register as well.
    Mr. Shays. I am sorry. Mr. Towns, you came back. I am 
sorry. I am going to go right to Mr. Towns. I am used to your 
being right here.
    Mr. Towns. Thank you, Mr. Chairman, and I will try to be 
brief.
    Mr. Shays. You can have as much time as you want.
    Mr. Towns. Thank you. Let me begin by first saying, do any 
of you know whether other people in your units have experienced 
the same symptoms that you have? Colonel.
    Col. Roman. Thank you, sir. Sir, I have been in touch with 
a number of people in my unit, a small number, because they are 
scattered throughout the country, and at least three of the 
people that I have been in contact with have registered with 
the VA; and, in fact, a couple of them were being treated at 
the VA--correction--the Fitzsimmons Army Hospital while I was 
there back in 1995, but I have not made any effort to find out 
what the rest of them were doing. There was 400 people I was 
serving with.
    Mr. Stacy. Sir, I have only been in contact with one other 
member of my unit since I have been out. He in turn states that 
he has been in contact with several other members. He states 
that he is experiencing some of the symptoms that I 
experienced. He has also stated that there are two other 
members from my unit who have been very ill for several years 
now and have been, the way he described it, on their death bed. 
They have not been able to come out of their bed for a couple 
of years now.
    Mr. Towns. Stacy, you were in a pretty small unit.
    Mr. Stacy. Sir, I have heard rumors, but I will stick to 
fact. Fifty percent of the soldiers I have contacted, which I 
have not contacted over 10, are sick. The other 50 percent, 
which I was in denial for years--I believed the VA, I believed 
the doctors, and it is too hard of a battle to go and fight the 
VA. It is hard to accept the fact that this condition is going 
to ultimately be my end. Denial is a big problem with this.
    Mr. Towns. Just for the record, let me just make certain. 
How many were in your unit?
    Mr. Stacy. Let's see. There are 12 tanks in a company, 4 
men per tank.
    Mr. Towns. Forty-eight?
    Mr. Stacy. Yes, sir. I have only contacted less than 10. A 
few are sick. One soldier lost a kidney. He had his liver 
patched and his spleen due to an accident playing softball. 
When he goes to the VA, they are able to tell him that these 
problems are because of these losses or organs, and he accepts 
that. Another soldier from my unit had a healthy child, to the 
best of my knowledge, and does not want to even speak about 
anything in the Gulf. He is in denial about it. He does not 
want to hear it. We had two soldiers that left the Gulf before 
combat even started, complaining of health problems.
    Another soldier, I have got another friend that is not 
sick; still he is in the reserves, but he left over a month 
before we did. Another soldier is sick, and that is about all 
that I know.
    Mr. Towns. OK. Thank you very much, Mr. Stacy. Sgt. Zeller.
    Staff Sgt. Zeller. Sir, I know of an officer that I rode 
everywhere around the desert with, and I am here to tell you 
that he came down with something where they pumped him full of 
steroids, they pumped him full of this paquenele or whatever, 
and then the last-ditch effort was they finally got off their 
dukeses after he went after the hospital commander to send him 
to Walter Reed. And he had this very strange situation where 
they did plasma parises on him and stuck him with several 
liters of sandaglobulin, which is like giving him a brand-new 
immune system.
    And I have come to some information most recently about 
autoimmune disorders. That is why I have come up with that as 
one of the things. This guy was suffering from autoimmune 
symptoms, for some unknown reason. He was diagnosed with poly--
CDIP--something poly something-neuropathy, chronic inflammatory 
poly-neuropathy or something like that.
    He was diagnosed with Guillaume-Barre. OK? Guillaume-Barre; 
I looked it up, and the only way you can get that is vaccines. 
OK? He was told at Walter Reed not to ever say anything about 
his problem because it cost beaucoup dollars for him to have 
anything like this done to him and that it would be way too 
much to do for everybody that is in the Army.
    Sir, I am here to tell you that we were everywhere 
together. We drank out of the same water holes. We ate from the 
same logistics points and so forth and so on, and I think I am 
a little more heartier than he is, but he was sick with this, 
and I will be more than happy to give you his telephone number 
and let you call him and let him tell you his horror story, and 
it was about money. Walter Reed said it was about money. So I 
can give you a for-real.
    And then the other situation, sir, that is really grave, I 
was drawn out. OK? In September 1995, I was working on a 
helicopter accident that happened at Fort Rucker, and I was 
investigating it, and Bethesda Naval Research Center called me 
and said I had to come forward or else, and I had no choice. I 
mean, I have been in where I was hiding, because I had seen it 
off in 1991. I had seen it when I filled out a DA-4700, 
demobilize/remobilize work sheet for Southwest Asia, and I put 
down all my problems then. OK? That was July 1991.
    The long story short is this form was produced April 1991. 
Now, tell me if someone does not know something is going on. I 
have this form here. I will be happy to show you this form that 
I filled out. It has an NCO that signed me off, so it is 
official, and if you call him up, I am sure he will say, Yes, I 
did sign this guy off, and I did tell him it was only for a 
data base. We are not interested in taking care of you right 
now.
    So when I started going to sick call and I had doctors 
telling me that you are riding sick call that you are trying to 
do something, so forth and so on, giving me all these 
ridiculing-type remarks, which I am not into, I started hiding. 
And there are soldiers hiding. There are people hiding because 
they do not want ridicule. They do not want to be treated like 
a second-class citizen for this ailment that they have, 
whatever it might be. It could be several things.
    Mr. Towns. Right. Thank you.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Towns. Colonel, do you want to add something?
    Mr. Shays. Could we put on the record, if I might?
    Mr. Towns. Sure.
    Mr. Shays. The people you suggest who were hiring are 
active military personnel who do not want to have to deal with 
this within the military system. Is that correct? You are not 
talking----
    Staff Sgt. Zeller. Well, they have seen everybody----
    Mr. Shays. Listen to my question.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. What I am asking is, just for the record to make 
sure we know the difference, you are not suggesting that 
soldiers who have left active duty are necessarily hiding. You 
are talking right now, for the purposes of responding to Mr. 
Towns, you are responding to the fact that active military 
personnel, some in particular, chose to hide rather than come 
forward within the military system.
    Staff Sgt. Zeller. Because I do not want to get kicked out, 
sir. I needed my job.
    Mr. Shays. I just want the answer.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. And I understand that.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. And I am not critical of it; I just want to 
understand it.
    Col. Roman. Fine. Mr. Towns.
    Mr. Towns. Good point, Mr. Chairman. Yes.
    Col. Roman. Thank you. I think I have been very 
conservative in my responses, and I am very careful in what I 
say, and so I would like to add for the record that to answer 
your question about the former people that I worked with or do 
I know about anybody else who was ill, I would like to answer 
into the record that Dr. Stuart Hiatt, H-I-A-T-T, who is an 
M.D. of his position, a surgeon, who was in top shape and could 
run 1 mile in about 4\1/2\ minutes, 5 minutes at the age of 50, 
went to the Gulf war was a volunteer.
    He was my former commander, and he got there, was there 3 
or 4 days, and they had to air lift him out of there. He did 
not see combat. They had to air lift him out of the Gulf. He 
went back into Fitzsimmons for examination, and they kept him 3 
or 4 months after the war for unknown symptoms, unknown 
ailments in San Antonio.
    I believe if you got his records, as a matter of fact this 
particular committee hearings, that you would be able to find 
out a whole lot more than I know about it at this point in 
time, but when you get a man who is in the prime of his life, 
and he gets to the Gulf and 3 days later he is air lifted out 
for unknown ailments and it is nothing to do with his physical 
fitness, because he is fit, then that is a problem.
    Mr. Towns. Right. Let me ask you another question. How many 
of you have children? Do all of you have children?
    Col. Roman. Yes, sir.
    Mr. Canterbury. Yes, sir.
    Staff Sgt. Zeller. Yes, sir.
    Mr. Towns. Have you seen any problems with your children?
    Col. Roman. I am not, sir. My children are adults, and they 
have children.
    Mr. Stacy. Sir, I would like to say, my daughter was born 
before I deployed, and she is having some problems. And I would 
also like to say, my wife and daughter did have a Gulf War 
Registry Exam in Jackson, MS.
    Mr. Canterbury. Sir, I have three children, one boy, two 
girls. My youngest was conceived after I came home from the 
Persian Gulf. All three of my children complain about their 
arms and their legs and different muscles in their body 
hurting. My youngest daughter has respiratory problems, and 
that is about the extent that I am aware of at this point in 
time, but for them to come to me basically every time I see 
them and complain that their arms and their legs hurt, I mean, 
I know children have growing pains, but they should not be 
complaining about them, almost on a daily basis.
    Mr. Towns. Yes. Do you want to add?
    Mr. Stacy. Sir, these veterans and children, they are 
casualties of this war. Something should be done for them also.
    Mr. Towns. Thank you very much, all of you, for your 
testimony. Mr. Chairman, I yield back.
    Mr. Shays. I thank the gentleman, and I just want to go 
through--some of you responded, but I want all of you to 
respond in this part of the record.
    I started out asking you, Col. Roman, and you told me you 
were registered in both the VA Health Registry and the DOD 
Comprehensive Clinical Evaluation Program; you were in both.
    Col. Roman. Yes, sir, both with the VA and with the U.S. 
Army sent out a letter and asked me to be registered. I am. I 
believe the CDC also sent out something to me to fill out as a 
questionnaire type, and I filled that out as well.
    Mr. Shays. Very good. Mr. Canterbury.
    Mr. Canterbury. Sir, I have been registered on the Persian 
Gulf Registry Examination twice. I am registered on the DOD 
Health Registry.
    Mr. Shays. Private Stacy.
    Mr. Stacy. Sir, I am also on the Gulf War Exam Registry. I 
did an updated data sheet. My doctor told me that they do not 
know what is wrong. They have run all the tests. I did request 
to go to the hospital there in Houston, TX for further tests, 
and they denied me that. As a matter of fact, it is not even in 
my records that I requested that.
    Mr. Shays. Sgt. Zeller.
    Staff Sgt. Zeller. Sir, I have been on it because Bethesda 
Naval Research called me September 1995. Since that time, I 
have had two different incidence, at Seaside, CA, where the 
registration is, where they told me that I was not registered. 
Somehow the data base, they switched computers or something 
like that, so I have had to, like, reapply twice.
    And one of the situations was when I was calling the 
investigation team and, like, research team, the one you call 
and you tell where you were and what you did and so forth, 
which is a lot like the one I told here, they said in 
Washington that we have no registry of you. That was the second 
time this happened, and then I called California, and they told 
me that is crazy; we have you here.
    So, in other words, California sort of lost me once, and 
then Washington was not in the groove with California. And, 
furthermore, my children and my wife have been on that since 
November or December 1995, when the guys that said tell your 
story, they said it is significant enough to put your whole 
family on this because there could be a possibility that they 
might have something wrong with them, too.
    Well, since 1995, sir, not one of my relatives, until I 
went off on them most recently, was being seen, and the one 
they took was, like, superficially looked at, sir.
    Mr. Shays. Now, all four of you had symptoms during the 
war. Is that correct?
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Stacy. Yes, sir.
    Col. Roman. Yes, sir.
    Mr. Canterbury. Yes, sir.
    Mr. Shays. All four of you had it.
    Col. Roman. Yes, sir.
    Mr. Stacy. That is correct, sir.
    Mr. Shays. I want to know, in simple terms, what your 
diagnosis was and if any treatment was provided.
    Col. Roman. For myself, sir, it occurred when I was in 
Riyadh and I was traveling with my commander at the time, who 
happened to be a physician. He did not happen to be; he is a 
good physician. And I got real sick, started vomiting, and----
    Mr. Shays. Right now, I just want to know what your 
ultimate diagnosis was and what your treatment was.
    Col. Roman. He diagnosed it at that point in time as food 
poisoning; not knowing anything else, that is what it was.
    Mr. Shays. But that was onsite.
    Col. Roman. Onsite. That is right.
    Mr. Shays. But once you went to the VA, what was the 
diagnosis that you were given?
    Col. Roman. I have given the VA and Fitzsimmons stool 
samples, when I am in the process of flu-like symptoms, and 
they have never found any kind of parasite or anything else 
that would cause me to have that kind of an illness.
    Mr. Shays. You went to the VA. Correct?
    Col. Roman. Yes, sir. After the war.
    Mr. Shays. And after the war, what was your diagnosis?
    Col. Roman. They have not diagnosed it.
    Mr. Shays. OK. Private Canterbury.
    Mr. Canterbury. Sir, are you asking what the diagnosis was 
in the Gulf or at the VA?
    Mr. Shays. At the VA.
    Mr. Canterbury. At the VA, I have been diagnosed, as far as 
I know of, with fibromyalgia and migraines. I am not service-
connected, and that is it and I have gone through three 
different hospitals. I cannot get results from tests, sir.
    Mr. Shays. Private Stacy.
    Mr. Stacy. Sir, I was undiagnosed also. I would also like 
to say, for the past year I have been pushed and pushed toward 
mental health. I am 30 percent service-connected for PTSD. I 
would not pursue that any further until just here recently 
because we were just starving to death. I would not accept the 
fact that it was PTSD, but all of my symptoms are undiagnosed.
    Mr. Shays. So, in other words, for you to get some kind of 
compensation, that is the one you have to accept.
    Mr. Stacy. Yes, sir, and I would not do it. We have been 
starving for 1 year. Our family and friends, if it was not for 
them and God, we would not have made it.
    Mr. Shays. Sgt. Zeller.
    Staff Sgt. Zeller. Sir, if I may, I need to say it this 
way. They are trying to do my MEB now because I have caused so 
much of a ruckus. The long story short of it is it all happened 
when I tried to solicit the President, tried to call him and 
talk to him possibly.
    Mr. Shays. Well, I do not think you are going to accomplish 
much doing that, and that is no disrespect to the President.
    Staff Sgt. Zeller. Right, sir.
    Mr. Shays. So I want you to answer my question, then.
    Staff Sgt. Zeller. Well, the question is, they asked me----
    Mr. Shays. I am going to interrupt you. I am sorry.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. I am going to give you a chance to make your 
point, but I want the answer first, the answer to: what is your 
diagnosis?
    Staff Sgt. Zeller. They did not give me one. They asked me 
what my most significant illnesses are, and that is all they 
want to focus on, sir. I cannot say it any other way. I am 
confused. I am not a doctor.
    Mr. Shays. No. I just want to know if they had given you--
--
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. OK.
    Staff Sgt. Zeller. They have not given me one.
    Mr. Shays. I did say I would let you make your point. What 
is the point you want to make?
    Staff Sgt. Zeller. The point is that, I mean, they focus on 
the significant illnesses and make them insignificant, and then 
I wind up just like this man here, living in Appalachia with 
five sons, starving to death, sir.
    Mr. Shays. Because you are not being allowed to re-enlist. 
Your worst fear has come true. Your worst fear was that you 
came forward, you came forward, and you are not being allowed 
to re-enlist, so you are out. You are presently an active 
member of the Armed Services.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. But you will be inactive when?
    Staff Sgt. Zeller. As soon as they get the MEB together 
because I am fussing because there is nothing on there like 
what is happening to me.
    Mr. Shays. Let me just conclude by asking, is there any 
question that I should have asked you that you wanted on the 
record? I will start with you, Colonel Roman. Is there any 
question that you wish we had asked or any one that you were 
prepared to answer that we should have asked?
    Col. Roman. No, sir. I think you have been quite thorough.
    Mr. Canterbury. I cannot think of any at this time, unless 
you could ask me--give me some time to think about that.
    Mr. Shays. Well, the record will be open, and so you will 
be allowed to submit additional.
    Mr. Stacy. Not at this time also, sir. Thank you very much.
    Mr. Shays. OK.
    Staff Sgt. Zeller. Sir, this book right here I think has a 
lot to do with the situation, and I do not know how you can get 
a copy, because I could not get it in any book store, but I 
think you might really want to take a peek at this. I do not 
know if that is a question, but maybe, Staff Sgt. Zeller, can I 
look at your book? I would be happy to show it to you, sir.
    I am sorry, sir, but this book right here dates back to my 
original----
    Mr. Shays. If that is the question you wanted me to ask, 
Sergeant, may I look at your book?
    Staff Sgt. Zeller. Certainly, sir.
    Mr. Shays. Thank you. I would like to.
    Staff Sgt. Zeller. Sir, yes, sir.
    Mr. Shays. One of the things that we think we can learn is 
to learn what has happened with the civilian population in 
Iraq. When we blew up the 21 to 36 potential sites--that number 
is classified, but when we blew up whatever number it was, the 
document said that the plumes would go away from the troops, 
not toward them. We know that some of the plumes went toward 
our troops, not away. But we then ask the question, well, if 
they went away from our troops, where did they go? And we 
suspect some went to civilian populations in Iraq.
    The problem the Iraqi people have is they have a leader who 
is not about to admit that his stockpiling--think of this 
extraordinarily potentially wealthy country that instead of 
going toward war could have gone toward peace and used its 
resources. They had one of the highest educated communities. 
Women were given tremendous rights, these Arab women, and yet 
you have a country that has many sites that were blown up and 
had stores of chemicals, potentially biological agents, and we 
have reason to believe that many Iraqi citizens have been 
impacted.
    And if we could learn what has happened to them, we might 
learn a little bit more about what has happened to all of you.
    I thank all four of you for being here, and your testimony 
was extraordinarily valuable, and I know that there have been 
one or two references to not feeling a sense of pride and the 
love for your country, and you have the greatest country in the 
world, and you are going to see that to be true, if you do not 
feel it now; but you should also feel pride in your service to 
your country. And I hope our paths cross often in the future.
    Col. Roman. Sir, I thought for the record I would like to 
interrupt and say that I did serve in the Gulf, and I served in 
Honduras during the Contras-Nicaragua situation, and I have a 
lot of pride, and I would do it again. I would not hesitate at 
all. I do not have any problem with the Army or the VA, except 
that we are not being treated. Treat us.
    Mr. Shays. OK. A good way to end. Thank you. Thank you, 
gentlemen.
    Mr. Stacy. Thank you.
    Mr. Canterbury. Thank you.
    Staff Sgt. Zeller. Thank you, sir.
    Mr. Shays. We will take our next panel. You are free to go.
    Col. Roman. Thank you, sir.
    Mr. Shays. Now, my understanding is that panel 2, that part 
of panel 2 is not available right now. Dr. Rostker has to go 
somewhere. OK. Dr. Rostker, why don't you just tell me what 
guidance you want to provide?
    Mr. Rostker. I need to be at the Pentagon for about 45 
minutes, starting at 1:30.
    Mr. Shays. I think what we will do is go with panel 3 and 
then come to Panel 2.
    Mr. Rostker. And I will come right back as soon as I can, 
sir.
    Mr. Shays. Doctor, you have been very cooperative with this 
committee, and so we are happy to accommodate you.
    Mr. Rostker. Thank you very much.
    Mr. Shays. Thank you. And I appreciate the VA for 
accommodating Dr. Rostker. We will go with panel 3, and that is 
Dr. Garth Nicolson, the chief scientific officer, Institute of 
Molecular Medicine; Mr. Leonard Dietz, a physicist and research 
scientist, retired; and Dr. Durakovic--am I saying that 
correctly?
    Dr. Durakovic. Correct.
    Mr. Shays. OK. Well, my assistant said it correctly, and I 
copied him. Dr. Durakovic, chief nuclear medicine science 
(former), Wilmington, DE.
    We are going to ask all four of you to stand up, and we 
will swear you all in. Would you raise your right hands, 
please?
    [Witnesses sworn.]
    Mr. Shays. Please be seated. For the record, all four have 
responded in the affirmative. Can we go in the order in which I 
called you? Basically, we will start with you, Dr. Nicolson, 
and we will work our way down.

    STATEMENTS OF GARTH NICOLSON, CHIEF SCIENTIFIC OFFICER, 
    INSTITUTE FOR MOLECULAR MEDICINE, ACCOMPANIED BY NANCY 
  NICOLSON, CHIEF EXECUTIVE OFFICER, INSTITUTE FOR MOLECULAR 
MEDICINE; LEONARD DIETZ, PHYSICIST AND RESEARCH SCIENTIST; AND 
    ASAF DURAKOVIC, FORMER CHIEF, NUCLEAR MEDICINE SERVICE, 
                         WILMINGTON, DE

    Mr. Nicolson. I am Garth Nicolson, the chief scientific 
officer of the Institute for Molecular Medicine, a nonprofit, 
private institute in Irvine, CA. I am also a professor of 
internal medicine and a professor of pathology and laboratory 
medicine. I am joined here by my wife, Dr. Nancy Nicolson, who 
is the chief executive officer of the Institute for Molecular 
Medicine. She has degrees in physics and molecular biophysics.
    We got involved in this issue when our stepdaughter 
returned from her service in the Gulf. She was a crew chief on 
a Blackhawk helicopter in the 101st Airborne, and she developed 
the unusual signs and symptoms that we know as Gulf War 
Syndrome, or we prefer, Gulf war illnesses, illnesses because 
we think there are a variety of different illnesses that make 
up this syndrome. In my first figure--those of you that have 
written testimony can follow it; the panel, I think, can follow 
it as well and hopefully they can see it--our hypothesis has 
been all along that our soldiers were exposed to combinations 
of chemical, radiological, and biological agents during their 
service in the Gulf.
    We are particularly interested in the combinations of 
multiple chemical and biological agents. The reason we are very 
interested in the biological agents, particularly those that 
cause chronic illnesses, is that this is the only way that you 
can adequately explain the illnesses passing to immediate 
family members, spouses, and children. We will come back to 
this.
    Mr. Shays. Doctor, I am going to have you just slow down 
when you talk just a little bit.
    Mr. Nicolson. All right.
    Mr. Shays. I am going to put the clock on. I will let you 
go another round.
    Mr. Nicolson. OK. In this figure are shown the signs and 
symptoms of Gulf war illnesses. You might notice that it is 
very complex. It involves 20 to 40 different signs and 
symptoms, and this, I think, has confused the diagnosis of this 
particular group of illnesses for some time; and as you have 
heard, many of the soldiers that testified before you were 
given the category of ``undiagnosable illnesses,'' or they were 
put in the category of ``stress-related illnesses'' or Post-
Traumatic Stress Disorder.
    We do not feel that Post-Traumatic Stress Disorder is a 
major cause of the Gulf war illnesses. We think that it is 
caused by combinations of chemical and biological agents that 
produce these very complex signs and symptoms. We do not see 
how it could be produced any other way.
    Now, in this figure we have compared the 650 soldiers that 
we examined or received information on with civilians who had 
Chronic Fatigue Syndrome or Fibromyalgia; and as you can see, 
the signs and symptoms shown here in the red bars compared to 
the light-blue bars are almost identical, meaning that these 
veterans probably did not have unidentifiable illnesses; they 
probably had Chronic Fatigue Syndrome--Fibromyalgia-like 
illnesses.
    Now, these illnesses can be caused by a combination of 
different types of exposures, and we found recently with 
Chronic Fatigue Syndrome that biologic agents, such as chronic 
microorganisms, can cause these same illnesses. In fact, of the 
three candidates of microorganisms that are most likely to 
cause illness like this, viruses, bacteria, and bacteria-like 
microorganisms called myco-plasmas, we were attracted to the 
fact that mycoplasmas might be underlying at least some of the 
signs and symptoms of Gulf war illness.
    Now, the reason is this type of microorganism can cause 
virtually all of the different signs and symptoms that I showed 
in the previous figure. In addition, the species of mycoplasma 
that we found predominantly in the Gulf war illness patients is 
a very unusual species of mycoplasma called Mycoplasma 
fermentans. This particular mycoplasma has the property that it 
can actually enter cells, and when it enters cells, it can 
cause havoc with the metabolism of the cell and can cause 
unusual signs and symptoms because it can colonize or go into 
virtually any tissue or organ.
    When it gets in certain locations, like the synovial cells 
of the joints, it can cause an arthritis-like condition. In 
fact, aching joints and joint problems, or arthritic 
conditions, are very common, probably one of the most common 
signs and symptoms of Gulf war illness. And the reason that may 
happen is that as these microorganisms leave the cell, they 
take a piece of the plasma membrane with it, and in doing so 
they can stimulate an immune response against the host antigens 
that were carried on the mycoplasma as it left the cell. Thus, 
some of the autoimmune signs and symptoms can be explained by 
this type of microorganism.
    We have developed new diagnostic techniques based on the 
techniques of molecular biology, and we have been able to 
diagnose Gulf war illness in several hundred patients as due to 
this type of microorganism plus other potential infectious 
agents as well. We have found in our study 45 percent of the 
veterans that we tested, and in some cases their immediate 
family members were symptomatic, for this type of mycoplasmal 
infection.
    We have looked now at nondeployed forces, and we find it in 
less than 4 percent of subjects, so there is a significant 
difference depending on whether they were deployed to the 
Persian Gulf and have the illness.
    Now, the important thing is that this type of illness can 
be treated. It can be treated with multiple cycles of 
antibiotics; and, in fact, we found five different antibiotics 
that are effective, and these different antibiotics can be used 
in different combinations and different sequences of 6 week 
therapeutic treatments. The whole therapy can take over a year. 
We are dealing with very slow-growing microorganisms that are 
only moderately sensitive to antibiotics, and this is why it 
takes so long.
    There is some information that I have listed here, 
nutritional requirements, and other recommendations that I will 
not go into now. We have been working with Dr. Bill Rae in 
Dallas and Dr. Charles Hinshaw in Wichita, and Dr. Jim Privatra 
in California on the nutritional requirements that are 
important.
    This is what happened when we looked at 170 soldiers with 
Gulf war illness. Seventy-six of these proved to be positive 
for mycoplasmal infections. Seventy-three of them underwent the 
antibiotic therapy, and as you can see, after the first 6-weeks 
of therapy none of them recovered. They all relapsed with the 
usual signs and symptoms, but after subsequent therapy some of 
them recovered so that after five or six cycles of therapy, 
most of them had recovered from the illness.
    Now, when I mean ``recovery,'' that does not necessarily 
mean they are ``cured,'' but they could return to active duty 
and undergo the physical requirements of their service. Now, 
that is with 73 patients, and that represents patients from 
every service in our armed forces except the Coast Guard.
    And, finally, in the last figure that I am going to show 
and discuss briefly are what are the potential or possible 
origins of these chronic microorganisms. The first source that 
we have heard already is they could have been in the vaccines 
as contaminants, for example. It is not uncommon that these 
small, bacteria-like microorganisms like mycoplasmas can 
contaminate vaccines.
    First, vaccines in the Gulf were given, multiple 
vaccinations were given simultaneously, and this is not the 
effective way to vaccinate someone. By giving all these 
multiple vaccines at once, you tend to immunosuppress an 
individual, and that could have made them susceptible to 
endogenous agents. Second, agents in the environment that were 
in the sand or in the water or so on, now mycoplasma can 
survive for some time in the sand, and Professor Luce 
Montagnier in Paris has indicated that these types of agents 
can persist in the environment.
    The third point, which has been brought up, is that the 
plumes from the destruction of chemical-biological-warfare 
factories and bunkers that were destroyed during and after the 
war could contain these infectious agents, and they could have 
blown back across our lines. I think that this is also very 
likely. For the SCUDs. Some of the units that we have looked at 
were under repeated SCUD attack, and they now have health 
problems, and some of these SCUDS may have been equipped with 
CBW warheads or chemical or biological warheads to deliver 
these agents.
    The Iraqis were operating under Soviet War Doctrine. We 
know that. That has been admitted by our intelligence. They 
would tend to mix agents, chemical plus biological together in 
an offensive attack; and if they did this, then this could 
explain the complex signs and symptoms that we see in Gulf war 
illnesses.
    I thank you for the chance to address the panel and will be 
willing to answer any questions.
    [The prepared statement of Mr. Nicolson follows:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you. Mr. Dietz.
    Mr. Dietz. Mr. Chairman, members of the committee, thank 
you for inviting me to share with you my concerns about 
depleted uranium and its possible connection to Gulf War 
Syndrome.
    I first became concerned about the health consequences of 
depleted uranium in the fall of 1979, when I worked at the 
Knolls Atomic Power Laboratory in Schenectady, NY. The 
laboratory was operated by the General Electric Co. for the 
Department of Energy. While troubleshooting a radiological 
problem, my colleagues and I accidentally discovered depleted 
uranium aerosols collected in environmental air filters exposed 
at the Knolls site.
    The source of the uranium contamination was the National 
Lead Industries Plant in Colonie, 10 miles east of the Knolls 
site, near Albany, NY. National Lead was fabricating depleted 
uranium penetrators for 30-millimeter cannon rounds. We also 
discovered depleted uranium in air filters exposed at the 
Kesselring site in West Milton, NY, where crews for the nuclear 
Navy are trained, 26 miles northwest of the National Lead 
plant.
    This is by no means the maximum fallout distance for 
uranium aerosols. The 26-mile radius surrounding the city of 
Albany corresponds to more than 2,000 square miles where this 
fallout was occurring.
    In January 1980, I wrote an unclassified report documenting 
the mass spectrometer measurements we made, and it was recently 
obtained under the Freedom of Information Act, and a photocopy 
has been given to this committee.
    Totally unrelated to the discovery of depleted uranium in 
Knolls-site air filters, in February 1980, a court order by New 
York State, citing public health reasons, shut down National 
Lead for exceeding a New York State Department of Environmental 
Conservation monthly radioactivity limit of 150 microcuries for 
airborne emissions. This corresponds to less than 1 pound of 
depleted uranium metal, equivalent to 1.4 of the small 
penetrators used in aircraft 30-millimeter cannon rounds.
    New York State health officials understood that exposure of 
its citizens to even small amounts of depleted uranium was 
harmful; therefore, they stopped it.
    Consider what happened in the Gulf war. Uranium metal is 
pyrophoric, and when a high velocity depleted uranium 
penetrator hits a tank, its leading end ignites and burns 
explosively, forming aerosol particles of uranium oxide that 
are mostly 5 micrometers or less in size. By the way, five 
micrometers equals two-ten-thousandths of an inch.
    These particles become airborne and, like dust, can be 
spread far and wide by wind action. Their fallout range is 
virtually unlimited. Uranium microparticles can be inhaled and 
ingested easily, and that makes them dangerous to human health. 
Radioactive contamination from depleted uranium is permanent 
for friend or foe; it does not diminish with time. All three 
uranium isotopes in depleted uranium are radioactive and 
produce alpha particles. Prolonged bombardment of lung tissue 
by alpha particles is known to cause cancer.
    During 4 days of ground fighting, at least 300 tons of 
depleted uranium munitions were fired. An army report 
describing research and hard-target testing states that up to 
70 percent of a depleted uranium penetrator can become 
aerosolized when it hits a tank. Even if only 2 percent of the 
uranium burned up, then at least 6 tons of depleted uranium 
aerosol particles were generated. This is a huge amount, much 
of which would have become airborne over the battlefields. This 
amount in 4 days is more than 10,000 times greater than the 
maximum airborne emissions of depleted uranium allowed in the 
air over Albany in 1 month.
    In a given region of a battlefield, hundreds of kilograms 
of micrometer-sized depleted uranium particles were generated 
suddenly by cannon fire from United States airplanes and tanks 
at formations of Iraqi armor. Thermocolumns from burning tanks 
and vehicles carried aloft these localized plumes of uranium 
particles and dispersed them far and wide by wind action over 
the battlefield.
    Then unprotected U.S. service personnel inhaled and 
ingested quantities of depleted uranium particles into their 
lungs and bodies. They were never told about the health dangers 
of uranium particles. They were given no means to protect 
themselves.
    Unprotected medical and other personnel were exposed to 
inhaling uranium dust from the uniforms of wounded allied and 
Iraqi soldiers. This massive exposure to depleted uranium 
aerosol particles on the battlefield raises many questions 
about depleted uranium and how it might have caused at least 
some of the health problems now being experienced by Gulf war 
veterans.
    ``Uranium and all its compounds are highly toxic, both from 
a chemical and a radiological standpoint.'' This quotation is 
from the Handbook of Chemistry and Physics, which has been a 
widely used reference text for generations of scientists and 
engineers: Chronic exposure to small concentrations of uranium 
is known to cause kidney failure. Depleted uranium is more than 
99 percent Uranium-238, just a single isotope, and is always 
accompanied by two decay daughters that emit penetrating 
particles and gamma rays.
    As gamma rays and energetic beta particles become absorbed 
in body tissue, they will traverse hundreds of body cells, 
potentially causing damage to genetic material in the nuclei of 
living cells. A biokinetic model developed by the International 
Commission on Radiation Protection explains how uranium 
microparticles can enter the body and spread to vital organs. 
This model shows that an acute intake of uranium particles can 
result in urinary excretions of uranium for several years 
afterwards.
    After the war, many thousands of service personnel entered 
Iraqi tanks and armored vehicles that had been destroyed by 
depleted uranium penetrators, looking for souvenirs. They 
became contaminated. Others collected spent penetrators and 
made amulets from the dense, heavy-uranium metal. Wearing these 
amulets about their bodies, they unwittingly subjected 
themselves to penetrating gamma radiations from the uranium 
isotopes and the two decay daughters of Uranium-238.
    They were not told that uranium is dangerous to health. 
After the war, 27 soldiers in the 144th Army National Guard and 
Supply Company worked on and in 29 U.S. combat vehicles that 
had been hit by friendly fire and become contaminated with 
depleted uranium. They worked for 3 weeks without any 
protective gear before being informed that the vehicles were 
contaminated.
    In July 1991, the ammunition storage area at the United 
States Army base in Doha, Kuwait caught fire and burned. Four 
M1A1 tanks with depleted uranium armor were destroyed, along 
with 660 tank rounds and 9,720 35-millimeter, depleted uranium 
rounds. More than 9,000 pounds of depleted uranium burned up in 
the fire. U.S. troops were exposed to depleted uranium during 
the fire and subsequent cleanup operations. They wore no 
protective clothing or masks during or after the fire.
    Approximately 3,500 soldiers were based here. Some of the 
soldiers reported cleanup consisted of using brooms and their 
bare hands. This is something that would make a qualified 
radiological worker shudder.
    Twenty-two veterans still retain depleted uranium shrapnel 
in their bodies as a result of friendly fire incidents. They 
have become subjects for the first medical studies to assess 
health risks related to depleted uranium.
    The promotion and sale of depleted uranium munitions to the 
armies and air forces of many nations guarantees that in future 
conflicts thousands of soldiers on both sides will inhale and 
ingest acute doses of uranium aerosols, and many in tanks or 
armored vehicles struck by depleted uranium penetrators will 
receive dangerous amounts of nonremovable uranium shrapnel in 
their bodies.
    It has been reported in The Nation that the Department of 
Veterans' Affairs conducted a Statewide survey of 251 Gulf war 
veterans' families in Mississippi. Of their children conceived 
and born since the war, an astonishing 67 percent have 
illnesses rated severe or have missing eyes, missing ears, 
blood infections, respiratory problems, and fused fingers. The 
causes of these birth defects should be investigated.
    The human cost of using depleted uranium munitions in 
conflicts is not worth any short-term advantage if it 
permanently contaminates the environment and results in 
irreparable damage to our service personnel and causes genetic 
defects in their offspring.
    Speaking as a World War II veteran, I am troubled about the 
health of Gulf war veterans and the seeming lack of concern 
shown by the Department of Veterans' Affairs and the Army. They 
have refused to investigate the role of depleted uranium as a 
possible cause of Gulf War Syndrome.
    In concluding, I urge this committee to make it possible 
for a truly independent investigation of depleted uranium to 
occur, because it was a major chemical and radiological poison 
that troops were exposed to during the Gulf war. Investigations 
should be undertaken by scientists and medical doctors not 
associated with the Department of Defense and who are 
knowledgeable about heavy metal and radiological poisons and 
their effects on human health. Gulf war veterans must also have 
a voice in organizing this effort. Thank you.
    [The prepared statement of Mr. Dietz follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




    Mr. Shays. Thank you very much. Dr. Durakovic, you have the 
floor.
    Dr. Durakovic. Mr. Chairman, I welcome and am grateful for 
this opportunity to testify today.
    I am a doctor of medicine with a specialty in nuclear 
medicine, and I also have a doctorate, Ph.D., in nuclear 
biophysics. My entire scientific and professional life has been 
dedicated to radioisotope toxicology, in which capacity I 
served the Government of the United States for over 17 years, 
being the head of the Nuclear Medicine Department at Walter 
Reed Hospital, working for the Defense Nuclear Agency, and 
later for the VA system.
    In 1991, 24 veterans were referred to my clinic in 
Wilmington, DE from the Ventnor Clinic in New Jersey because 
they were contaminated with uranium in the Persian Gulf. If it 
was not for my clinic that encountered that population of 24 
patients, perhaps we would not be sitting here discussing 
medical effects of uranium in the Persian Gulf because that was 
the first referral of the veterans who qualified for the 
Nuclear Medicine Clinic. Most of them in different parts of the 
country were seen by general practitioners who have hardly any 
expertise in handling internal contamination.
    So due to the lucky circumstances, those patients were seen 
by me at Wilmington VA Hospital, and I took their story very 
seriously, indeed, because my exposure to uranium contamination 
previous to that time was only with experimental animals, 
because I did lots of research in the experimental animals 
dealing with transuranium elements, plutonium, americium, and 
so on. My works had been published 25 years ago on uranium and 
transuranium elements.
    These soldiers presented with a host of clinical symptoms, 
ranging from respiratory ailments to renal disease. Some of 
those patients underwent several surgical procedures to handle 
their kidney problems. Their problems also included hepatic, 
gastrointestinal, and endocrine disease. Therefore, I simply 
focused my attention to the probability of symptomatology 
related to the endogenous incorporation of uranium in those 
patients, for which reason I took the very simple route of 
attempting etiological diagnoses in those unfortunate patients.
    Out of 24 patients, I dealt directly with 14 of them 
because 10 did not show up for my follow-ups. My first line of 
action was to send them for the objective evaluation of the 
whole-body counting of radioactive uranium. Since our facility 
did not have the capacity to deal with the whole-body counting 
of endogenously incorporated radioisotopes, I sent them to the 
VA Hospital in Boston, where there was a whole-body counter, 
unfortunately outdated and not sensitive.
    Those patients underwent the whole-body counting with 
inconclusive results. I suggested to the doctors of the VA 
Hospital in Boston to improve their methodology by buying more 
sensitive crystal, which they applied to the Department of 
Defense, and soon after, the work was discontinued under 
unexplained circumstances.
    Since whole-body counting did not yield any information 
about the etiological cause of my patients' symptomatology, I 
suggested to the VA system that we go for another line of 
action about etiological diagnosis of their problems. I 
suggested that the patients be sent to Sandia National Lab in 
New Mexico, where I am very familiar with their work of uranium 
in the lungs. That has never been done.
    Furthermore, I suggested that urine samples be sent to the 
Radiochemistry Lab in Aberdeen, MD, and samples were collected, 
but they never reached Maryland, and they never reached 
Aberdeen Proving Grounds, so urine analysis is nonexistent. In 
the case of my 24 patients, there was only 1 urine sample that 
was analyzed, with inconclusive evidence.
    So I consider it very mysterious, the disappearance of the 
samples of the urine, which were very carefully collected and 
supposedly sent to Aberdeen Proving Grounds by the VA Hospital 
in Wilmington, DE.
    The third action that I proposed to the Veterans' 
Administration was to do biopsy samples of the bone tissue of 
those patients because we know that uranium can be easily 
detected by autoradiography or even by visualization of a 
single atom of uranium, which is a big atom, about one Angstrom 
in size. It can be seen by the specialized microscopic 
analysis.
    None of my recommendations was ever followed, and not a 
single patient referred to me has been analyzed for the 
etiological cause of their symptoms. Every conceivable road 
block was put in my line of management of those patients. I was 
ridiculed. There were road blocks, and there were obstacles 
throughout 7 years of my attempt to properly analyze the 
problems of those patients. I have to quote to you, although it 
is not my vocabulary or my dictionary, that the chief of staff 
of my hospital said it is ``half-assed research.'' And it was 
openly and obviously discouraged that any work done with them.
    Nevertheless, there was a Uranium Registry in our hospital, 
which consisted of taking blood pressures, temperatures, and 
the pulse rates, and perhaps in some cases, of the lung x rays, 
which really is far away from proper analysis of the patients 
for the deeply incorporated uranium.
    My plan of management has failed because of the total 
absence and total lack of interest on the part of the Veterans' 
Administration to do anything for those unfortunate patients, 
to analyze why they suffer from the host of the symptoms and 
what might be the role of uranium in the misery of those 
patients. Why it was done, I do not know; but I do know that I 
received several telephone calls from the Department of Defense 
suggesting to me that this work will not yield any meaningful 
information and should be discontinued. I have telephone 
numbers of the references if you desire to see them.
    Lost records is another thing, because samples of the urine 
disappeared but also the records of those patients disappeared, 
and they were found much later when pressure was put on the VA 
Hospital.
    Now, we are facing a big dilemma in the political, 
scientific, and professional environment of the United States 
of America. Is uranium responsible or a real objective cause of 
a part of the disease of the Persian Gulf veterans, or is it 
not? The question is very simple, and it can be very simply 
addressed.
    The only thing to do is to do a proper, objective, 
expensive analysis of the samples of those patients, which has 
to be conducted not by the charlatans which are present in the 
Veterans' Administration's offices with the big names of the 
Gulf veterans uranium groups and clinics and so on and which 
are populated by people who have no basic knowledge of 
radiation toxicology, nuclear medicine, or internal 
incorporation of radioactive uranium.
    Now, if uranium is analyzed by these objective methods, we 
will be able to say whether those patients are related to 
uranium in their symptomatology or they are not. The studies 
are very expensive, but I think our country owes it to the 
veterans who served in the Gulf.
    I was a commander of the 531st Army Detachment in the time 
of Desert Shield. At that time, when I was deployed for the 
Desert Shield operation, everybody knew my qualification as 
being an international expert for uranium and transuranium 
elements. Nobody volunteered to me the information that my 
expertise might be needed in the Gulf because of the possible 
use of depleted uranium shells.
    I am not questioning it, but I am just saying that we can 
easily answer the question of the relationship between uranium 
and the Persian Gulf sickness if we take this issue seriously 
and if we analyze in this country what is the probability of a 
connection between uranium and the symptoms.
    This country has the capacity. It has sophisticated 
laboratories. It has professional people who are at the highest 
level of expertise, and there is absolutely no excuse not to 
proceed with my method of management.
    Total lack of etiological diagnosis, in my opinion, is a 
shame for all of us because I know for a fact that the soldiers 
of 144th Transportation Company of New Jersey who worked on 
those tanks in Saudi Arabia, they never have been informed 
about the probability of radioactive isotopes in their 
environment. They never wore protective clothing, never wore 
the masks, and never wore the dosimeters.
    Battle-damage assessment team came in the summer of 1991 to 
Saudi Arabia, and they were dressed like astronauts, having 
sophisticated detecting instruments and detecting 0.6 to 1 Rad 
in one single measurement in those tanks, which is a very high 
dose. But the veterans were not informed that they were in a 
radioactive environment.
    I am going to conclude my statement at this point with an 
emphasis that oppression has been exercised in the Veterans' 
Administration system against professionals like myself who 
wanted to come to the end of the story, and I am going to quote 
President Thomas Jefferson, who said: ``I swear upon the altar 
of God eternal hostility toward any oppression over the mind of 
man.''
    I think we should take heed of the great President 
Jefferson, and try to eliminate obstacles to the proper 
diagnostic management of the Gulf veterans who have been 
exposed to depleted uranium. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Durakovic follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I thank all three of our panelists. We have 
really not focused in on, and this is the 10th hearing we have 
had, on biological agents or depleted uranium for a variety of 
reasons. So this is somewhat new territory for us.
    My understanding of depleted uranium in the theater is that 
we see it in two ways. We see it in the shells, the 
projectiles. The depleted uranium was almost really the spear 
on the shell that penetrated the armament and then when it 
could penetrate through the shell itself, would explode and 
cause the damage.
    And my other understanding is that the depleted uranium is 
also used on the armament, in particular of the tanks and some 
of the other vehicles in the theater. So far, am I on target?
    Dr. Durakovic. Yes.
    Mr. Shays. Now, depleted uranium is the term we use. 
Describe to me where we get the depleted uranium.
    Dr. Durakovic. Well, first of all, I really do not deal 
with terminology like depleted uranium because, as a medical 
doctor, I deal with terminology of uranium.
    Mr. Shays. OK.
    Dr. Durakovic. All isotopes of uranium, 238, 235----
    Mr. Shays. I am going to have you slow down.
    Dr. Durakovic. I am sorry. All isotopes of uranium, 238, 
234, 235, are alpha-emitting, radioactive isotopes. 
``Depleted'' really means a concentration of Uranium 235 and 
234 in the entire bulk of uranium, which has to be enriched to 
the point of utilization in nuclear weapons or nuclear 
reactors. Uranium exists all over the planet Earth as uranium 
ore. As we know, we live in a radioactive environment, but that 
Uranium 238 is not capable of producing and sustaining a 
reaction that would feed reactors for nuclear weapons. For that 
reason, it has to be enriched by Uranium 235 and 234.
    ``Depleted uranium'' simply means a concentration of highly 
fissionable Uranium 235 and 234 is diminished to a certain 
level in the specific bulk of uranium, if I can be as simple as 
I have been.
    Now, we are talking about radioactive isotopes with a long 
half-life and alpha-particle radiation. Alpha particles are the 
heaviest particle produced in nuclear reaction, and in the case 
of uranium, we deal with an incredible phenomenon that is 
unique in the history of mankind.
    I am very grateful for your question because it leads us to 
a better understanding of the problem. Uniqueness of uranium 
incident in the Gulf war is that it is the single, largest mass 
contamination by a single isotope. Hiroshima and Nagasaki was 
mass contamination with 440 radioisotopes which are produced in 
a nuclear explosion. We know that Chernobyl is not a nuclear 
weapon; it is reactor producing about 440 radioactive isotopes. 
So these are mass-contamination scenarios in which many 
isotopes are implicated.
    The Gulf war is the first case in the history of mankind 
where we have one single isotope responsible for mass 
contamination. What happens in the bodies of the human beings 
or animals where uranium enters? Whatever----
    Mr. Shays. I do not want you to go that far yet. I just 
want to understand. Mr. Dietz, am I saying your name correctly? 
Is it Dietz?
    Mr. Dietz. Pardon me?
    Mr. Shays. Am I saying your name correctly when I refer to 
you as Mr. Dietz?
    Mr. Dietz. Yes.
    Mr. Shays. I am about as big a generalist as you can get. 
My daughter knows more than I know on these issues. I guess 
that should not be surprising; she is a high school student. I 
just want to first understand kind of the framework I am 
working in. Maybe depleted uranium just has--my concept of 
depleted uranium is basically the uranium that comes out of a 
nuclear plant after it has spent nuclear energy. Now, is that 
what--I should not be thinking----
    Mr. Dietz. The depleted uranium arises from the gaseous-
diffusion plant when the natural uranium, which is also more 
than 99 percent Uranium 238, is transformed by chemical action 
into uranium hexafloride and then passed through barriers; and 
this is a physical process for enriching the U-235.
    Mr. Shays. But is depleted uranium that basically exists 
because it was used for something else first?
    Mr. Dietz. That is right.
    Mr. Shays. OK. It is a waste material, in a sense, of 
something else.
    Mr. Dietz. I think a way to picture this visually is to 
think of a stream of uranium hexafloride gas going through the 
diffusion plant. The enriched goes in one direction, and the 
tails, what is called the ``tails,'' which is the depleted 
uranium, goes in the opposite direction.
    Mr. Shays. That value of depleted uranium, is it is 
extraordinarily dense?
    Mr. Dietz. It is 1.7 times as dense as lead.
    Mr. Shays. But not as heavy or----
    Mr. Dietz. Well, the density would be the grams per cubic 
centimeter.
    Mr. Shays. So it would be a heavier material. I guess what 
I am getting to--I do not guess; I am--depleted uranium is 
relatively inexpensive, expensive?
    Mr. Dietz. We have in storage now I think something like 
600,000 metric tons of depleted uranium in the form of 
hexafloride.
    Mr. Shays. The bottom line is it is very cheap.
    Mr. Dietz. It is coming out our ears.
    Mr. Shays. And the military determined that depleted 
uranium had tremendous strategic value to them in the sense 
that it was a material that could penetrate most of the 
armament.
    Mr. Dietz. The uranium is a very dense material. It can be 
hardened by adding three-quarters-of-a-weight percent of 
titanium to it to make it superhard, made into a long, thin rod 
fired at very high velocity so that when it hits a solid object 
like a tank armor, which is basically mainly iron, it undergoes 
almost an instant, very high rise in temperature, and because 
of its pyrophoric nature, it starts to burn or oxidize 
extremely rapidly, almost explosively, and when that happens, 
you get these micrometer-sized particles. A 5-micrometer 
particle can be breathed into your lung and can stay there for 
many, many years.
    Mr. Shays. But the Army has it in its shells for 
penetration, but it also has it on the vehicles themselves for 
armament. Correct?
    Mr. Dietz. Well, it is the optimum penetrator.
    Mr. Shays. OK. It is a penetrator, but it also is a 
stronger material for shield.
    Mr. Dietz. Tungsten is a substitute, but it does not have 
the pyrophoric nature of uranium. What happens is that 
``pyrophoric'' means that when it burns, it----
    Mr. Shays. You are telling me something I am not up to yet. 
I do not want you to get ahead of me here.
    Mr. Dietz. OK.
    Mr. Shays. I just asked a question. The simple question 
was--I want to get on to the next one. It is not a big answer.
    Mr. Dietz. OK.
    Mr. Shays. It is used as a shield on our vehicles as well. 
Correct?
    Mr. Dietz. Yes.
    Mr. Shays. OK. So you have it used as a penetrator and as a 
shield. Now, in the course--this is your area of expertise. 
When the Army sought to do this, when we moved in this 
direction and we saw the value of it, certainly the issue of 
safety was looked at then, what got by us, if, in fact, 
depleted uranium is the threat that you consider it to be?
    What I am trying to just nail down--see, I guess I am 
looking for motives here, and if I were in the military and I 
considered this an absolute essential use, I might be a little 
less inclined to see if there was a negative associated with 
it; and if there was a negative associated with it, I might 
want to not just come to grips with it because the implications 
can be quite significant.
    I may be going down a road that I am going to say goes 
nowhere, but I am willing to just consider this for a second. 
So all I am asking you now--you are both experts in the field. 
Correct? You knew depleted uranium was used for military 
purposes. Was there a group within the scientific community 
that said this ain't a good idea?
    Mr. Dietz. I do not think so. I do not know who made the 
decision to use depleted uranium munitions, because all the bad 
things about uranium from a health standpoint were known long, 
long before the Gulf war began. I think it is used basically 
because it----
    Mr. Shays. I know why it is used. I want to know how it got 
to be used, and I want to know if we went through a process, 
and you are not going to be able to answer that question----
    Mr. Dietz. I do not think I can.
    Mr. Shays [continuing]. That we went through a process of 
determining that it was totally safe. I just want to determine 
whether you have the capability on your expertise to answer 
that question. Are you aware of the process that got us to the 
point where we used depleted uranium? If you are----
    Mr. Dietz. I am not aware of the historical----
    Mr. Shays. OK. That is fine.
    Dr. Durakovic. I am aware of it, and that is one of the 
reasons why we have a free United States of America today. In 
the 1940's German scientists suggested to Hitler to use uranium 
for the production of nuclear weapons in their research. Hitler 
used it because he was convinced by his generals that uranium 
can be used as an armament in the German tanks, and they, 
indeed, used uranium from the mines of Yoachimstaal in 
Czechoslovakia in the German area, and they used that uranium 
to reinforce the German shielding of their tanks.
    So, use of uranium in the shielding of the tanks is not new 
at all; it goes back 50 years.
    Mr. Shays. OK. That is good to know. Are our soldiers--hold 
on 1 second. What I think I am going to do is do a little more 
research myself on how we got to where we use it. My antenna 
goes up when I get into an issue like this because the 
implications of what you gentlemen are saying have tremendous 
consequence.
    If, in fact, our soldiers have been harmed by depleted 
uranium, that potentially says a lot about what we have to look 
at, and it says a lot about protocols within the military. One 
of the protocols we know in the military is that they did not--
it is my understanding; I may be corrected later on, but they 
did not notify our soldiers of the consequence of depleted 
uranium, and now they are, but they did not then. And some of 
this boggles my mind, I mean, if that is the case.
    So let us just get a little bit more to your expertise 
here. Have both of you treated or examined Persian Gulf 
veterans? Mr. Dietz, you have not.
    Mr. Dietz. No.
    Dr. Durakovic. I have examined the veterans; yes, they were 
my patients.
    Mr. Shays. OK. Mr. Dietz, your point was to show us--in 
your testimony you gave us other examples of depleted uranium 
where there was a concentration of it and the consequences of 
that, and your testimony, as I gather, is to say that was bad. 
What we have here in the concentration of depleted uranium in 
the Persian Gulf was even worse. Is that a fair?
    Mr. Dietz. Yes. It is many orders of magnitude worse than 
the problem at Albany.
    Mr. Shays. And that leads you to come to what conclusion?
    Mr. Dietz. The only conclusion that I can come to is that 
this is a truly wonder weapon. The analogy that can be given is 
that it is as effective against destroying tanks as a machine 
gun was in World War I against infantry soldiers.
    Mr. Shays. OK. We know that, but we also know it has a 
negative side effect.
    Mr. Dietz. I am sorry?
    Mr. Shays. We also know there is a negative side effect.
    Mr. Dietz. Absolutely. There is a negative side, and I 
think the military is overlooking the negative side.
    Mr. Shays. OK. Well, maybe what I will do is Mr. Sanders 
will get into other areas, and then I will come back.
    Mr. Sanders. Thank you, Mr. Chairman, and I share your 
concerns about depleted uranium, and that is a whole, huge 
issue which I think we need to get into, but what I would like 
to do is just speak to the Nicolsons for a moment.
    Dr. Nicolson, one of the interesting aspects of your 
testimony is that you talk about actual treatment, and we have 
not heard a whole lot of that discussion here. Now, as I 
understood from your testimony, you said that you have treated 
several hundred Persian Gulf vets. Am I correct in remembering 
that?
    Mr. Nicolson. Several hundred have been treated. We do not 
do the treatment ourselves. We are a diagnostic institute. We 
do the diagnosis. We go to the primary-care physicians who then 
treat the patients and we do followups with the primary-care 
physicians.
    Mr. Sanders. Based on your diagnosis?
    Mr. Nicolson. Based on the diagnostic tests that we 
perform.
    Mr. Sanders. OK. And can you tell us the results of the 
treatments of the people that you referred to primary 
physicians, how successful or not successful have those 
treatments been?
    Mr. Nicolson. I actually showed you some of that data. We 
have in press in a medical journal the results from 170 
patients. Seventy-six of the patients were positive----
    Mr. Sanders. ``Positive'' meaning production of symptoms?
    Mr. Nicolson. Positive for the infection that we have 
discovered, the mycoplasmal infection. Seventy-three underwent 
treatment. Of the 73 that underwent treatment, 58 are now 
considered to be recovered and are now back on active duty. 
They may not be cured from this illness, but at least they have 
recovered to the point where they can perform at their level 
for their job description.
    Mr. Sanders. So what you are saying is, in terms of the 
treatment that you have recommended, 58 out of 73 have seen 
significantly positive results.
    Mr. Nicolson. That is correct.
    Mr. Sanders. Now, given the fact that we have an estimated 
70,000 vets who are hurting, that is a pretty interesting and 
important result. Have those results been confirmed by others? 
I mean, are people going to argue with me and say, no, that 
that is not the case?
    Mr. Nicolson. The diagnostic results have been confirmed by 
a certified diagnostic laboratory, Immunosciences Laboratories, 
in California. We are in the process or arranging to train DOD 
scientists to perform the types of tests that we perform.
    Mr. Sanders. OK. Now, given the fact that everybody in the 
DOD and the VA is concerned about this problem, what has their 
response been to your approach and the apparent, what you are 
telling us, very strong, positive success that your diagnosis 
has had? Is that being replicated elsewhere now?
    Mr. Nicolson. I would say they first ignored us or 
ridiculed us. Then I think our success, particularly the 
patients that went to the Walter Reed program and did not 
recover from their illnesses, but began to recover on these 
multiple cycles of antibiotic therapy.
    They have begun to take a renewed interest, I think, in 
what we are doing, and it is still, I guess, at that point now 
that they are very interested in the types of tests that we are 
running and the types of therapies that are allowing not only 
the soldiers, the veterans to recover, but their family members 
who are symptomatic--we have a large frequency of illness in 
families of Gulf war veterans as well.
    Mr. Sanders. After this panel testifies, we are going to be 
hearing from the VA and the DOD, and I am going to ask them 
specifically how they have responded to your work. What are 
they going to tell me?
    Mr. Nicolson. Well, I think they will tell you that both 
Nancy and I have addressed the DVA and the DOD in Washington 
several times over the span of a few years. They have taken an 
interest in what we are doing. They are making plans to send 
individuals out to our laboratories to be trained in this, but 
they have also tried to perform some of their own tests, but 
unfortunately they are using 1960's technology in their own 
tests that they are performing, and I do not think they are 
going to come up with anything. This is not the approach that 
is necessary.
    We want to bring them up to speed to use state-of-the-art, 
diagnostic procedures for these types of illnesses. They are 
very difficult to diagnose.
    Mr. Sanders. So am I hearing you say that they are 
interested in the work that you are doing, but they have not in 
their own labs been able to replicate what you have done?
    Mr. Nicolson. They have not shown up in our laboratories 
yet. When they show up, we can train them, and then we can make 
sure that they replicate the type of data that we are finding 
routinely. We have trained diagnostic laboratories, and they 
are replicating our data, so I do not think it could be said 
that it has not been replicated. It has not been replicated by 
DVA and DOD scientists--that is true--because they have not 
come to be trained.
    Mr. Sanders. In your judgment--let me ask you this. Who is 
treating, in this country today, how successful are we in 
general in treating Persian Gulf illness? Is the VA and the DOD 
successful? Do they have any protocol which seems to be 
working?
    Mr. Nicolson. I think you will have to ask the DOD and the 
DVA that question. It is my feeling from discussions with 
various physicians who are now treating Persian Gulf war 
veterans and their family members, using the protocols that we 
have established as effective, is that they are gaining ground 
in this area, but I have to again stress that this is a subset 
of patients. This is not every patient, because as you have 
heard, some patients may have radiologic exposure, some may 
have chemical exposure, some may have biologic exposure, or 
combinations of them.
    And, in fact, some of the veterans who have testified to 
this committee earlier have come to us, we have tested their 
blood, and they have turned out to be positive and their 
spouses who are now ill have turned out to be positive and 
their children who are now ill have also turned out to be 
positive.
    Mr. Sanders. In talking to veterans in Vermont, and I think 
the answer around the country would be the same, what they are 
saying is that we are hurting, and even if there is not 100-
percent guarantee that a new type of treatment might work, if 
it is not going to hurt us more we would be willing to gamble. 
Let us see what is going on out there.
    So my first question in that regard is, are there side 
effects? Is your treatment and approach risky? Can it cause 
additional problems?
    Mr. Nicolson. The approaches that we have proposed are 
standard medical procedure for the treatment of chronic 
infections. They are really no different than the treatment of 
Lyme Disease, for example, and other chronic infection. So I 
would say that these are pretty standard procedures. The 
antibiotics that we recommend are pretty standard antibiotics. 
Not every antibiotic will work, so it is not a placebo effect.
    Mr. Sanders. I mean, we understand not everything works for 
everybody, but if somebody were to say, in response to your 
treatment, ``Well, we do not want veterans to be guinea pigs. 
You know, we do not want vets to be sent there and come back a 
lot sicker than when they started.'' How do you respond to 
that?
    Mr. Nicolson. Well, I think if they are tested and they are 
found to be positive for these chronic mycoplasmal infections, 
and they have systemic or system-wide infections, they should 
be treated. That is standard medical procedure.
    Mr. Sanders. And, in your judgment, they are not going to 
be, no matter what the result may be, they are not going to be 
worse off than when they started.
    Mr. Nicolson. Well, from what we have seen, they slowly 
recover.
    Mr. Sanders. Right. But what I am trying to get at is if 
somebody argued--I mean, there are treatments out there--if 
somebody was dying of AIDS, for example, and we tried a radical 
therapy, it is possible that that might accelerate their death 
pattern. Correct? But one might say, Well, what is the risk? 
The person was going to die anyhow. What I am suggesting is 
that what I am hearing you saying is you do not see that your 
treatment will make people worse off.
    Mr. Nicolson. No. I mean, the only thing that we see in our 
treatment is that there is a transient worsening of the signs 
and symptoms due to the Herxheimer Response, and this is a very 
common response when an individual who has a chronic infection 
is on antibiotics, and that usually passes within a few weeks, 
and then they start to slowly recover. But the whole therapy 
can take up to a year. There are multiple cycles of antibiotics 
required.
    Mr. Sanders. Can you give me some examples of people or 
kinds of treatments, perhaps other than your own approach, 
which seem to be having some success?
    Mr. Nicolson. Other than the approach that we are taking?
    Mr. Sanders. Yes.
    Mr. Nicolson. Well, for individuals who have their primary 
problem as chemical exposures, there are a number of treatments 
to rid these chemicals from the body. There are a number of 
treatments to block the effects of the chemicals and so on. For 
those that have biologic exposures, we have to identify what 
type of agent is involved; otherwise, we really do not know the 
approach to use. If we identify a particular microorganism that 
is involved, whether it is virus or a bacteria-like 
microorganism, then the treatment is really quite different.
    If it is, for example, a mycoplasmal infection, or a 
bacterial infection, then there are certain antibiotics which 
are fairly standard procedures for use against these types of 
infection. So we are really not talking about anything that is 
out of mainstream medicine.
    Mr. Sanders. In your judgment, and I know this may be a 
little bit askance, a little bit aside from your area of 
expertise, do you believe in the concept of multiple chemical 
sensitivity?
    Mr. Nicolson. Yes, I do, and we have seen examples of that 
actually; but this is not a concept that is well accepted by 
everyone in the medical profession.
    Mr. Sanders. Right. We are more than aware of that.
    Mr. Nicolson. Nancy also wanted to mention something.
    Mr. Sanders. Nancy, did you want to----
    Mrs. Nicolson. Well, the Multiple Chemical Sensitivity 
Syndrome does not explain the contagion that affects the 
families. Now, it is possible, if family members came in 
contact with gear that was brought back by a veteran and if the 
family member came in contact with such gear, they could 
develop multiple chemical sensitivity, but that does not 
explain the numbers of soldiers becoming sick.
    So you would have to look for a biological agent, whether 
it would be endogenous to the area in the Middle East, because 
there are probably combinations of agents there, or as a result 
of some of the weapons that we have been told Iraq possessed. 
And we have to deal with the fact that given the mindset of the 
Iraqi Government at the time, they would have used multiple 
weapons in combination.
    So it is a horrible concept to have to deal with. I feel 
that our Defense Department has been backed into a corner 
because this is the aftermath of years of cold war policies. 
What was then the Soviet Union and the other superpowers were 
engaged in biological weapons research. In fact, in the early 
1980's, John Deutch recommended the buildup of biological 
weapons in the United States.
    So what I am saying now is that we need to get past the 
cold war. We need to acknowledge that there is a strong 
possibility that many governments were involved in weapons 
research like this and that no one is going to win this war 
unless we are bold enough, like the eagle on the flag, to come 
forward. I believe the United States will lead the way, and 
other countries will follow suit. I think it is time to stop 
blaming the Defense Department of this country and other 
countries, but it is the fear factor, the honor, and the 
embarrassment, and we still have a problem.
    The International Monetary Fund noted last week that there 
is a 20 percent increase in chronic, infectious disease around 
the world. This is going to have economic repercussions. So the 
nitpicking that has gone on in the scientific community has to 
stop. I think the onus is on the scientific community who went 
ahead with ill-advised experiments. I am sure the scientists 
assured the military sector that they could control weapons 
like the biologicals, but the fact is they cannot. Of all the 
weapons involved, the biological weapon is the most serious. It 
is difficult to detect, impossible to contain.
    So it is my feeling that we can conquer this problem if the 
Defense Department would be allowed to tell the truth, and that 
is the problem. They are in a very difficult position because 
of outmoded policies and because of embarrassment.
    Mr. Sanders. The bottom line, what you are saying is that 
you believe that the increase in infectious diseases is related 
to the work done on biological weapons.
    Mrs. Nicolson. Partly in relation to testing of biological 
weapons around the world. Those of us in the science community, 
know who they are. We know which scientists have done this. 
They are afraid to come forward because they really thought 
they were doing the right thing at the time, but the science 
community needs to be scrutinized. I blame the global science 
community for this problem because they should never have 
developed these weapons. It is very simple.
    You have what was then the Soviet Union, which was actively 
engaged in biological weapons research, it forced us to follow 
this race because no one was thinking. No one was thinking. So 
I think we need better cooperation between the defense science 
sector and the civilian science sector, and I think pointing 
fingers and assessing blame is not the way to go. We have to 
take care of our soldiers and the people on this planet.
    Mr. Sanders. Mr. Chairman, let me just end my line of 
questioning just by asking the Nicolsons this question. It 
would seem to me, given the fact that so many people are 
hurting, that we would, or that the DOD and the VA would 
actively be searching out and engaging those people who are 
involved in a variety of treatments to see if any of those 
treatments are successful. And we could understand some 
treatments may not work, but it would seem to me so long as 
these treatments did not do any more harm to the patient, that 
we would want to look at as many people and as many ideas as 
possible.
    Now, I have the impression that that has not been the case. 
I think what I keep hearing from the DOD and the VA is we do 
not know, that this is not peer reviewed; no, that is not good; 
no, this is not good; no, that is not good; but we will 
continue going along the route we are going, even though we do 
not have any particular understanding, and we do not have any 
particularly effective treatment.
    Am I misstating, do you think, the----
    Mr. Nicolson. No. That is exactly my perception as well. I 
mean, there has been far too much criticism and not enough 
cooperation. We need to get beyond that point of simply 
criticizing those people that come up with preliminary evidence 
and so on. We were criticized quite extensively initially when 
we started to get involved in this issue that we did not have 
extensive data. Well, we had absolutely zero support from the 
Federal Government, so we used entirely our own funds to 
collect the research data that we collected. So we had really 
no financial help whatsoever.
    All of the studies we published, including the medical 
journal articles were done without any Government support 
whatsoever.
    Mr. Sanders. Have you received up until this day any 
financial support from the Federal Government?
    Mr. Nicolson. Oh, yes. I currently receive financial 
support. I have a grant from the U.S. Army, for example, but it 
is for breast cancer research.
    Mr. Sanders. No. I am talking about not breast cancer. I am 
talking about this----
    Mr. Nicolson. No, not one nickel. In fact, we put in a 
proposal in 1995 for this type of study, and they cut the 
budget by 89 percent, and they did not give it a fundable 
priority; so even if it were funded, we could not have done the 
work on 11 percent of the requested budget.
    Mr. Sanders. Are you aware of many researchers who are 
looking at alternative approaches beyond stress, for example, 
who are receiving funding? There have been a number of 
breakthroughs, it seems to me, but are those people receiving 
the help that they need from the Government, or are they having 
to do it with private source? Ross Perot, for example.
    Mr. Nicolson. Well, they are having to do it with private 
sources of funds. For example, James I. Moss, a scientist in 
Florida, the first one to show that combinations of different 
chemicals could produce neurologic syndrome----
    Mr. Sanders. He was fired from his job at the Department--
--
    Mr. Nicolson. No, he was not fired from his job. He 
received word the other day that his grant that he put in to 
DOD would not be funded. So they have taken the tactic that 
they will squeeze us to the point that we cannot do the work 
that we should be doing.
    Mr. Sanders. Would you be prepared to have your work 
submitted to significant controls?
    Mr. Nicolson. We have already agreed to do that. I was at a 
meeting called actually at the behest of Congressman Norman 
Dicks. Major General Leslie Berger, the commanding officer at 
Walter Reed Army Medical Center, convened a meeting on December 
23rd of last year. I was at that meeting and spoke to the 
Persian Gulf War Research Group and the rest of the individuals 
who were interested in this, and at that meeting it was decided 
that they would send scientists and physicians out to our 
institute to learn the techniques that we were doing, and we 
would set up a validation study. Well, we have not heard from 
them since January.
    Mr. Sanders. Six months have come and gone.
    Mr. Chairman, we hear this over and over again. I cannot 
sit here in judgment and tell you whether the Nicolsons are 
right or not right. I do not have the background to do that, 
but it seems to me that if people are treating and claiming to 
have success, that the DOD and the VA would be falling all over 
themselves to try to determine whether, in fact, this analysis 
and proposed treatment is working or not, and that we are doing 
that for everybody in this country who is coming up with 
different ideas.
    So I would just conclude by thanking, and I am sorry to 
have ignored you. I do not mean to suggest that your work is 
not significant, but I did want to focus on this aspect of it. 
Thank you, Mr. Chairman.
    Mr. Shays. I think really what we are doing is you are 
focusing on the biological, and I am just going to be focusing 
a little bit more on depleted uranium.
    I want to know the difference between, say, depleted 
uranium fragments that might be in a soldier's body versus 
inhaling, digesting the particles, which I would tend to say 
would be more dust almost--not gas because they are still 
particles, but they are almost invisible in some ways. Describe 
to me the difference in terms of its impact on the health of 
the soldier. Both of you may do that.
    Mr. Dietz. I am not a medical doctor, so I really cannot 
comment on that.
    Mr. Shays. Why don't you start, though, by just prescribing 
me the scientific difference between the fragment and the 
particles?
    Dr. Durakovic. The difference between inhalation, for 
instance, ingestion, or embedded particles like shrapnel boils 
down to the same phenomenon in the body, and that is the 
release of uranium from the site of incorporation into the 
bloodstream. In my opinion, it is exceedingly more dangerous to 
be exposed to uranium in the inhalational pathway than by the 
shrapnel or the embedded particle for several reasons.
    Reason No. 1 is that the embedded particle or shrapnel is 
protected from the rest of the body fluids by the formation of 
the fibrous capsule, which is the scar tissue. Scar tissue 
would contain the particle at the place of its incorporation, 
and the uranium from the particle would not have early access 
to the bloodstream. Subsequently, it would not have an early 
access to the target organs, which are kidneys, liver, and 
skeleton.
    In the event of inhalation, a high amount in percent of 
uranium is taken to the bloodstream from the lung tissue, and 
these are really invisible bullets. They are invisible bullets 
consisting of alpha particles, two protons and neutrons which 
are bombarding the internal environment of the organism, 
leading to breakdown of the tissue, necrosis or the death of 
the tissue, malignant changes like cancer, leukemia, malignant 
tumors, and genetic malformations in generations to come.
    My answer to your question, sir, is this. Regardless of the 
pathway of contamination, the ultimate fate of uranium is going 
to be determined by the organ of incorporation. In the case of 
embedded particles like shrapnel, I believe it is less likely 
that the henomenology of uranium will be as extensive as the 
inhalational pathway because simply more radioactive material 
will have access to the bloodstream through inhalation but not 
through the ingestion because ingestion is a relatively safe 
way of being contaminated with uranium, since only a couple of 
percent of uranium are absorbed in the gastrointestinal tract.
    So my conclusion is that the single most important way of 
adverse effects of uranium would be by the inhalational 
exposure, which was the case in the Persian Gulf.
    Mr. Shays. But if the Army were doing studies, and, Mr. 
Dietz, this question I would ask you as well. Mr. Dietz.
    Mr. Dietz. Yes.
    Mr. Shays. The question I am asking, I am interested in 
knowing, if you were doing a study of its impact, it is one 
thing to say, well, you have this shell, and you have this 
depleted uranium; here it sits. It strikes me that the kind of 
study that you need to ultimately do is to determine what 
happens when this shell is exploded, what happens, what is the 
effect of the heat on the shell. Is it in fragment form, or is 
it in particle form?
    Are either of you aware of any studies--you may not be--
that the DOD has done in regards to--I asked it before; I am 
asking it again, to be very clear--are either of you aware of 
any studies that DOD has done on depleted uranium by its use? 
In other words, not in its form before use but in its form 
after its use.
    Dr. Durakovic. I am aware of that.
    Mr. Dietz. I am not aware of it.
    Dr. Durakovic. I am aware of the study that DOD sponsored 
with the Armed Forces Radiobiological Research Institute in 
Bethesda. There was a study on experimental animals which was 
presented a couple of months ago at a scientific meeting in the 
form of an abstract where embedded uranium in the form of the 
shrapnel was incorporated----
    Mr. Shays. That is fragments.
    Dr. Durakovic. Fragments. That is correct.
    Mr. Shays. What about particles?
    Dr. Durakovic. Inhalation pathway. No, I am not aware of 
any study by the DOD or the VA.
    Mr. Shays. And, Dr. Nicolson and Nicolson both, what I am 
hearing from your testimony, one of the things I am hearing is 
that the biological agents would be the one way you would 
explain the potential health problems from one family member to 
another.
    Mr. Nicolson. We think this is really the only way you can 
explain it, except for an odd occurrence of someone coming in 
contact with a souvenir or a pack from Desert Storm or 
something like that that was contaminated.
    Mr. Shays. That would be the only way basically. Either 
they came in contact with something that may have been 
contaminated by chemicals or by biologic agents.
    Mr. Nicolson. Predominantly biologic agents would explain 
the illness passing into the family members and health care 
workers. Nancy wanted me to mention the fact that when we 
looked at a nonscientific sample of veterans, nonscientific 
because we have not looked at entire units; a lot of the 
individuals come to us. But a lot of these individuals served 
behind the lines, either from the deep insertions into Iraq, 
such as the Airborne and Special Forces units that we worked 
extensively with, or the units that were in a support role, 
command and control, transportation, and so on back behind the 
lines that were under SCUD attack and other means.
    Except for the Marine Corps, we have not seen a lot of 
patients from the mechanized infantry or armored units. The 
exception is the Marines, and they were in a very contaminated 
environment in Kuwait, and so I feel that they had multiple 
exposures of chemical, radiological, and biological; and, in 
fact, some of the soldiers I mentioned that testified to this 
committee previously and those that had very severe neurologic 
signs and symptoms, we have been able to show that they are 
infected with one of these biological agents. They are going to 
be undergoing therapy, and their families are also infected 
with the same agent.
    Mr. Shays. Thank you. I am just going to end with you, Dr. 
Durakovic. I want to be clear on what the symptoms were from 
the Gulf war veterans that you examined.
    Dr. Durakovic. There were multiple symptoms which really 
cannot be summarized into any logical picture. The symptoms 
encountered in my patients were primarily respiratory symptoms, 
including pharyngitis, tracheobronchitis, and in some cases, 
pneumonia. In endocrine diseases, several patients had thyroid 
alterations, gastrointestinal symptoms ranging from severe 
diarrheas to dehydration, vomiting, nausea, hepatic symptoms, 
and renal symptomatology. Some of my patients underwent several 
surgical procedures because of kidney problems. Prior to the 
Gulf war they did not have any kidney problems.
    So, my answer to your question is that there is really no 
simple answer to this question because symptomatology ranged 
from the respiratory to the renal syndrome in very different 
organic systems.
    Mr. Shays. Is there any question that any of you wish we 
had asked that you would want to answer? We will start with 
you, Dr. Nicolson.
    Mrs. Nicolson. I really do not have one at the moment.
    Mr. Shays. Well, that is all right. It just would be one 
that really was right at the tip of your tongue.
    Mr. Nicolson. It will probably come back. We did touch upon 
a subject which I think we need to spend a little bit of time 
on, and that is the family members. This is something that has 
been avoided and denied officially, that the family members are 
now actually involved with illness. But it is very hard to deny 
when young children have the diagnosis of failure to thrive, 
rashes all over their bodies, and not doing well because of 
chronic fatigue, fibromyalgia, and other problems.
    It is hard to deny the fact that these people are sick, 
that spouses are sick with this illness and so on. And I think 
that the biggest tragedy that has happened as a result of our 
experience is the denial that this type of illness can spread 
to family members. And, again, there was an official 
counterattack when we first came out and did our study of the 
veterans' wives and other family members instead of which we 
felt would have been the opposite. Here is a problem. It is 
obviously a problem. Let's try to find the solution to this 
problem, not just attacking the messengers.
    Mrs. Nicolson. I do have one point. You have asked about 
the problem in the civilian population of countries like Iraq. 
We have received communications on this, and, of course, I am 
not in the intelligence community, so it would be hard for me 
to provide documentation. But I have many friends in Jordan and 
in just about every country in the Middle East, and they have 
contacted us from various clinics, and told us that there is a 
problem in the civilian populations of Kuwait, where they 
estimate 15 to 20 percent of the adult population is suffering 
from a variety of signs and symptoms, and indirectly we have 
received communications from people in Iraq that there is a 
major problem there via Jordan, some clinics there.
    So that would explain the possible release by a variety of 
ways that we try to cover of an infectious agent, because it is 
a civilian problem. It is like a time bomb. It goes off. It is 
not an acute problem because I believe our soldiers were 
covered for the acute agents, so there is a problem, and some 
body, maybe the World Health Organization, needs to address it 
and release the data so that we can better deal with it.
    Mr. Nicolson. In fact, we are on our way to Europe to do 
just that. We will be meeting with representatives from the WHO 
and from several countries that have an interest in seeing this 
issue resolved.
    Mr. Shays. Thank you. Mr. Dietz, is there any question you 
wish we had asked you?
    Mr. Dietz. Any question which I would like----
    Mr. Shays. Is there any question you wish we had asked you 
that you would have liked to have responded to?
    Mr. Dietz. I think we have covered everything quite well, 
and offhand I cannot think of any.
    Mr. Shays. I appreciate your testimony as well as the 
Nicolsons'.
    Doctor, any question you wish we had asked?
    Dr. Durakovic. I only wish to express my thanks for this 
opportunity.
    Mr. Shays. Well, it is our opportunity, and we thank all 
four of you for coming to testify. I know you had to wait 
through the first panel, and I appreciate you being there. So 
all of you are free to go, and thank you very much.
    We are really now coming to the second panel. I appreciate 
in particular the Department of Veterans' Affairs for their 
willingness to have the panels switched.
    We have Dr. Thomas Garthwaite, Deputy Under Secretary for 
Health, Department of Veterans' Affairs, accompanied by Dr. 
John Fuessner, Chief Research Officer, Department of Veterans' 
Affairs, accompanied by Dr. Frances Murphy, Director of 
Environmental Agents Services, Department of Veterans' Affairs. 
And Dr. Bernard Rostker, Special Assistant for Gulf War 
Illnesses, Department of Defense, is back. I appreciate you 
being back, and he is accompanied by Dr. Gary Christopherson. 
And is there anyone else who might respond to questions, 
because if so, I am just going to ask them to stand as well.
    What I would like all of the panelists to do is, if they 
would stand, as you know, we swear all our witnesses in, and 
anyone else who might be that is accompanying you, and we will 
only introduce them if they then end up testifying; but if 
whoever else might be potentially responding. Thank you all for 
your patience. Raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Again, I want to thank all of you. 
First, I would like to thank again the Department of Veterans' 
Administration for being here for the first panel, listening to 
our veterans, being willing to fit into Dr. Rostker's schedule. 
And, Dr. Rostker, we appreciate you coming back.
    Dr. Rostker. Thank you, sir.
    Mr. Shays. What we will do, Dr. Garthwaite, I think we will 
start with you. And, again, we have a 5-minute timeframe, but 
we really are more interested in your testimony, and so if you 
go over, I could care less. In other words, I care more that 
you give the testimony that you want to give, than about the 
time.

  STATEMENTS OF THOMAS GARTHWAITE, DEPUTY UNDER SECRETARY FOR 
 HEALTH, DEPARTMENT OF VETERANS' AFFAIRS, ACCOMPANIED BY JOHN 
   FUESSNER, CHIEF RESEARCH OFFICER, DEPARTMENT OF VETERANS' 
 AFFAIRS AND FRANCES MURPHY, DIRECTOR OF ENVIRONMENTAL AGENTS 
  SERVICES, DEPARTMENT OF VETERANS' AFFAIRS; BERNARD ROSTKER, 
    SPECIAL ASSISTANT FOR GULF WAR ILLNESSES, DEPARTMENT OF 
 DEFENSE, ACCOMPANIED BY GARY CHRISTOPHERSON, ACTING PRINCIPAL 
 DEPUTY FOR HEALTH AFFAIRS; COL. HERSHELL WOLFE, ASSISTANT FOR 
  OCCUPATIONAL HEALTH, ASSISTANT SECRETARY OF THE ARMY, ASA, 
ILNC; AND COL. ERIC DAXON, RADIOLOGICAL HYGIENE STAFF OFFICER, 
                        AEPI, U.S. ARMY

    Dr. Garthwaite. Mr. Chairman, I am pleased to have this 
opportunity to discuss VA programs for Gulf war veterans. 
Accompanying me today are Dr. Frances Murphy, who heads our 
Environmental Agents Service, and Dr. John Fuessner, who heads 
our Research Service.
    Mr. Shays. Dr. Fuessner, I am sorry I pronounced your name 
so badly.
    Dr. Garthwaite. As you requested, my focus today is on our 
efforts to help Gulf war veterans who may have adverse effects 
as a result of exposure to chemical warfare agents, depleted 
uranium, and smoke from oil well fires. While we must learn 
from the exceptions, it is important to remember the rule as 
well.
    Since 1991, when we developed the VA Registry Program, more 
than 66,000 Gulf war veterans have completed Registry 
examinations. We have provided more than 1.8 million ambulatory 
care visits to about 200,000 unique Gulf war veterans, and more 
than 20,000 Gulf war veterans have been hospitalized at VA 
Medical Centers. An additional 400 veterans have been evaluated 
at our specialized referral centers, and more than 75,000 
veterans have been counseled at our vet centers. The majority 
of veterans have been helped by our efforts.
    With regard to chemical warfare agents, we continue to 
believe that additional research is needed with regard to the 
effects of low-level exposures to chemical warfare agents on 
human health. The VA has been working to advance scientific 
understanding of this area.
    Our recent efforts include the following:
    First, the Research Working Group has intensified its 
efforts to fund research related to health effects of low-level 
exposures to chemical warfare agents. New studies will address 
exposure to nerve agents alone or in combination with other 
toxins.
    Second, the VA organized and sponsored an international 
symposium on the health effects of low-level exposure to 
chemical warfare nerve agents. The conference allowed 
investigators from around the world to share research findings 
and to discuss strategies for future research.
    Third, VA funded three new toxicology fellowships and five 
new occupational medicine residency positions. These 
fellowships begin next week. We anticipate that we will be able 
to increase this number in future years, although concern has 
been raised by some program directors concerning the market for 
trainees after the fellowship. We anticipate that these actions 
will increase the interest in research on chemical exposures.
    Finally, we have altered our research focus to increase the 
studies which focus on clinical outcome.
    With regard to depleted uranium, research on the human 
health effects of depleted uranium exposure in military 
occupations is limited, especially regarding depleted uranium's 
potential chemical toxicity. Two DOD-sponsored research 
projects currently under way are looking into this. In VA, the 
VA depleted uranium followup program at the VA Medical Center 
in Baltimore is a clinical surveillance program for 
identifying, characterizing, and following individuals who 
retain depleted uranium fragments from the Gulf war.
    With regard to smoke and other toxins released from oil 
well fires, it is clear the Gulf war troops were exposed to 
potentially harmful environmental hazards during the Gulf war. 
The most obvious challenge was smoke from hundreds of oil well 
fires in eastern Kuwait in January 1991 set by retreating Iraqi 
forces. Some of the fires lasted until October 1991.
    A coordinated, concerted effort has been made by the 
Department of Defense, Environmental Protection Agency, 
Department of Health and Human Services, and the National 
Oceanic and Atmospheric Administration to evaluate the health 
effects from these fires. Based on data collected from March 
through December 1991, the concentration of pollutants were 
within the U.S. air standards except for particulates and 
occasionally sulfur dioxide. Levels measured were similar to 
those in U.S. cities such as Houston and Philadelphia.
    No cases of illness resembling those observed in Gulf war 
veterans were seen among firefighters in Kuwait nor among oil 
well fighters who have spent years experiencing similar 
exposures. Research efforts investigating the potential health 
effects of oil well fire exposure are ongoing.
    Finally, with regard to enhancing our clinical programs, we 
continue to aggressively pursue enhancements to our clinical 
programs for Gulf war veterans. For example, we have 
implemented service evaluation and action teams in every one of 
our health care networks. These teams consist of clinicians, 
patient representatives, and patients who review and act to 
correct individual and systematic problems for Gulf war 
veterans.
    While these teams are new, I recently reviewed their first 
submission of meeting minutes, and I believe that these teams 
will be a positive method to identify and fix many problems as 
well as an excellent way to identify common problems which can 
be fixed programmatically.
    Second, we have piloted new care models including primary 
care teams, which develop expertise in caring for Gulf war 
veterans. This new model facilitates the education of providers 
about recent developments in Persian Gulf illness, improves the 
coordination of care, and enhances patient satisfaction.
    Third, we have developed a method to oversample Gulf war 
veterans in our patient satisfaction survey process. This 
should allow us to have statistically valid assessments of the 
satisfaction with care of Gulf war veterans.
    Fourth, we have had our medical inspector review the 
adequacy of registry examinations. These results have 
demonstrated a significant improvement in both accuracy and 
completeness of those examinations.
    And, fifth, we believe that health outcomes are an 
important measure for all veterans and will be part of all 
health care in the future. We do not believe that it is done 
well in the VA or in any health care system that we know of. We 
have developed and tested a standard, data-gathering instrument 
that was originally developed by the Health Care Financing 
Administration. It is called the SF-36. We have tested it 
already in 32,000 veterans, and we will continue to use that 
into the future.
    As an effort to enhance our understanding of the health of 
Persian Gulf veterans, we will also oversample Persian Gulf 
veterans with this instrument to see if we can describe better 
the current health status of these individuals.
    In conclusion, we continue to make progress involving our 
research and clinical programs regarding Gulf war illness. We 
remain committed to meeting the challenges of understanding the 
causes of Gulf war illness and of providing the most effective 
treatment to Gulf war veterans.
    We continue to welcome your feedback and advice on how we 
might be more responsive to the veterans we serve, and we will 
be happy to answer any of your questions.
    [The prepared statement of Dr. Garthwaite follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Doctor. Dr. Rostker. You look like 
you were in prayer. Has it been a long day?
    Mr. Rostker. It has been a long week, sir.
    Mr. Chairman, members of the committee, it is my pleasure 
to be here again today and continue our dialog concerning the 
Department of Defense inquiry into Gulf war illnesses. I have a 
rather long statement, and I would request that it be placed in 
the record. I also sent the committee chairman this morning a 
letter concerning our ongoing interactions with Dr. Garth 
Nicolson, and I would like to bring that to the Chair's 
attention.
    On December 23, 1996, DOD and the Department of Veterans' 
Affairs representatives met with Dr. Nicolson to discuss the 
mycoplasma laboratory test verification project in association 
with members of the National Institutes of Health's National 
Institute of Allergy and Infectious Diseases. This meeting was 
followed by conference calls on January 21 and March 20, 1997 
to discuss straw-man protocols, several electronic mail 
communications in a telephone conversation on March 24, 1997 
between Dr. Engles and Dr. Nicolson.
    At that time, Dr. Nicolson agreed to the project protocol. 
The final protocol has been written and approved by DOD and HHS 
scientists and Dr. Nicolson. The protocol will use four 
laboratories which will test the agreement for various 
conventional reaction tests and Dr. Nicolson's nucleoprotein 
gene tracking. Blood from 30 Gulf war veterans with unexplained 
physical symptoms will be used for the comparative studies. 
Veterans' blood will be used because of the high mycoplasma 
detection rates reported by Dr. Nicolsons in the studies.
    The result from Dr. Nicolson's laboratories and from the 
three new labs will be statistically compared. This protocol 
fits the criteria for establishing the validity of a new 
diagnostic test and the ability to produce and replicate 
results.
    Currently, contracts are being written for the four study 
laboratories. This process should be completed within 2 weeks. 
Once contracts are awarded, we anticipate the timeframe for 
laboratory data collection and analysis will be another 6 
months.
    In addition, on our Gulflink home page, there is a 
solicitation by Walter Reed for volunteers to participate in 
this program. The reason for the most recent delay was 
contracting procedures, and since this contract will be a sole-
source contract rather than taking the time for a competitive 
contract, certain stand-off protocols had to be established 
until the contract can be awarded. But we understand from the 
contracting organizations that the contract should be awarded 
within the very near future.
    In terms of my prepared remarks, I would like to summarize 
some major points. As you know, the committee asked me to 
concentrate my remarks today on three areas of concern: low-
level chemical exposure, oil well fires, and depleted uranium.
    I am accompanied here today by experts that will be able to 
augment my testimony if the committee wants to get into further 
technical details not covered by my remarks, Colonels Wolfe and 
Daxon from the Army and Dr. Jack Heller from Chipham. In 
addition, Gary Christopherson, the Acting Principal Deputy 
Assistant Secretary of Defense for Health Affairs, is also here 
if the committee wants to discuss the recent GAO report.
    All three areas the committee asked me to discuss today are 
under active and, I might say, continuing investigation by my 
office. In all areas we are pursuing two lines of inquiry, what 
does science say and what happened in the Gulf. In answering 
these questions, we are building on the research base that the 
DOD has already developed and pushing back the frontiers for 
our knowledge through new research and analysis.
    Potential exposure to low-level, chemical agents continues 
to be an important area of investigation. One case that has 
gotten a lot of attention for the potential of lower level chem 
are the detections by the Czech and French chemical detection 
equipment. These detections occurred during January 1991 in 
northern Saudi Arabia. United States technical experts 
described the principal detection claims by the Czechs as 
credible, although the source of the chemical is still unknown.
    Most importantly, we believe, the Czechs continued to use 
their sensitive equipment throughout the war, but no further 
detections were reported. We are continuing to investigate this 
case. In fact, a team will be visiting France and the Czech 
Republic this summer to discuss these detections and the issue 
of low-level chem exposures and the sensitivity of the Czech 
equipment with the Czechs this summer.
    A second area of concern has been the results of coalition 
bombing during the same period of time, January 1991. The CIA 
published a study in September 1996 that examined the worst 
possible case for fallout reaching U.S. troops. The CIA reports 
said that the analysis and computer models indicate chemical 
agents released by aerial bombing of chemical warfare 
facilities did not reach United States troops in Saudia Arabia.
    To improve our confidence in the results of the original 
plume analysis, DOD is working with new models that will 
further analyze the possible effects of a bombing campaign. The 
DOD experts in meteorology and modeling from the Navy Research 
Laboratory and the Defense Special Weapons Agency and the Navy 
Surface Warfare Center will continue our look at the bombing 
campaign.
    Another claim for possible source of low-level chemical 
contamination to United States troops is the destruction of the 
ammunition supply point at Khamasiyah. I think you know that 
DOD and CIA recently completed a series of small-scale 
demolition tests designed to assist in developing the models to 
be used to assess the potential fallout from Khamasiyah. The 
questions we are most interested in are who may have been 
exposed to chemical agents in Khamasiyah and to what extent 
they may have been exposed.
    During those tests, we blew up 32 foreign-made, 122-
millimeter rockets with warheads filled with simulants. The 
tests provided fundamentally new information on what may have 
been vaporized versus what may have been spilled into the 
ground. Additionally, we have undertaken a series of 
evaporation tests to determine how nerve agent disperses in the 
soil and in the woods of the crates that were at the site. This 
work will be incorporated in our analysis of fallout, which is 
due in late-July.
    Another area of investigation is the Kuwait oil well fires. 
The setting of these fires first were detected on January 24, 
1991, and the number of fires increased until it reached a 
daily peak of 730 in late February. The emission from these 
fires had the potential to cause acute-and-chronic health 
effects. Our soldiers were exposed to heavy smoke and 
byproducts. Research thus far has not indicated, however, that 
the exposure to oil well smoke has caused acute health impacts 
to our troops.
    We have also contacted the firefighters that participated 
in extinguishing the fires, and our conversations with them 
reveal an absence of symptoms that are reported by our 
veterans. To date, we have found no apparent health problems or 
long-term effects from exposure to the oil well fires in 
Kuwait.
    Depleted uranium is another area we are investigating. DU 
is approximately half as radioactive as natural uranium found 
in the soil and poses no significant external radiation risk to 
soldiers. The major toxic problem with DU is from its chemical 
properties. As a heavy metal, it can concentrate in the liver, 
bones, and kidney, as does mercury, lead, and tungsten; and 
tungsten is significant here because it is often spoken of as a 
replacement for DU in munitions.
    The problem basically is DU dust generated when DU burns, 
and it may be ingested and present a health hazard. Soldiers 
with the greatest potential for harmful effects of DU are those 
who are in a vehicle when the vehicle is hit by a DU round. 
Twenty-nine combat vehicles--15 Bradley, and 14 Abrams tanks--
were contaminated in this manner. DU from other Abrams tanks 
hit all of the Bradleys and eight of the Abrams. Five of the 
Abrams tanks were contaminated when DU munitions burned in on-
board fires. Its on-board DU emissions contaminated the final 
Abrams after being hit by a Hellfire missile.
    In addition, 50 soldiers were injured in the Doha 
Ammunition Dump incident, and it is unknown how many may have 
ingested DU dust. The Baltimore Veterans' Affairs Medical 
Center is conducting health service for individuals who were in 
U.S. Army vehicles when they were struck by DU rounds. 
Currently, 33 individuals are being evaluated, including 16 
with DU shrapnel in their body. The Health Surveillance Program 
has shown that those who have retained shrapnel identified 
radioactively are excreting increased amounts of uranium, 
indicating that the metal particles are not entirely inert.
    So far, analysis of the first round of examinations has 
shown no evidence of adverse health effects associated with the 
absorption of uranium.
    We recognize that we have been deficient in not properly 
training all soldiers to the risks of DU armor and munitions. 
The Army has developed a three-tier training program to meet 
the needs of every soldier, from the soldier on the battlefield 
to the technical that works with DU.
    There is an axiom that states: On the modern battlefield 
what can be seen can be hit, what can be hit can be killed. 
That turns out to be a good axiom for the United States, but 
was not an appropriate axiom for the Iraqis, largely because of 
the use of DU both as a penetrator and as a protective shield. 
U.S. forces using 105-millimeter and 120-DU Sabot rounds 
routinely obtained first-round kills of Iraqi T-72 tanks at 
ranges in excess of 2 miles.
    And I think Col. Wolfe has with us a mockup of a Sabot 
round, and I think he is prepared to just talk about that for a 
moment.
    Mr. Shays. Was he sworn in?
    Mr. Rostker. Yes, he was.
    Mr. Shays. Thank you, Colonel. I appreciate that. That is 
the actual size of the----
    Mr. Wolfe. Yes, sir. This is the 120-millimeter----
    Mr. Shays. Let me ask you this. Now, we want to make sure 
the transcriber can pick you up. OK. That is good. That is 
good. Identify yourself for the record.
    Mr. Wolfe. Sir, I am Col. Wolfe, with the Assistant 
Secretary of the Army's Office.
    Mr. Shays. Colonel, it is nice to have you here.
    Mr. Wolfe. Thank you, sir.
    This is the 120-millimeter Sabot round, the Abrams main 
battle tank; and the misconception is that this entire round is 
the depleted uranium. That is not so. It is primarily the 
penetrator that you see here. We refer to it as the ``dart,'' 
and this is what we have been talking about all day long, is 
where depleted uranium goes. There is a similar round that has 
been developed for the Bradley Fighting Vehicle, again, with a 
small depleted uranium dart.
    Mr. Shays. How many of those shells are in a tank? That is 
not classified, is it?
    Mr. Wolfe. I cannot answer that, sir. I am not----
    Mr. Shays. You do not know if it is classified?
    Mr. Wolfe. I am not an armored officer, so I do not know.
    Mr. Shays. The size of it is quite interesting.
    Mr. Wolfe. Yes, sir.
    Mr. Shays. Thank you.
    Mr. Wolfe. Yes, sir.
    Mr. Rostker. When the round is fired, part of the casing 
stays. The back part of the casing stays in the tank and is 
ejected, the front casing falls away, and what flies through 
the air is simply the dart. Somebody said we have returned to 
the arrows of our forbearers.
    What this dart does effectively is provide a certain, 
first-shot kill to American gunners, and even in the testimony 
this morning, there was, again, a recounting of the superb 
performance of the DU round. That really does protect our 
troops by making sure that they get that first shot in and that 
that is an effective first shot.
    Moreover, we use DU as protective armament, and the tanks 
that had the DU presentation, that DU never failed and was 
always effective against the Iraqi chemical, high-explosive 
rounds. The only thing that can penetrate a DU armor is another 
DU penetrator.
    Mr. Shays. I do not understand when you said ``chemical.''
    Mr. Rostker. The normal tank round is a shaped-charge 
explosive, and it generally went out often as a tandem charge 
so there would be an explosion to defeat the armor and then a 
second explosion to burn through and hit the turret. But it was 
a chemical round; it was an explosive round. The dart in this 
DU projectile we have talked about is a penetrator. It is known 
as a ``kinetic round,'' meaning it is the force of the 
projectile, and the round is 1.6 times more dense than lead, 
and it has such penetrating power, that it often went into the 
Iraqi tank and out the other side.
    It flies true, and so with the superior performance of the 
Abrams tank, the M1 tank, it was able to engage T72 tanks at 
ranges that they could not engage, providing a sure, first-
short kill. There are numerous accounts of the war, however, 
where Abrams tanks were ambushed, where the T72's got within 
400 meters, firing rounds, and they did not defeat the Abrams 
tank providing presentation for our troops. There is one 
account, even in the middle of the summer, where an Iraqi tank 
hid behind an earthen berm, and the DU penetrator went right 
through the earthen berm, found the tank on the other side, and 
blew the turret off the tank.
    Increasingly, DU, because of its high effectiveness, has 
been the recipient of an Iranian-run disinformation campaign. 
United States intelligence agencies have intercepted message 
traffic, diplomatic message traffic within Iraq or from Iraq 
directing their diplomats to engage in a disinformation 
campaign concerning DU, and that assessment has been 
declassified and is on Gulflink.
    Mr. Shays. Your point in this, so I do not have to come 
back to it, is that it is your sense that the Iraqis want to 
call into question the environmental safety of the uranium in 
our shells and in our protective----
    Mr. Rostker. And the North Koreans are doing the same now 
also. After the Rico Committee Report, the Iraqi Embassies were 
told to downplay the conclusions concerning low-level chemical 
exposure, that there was no danger from chemicals, no fallout, 
no persistence, but that the real pollutant on the battlefield 
and the cause for illness was DU.
    Mr. Shays. We accept that as part of the record, but I hope 
you understand that this committee will be examining this.
    Mr. Rostker. Absolutely, and that is why I have asked and 
they have declassified the assessment, and it is available on 
Gulflink.
    Mr. Chairman, let me just end by saying the Department of 
Defense remains committed to providing appropriate care for our 
veterans, to understanding what occurred in the Gulf, and to 
make the necessary changes to our policies, procedures, 
equipment, and doctrine to protect our current and future 
force. Thank you very much, sir.
    I believe Mr. Christopherson would like to make a 
statement.
    [The prepared statement of Mr. Rostker follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Sure. And let me say, before we begin the 
questions, if those accompanying you just want to make a 
statement, we are happy to hear them. Yes, sir?
    Mr. Christopherson. Mr. Chairman, thank you very much. A 
lot of the questions you raised earlier with both panels of 
witnesses had to do more in depth with health. I thought I 
would just cover a couple of brief points, and then we could 
come back to more questions.
    One is I think it is important to understand, as we have 
looked back at the Gulf war, it has been a very quick 
recognition mistakes were made. Things did not go as well as 
they could have been, and I think it is important for us to 
understand that that is now clearly the position and that is 
clearly where we see life being at this point.
    The second thing I think, which is important for you, is 
that a lot of the lessons have been learned. It is learned from 
the point of view of what we do on the battlefield. It is 
learned in terms of how we approach research and clinical. I 
would also argue, we are still learning as we go along.
    The third thing is that a lot of changes are being made, 
and we could talk more about them as you wish. One is I think 
the idea of the clinical program that both VA and DOD have put 
into place is a program that we intend to have available for 
future situations as well; therefore, to be ready to intervene 
much earlier than in the Gulf war.
    The second thing is what you are seeing now in terms of 
what we deployed in Bosnia and currently in Southwest Asia is 
again an attempt to take surveillance out much earlier, 
predeployment, during a deployment, and post-deployment kind of 
work to learn much more about what is happening out there, give 
us better exposure data to bring back and better records to 
bring back.
    I think, with respect to the research, we are working very 
closely with VA have built a better research model for peer 
review, getting it out there, looking at different kinds of 
treatments. We have done a number of things now. We have 
committed about $27 million to research this year, a very 
multifaceted kind of approach to look at issues, low-level 
chem, environmental hazards, a number of other areas.
    With respect to DU, I think I will defer to Bernie on that, 
other than the fact that that is an issue that we obviously 
also have some concern about in terms of what the health 
consequences may be and how much we still do not know yet and 
need to learn.
    On the low-level chem, we have research in place. We have 
asked the Institute of Medicine to take a look at our clinical 
programs to make sure that if there were more than one chemical 
on the battlefield, whether or not we would have picked it up 
in our clinical program, and they have given us positive 
feedback, saying they believe it would have. They have also 
indicated obviously some things we could refine for the future 
that would make it even stronger.
    On the biological infectious side, as indicated by Dr. 
Rostker, we are clearly looking at the Nicolsons' work. We will 
fund that. We have our people ready and trained to do so. We 
are working with independent laboratories as well to make sure 
that there is really a good, independent look and not a feeling 
that we, in quotes, have done it unfairly in terms of DOD. The 
area of infectious disease is an area that is of high interest 
on the part of the Department of Defense, an area where we are 
launching a rather major initiative, along with the Centers for 
Disease Control and others as well.
    In ending--just again our assurance that our job here is to 
take care of our troops. We intend to do that. We will do that, 
both for now and into the future. We have a very key 
obligation. One of the great learning experiences out of the 
Gulf war is how we better protect our people in the future and 
a lot of areas in that as well. For that, I will defer for the 
questions from you.
    Mr. Shays. One of the things that we really have not 
touched on is the GAO report. The inside-the-beltway discussion 
of this was that some were eager to have the GAO validate the 
VA and the DOD's work, and much to the surprise of some, was 
that it did the exact opposite. I guess the question is, one, 
will you agree with some of the criticisms; and, two, if you 
agree with them, do you feel you have changed or no longer are 
deserving of that criticism?
    One of the criticisms is that too much of the research that 
is done on Gulf war illnesses is devoted to stress and Post-
Traumatic Stress Disorder, PTSD. Would you explain--my 
understanding, about a third of all research is, in fact, on 
this area, and would you explain why; first, if it is true, 
and, second, why?
    Mr. Feussner. There are several--I think that there is a 
major emphasis on the research in the context of brain and 
nervous system disorders, that is, along with general health 
types of research initiatives, that is the major research focus 
to this date. That includes an array of research that deals 
with stress and Post-Traumatic Stress Disorder, deals with 
issues related to cognitive impairment, deals with issues 
related to Peripheral Neurological Disease, et cetera.
    So, in the sense that all of brain and nervous-system 
disorders are lumped together, that is a major focus. I am not 
sure that it is correct to categorize most of that as relating 
to stress; however, there has been interest in the 
neurobiological aspects of stress and stress as a modulator of 
various responses to other insults, and that kind of research 
continues.
    Mr. Shays. I need to be clear and on the record as to 
whether the VA rejects Dr. Joseph's point to this committee 
that there was no acute exposure to chemicals and, in essence, 
low-leverage exposure is not harmful; and, therefore, chemicals 
exposure should not, in essence, be considered of major 
concern. I want to know how the VA basically responds to that.
    His quote was: ``Current accepted medical knowledge is that 
chronic symptoms or physical manifestations do not later 
develop among persons exposed to low levels of chemical nerve 
agent if they did not first exhibit acute symptoms of 
toxicity.'' Now, I need to know if that is--I am going to be 
asking DOD if that is the operational use still, and I need to 
know the VA, if they buy into that or if they have finally 
rejected that.
    Dr. Garthwaite. I do not think we buy into it. I would 
think we do not know what the risk is, but we are keeping an 
open mind. We do not believe there are any reasonable, valid 
human studies of those kinds of exposures, so to conclude 
anything, we think, would be premature.
    Mr. Shays. OK. I am not making my question clear enough. 
The bottom line to his point was that if you did not see acute 
manifestations, that you would then not later see chronic 
effects from chemicals. That was a basis for why the VA did not 
spend time looking at chemical exposure, because you accepted 
the DOD's view that there was no acute exposure, and if there 
was not acute and therefore low level, it would not result in 
chronic harm later on.
    I want to know if we can take Dr. Joseph, who was the 
Assistant Secretary of Defense for Health Affairs, if we can 
put that in the trash can and know that that is not a guiding 
principle of either the DOD or the VA.
    Dr. Garthwaite. I think that is his opinion. We do not 
believe that there is any scientific data on which to base an 
opinion about whether exposure to low levels could lead to a 
chronic disease or not in humans. There is very little data 
from studies in animals, either.
    Mr. Shays. Why don't we forget about any concern of low-
level exposure in this country? Get rid of OSHA, say, OSHA, you 
are not needed anymore because we do not care about low-level 
exposure to chemicals.
    Dr. Garthwaite. I am not communicating well. We believe 
that because there is no data, we need to know whether----
    Mr. Shays. I am going to come back to you, Doctor.
    Mr. Rostker. We would not necessarily--that is not our 
position today, as you stated. We are funding research in low-
level chem. We have not ruled it out.
    Mr. Shays. I would like you to say what is not your----
    Mr. Christopherson. Let me elaborate on that.
    Mr. Shays. I just want to say this to me, is like--before 
we go out--this is something we should be able to discard 
quickly.
    Mr. Christopherson. We have to agree. Let me go back. It is 
a need to understand the context of what you said and what it 
meant, because that is important.
    Mr. Shays. And I am willing to be clear on this, but I do 
not want to get into the mind game----
    Mr. Christopherson. No, no, no.
    Mr. Shays [continuing]. Where Mr. Deutch says publicly that 
our troops were not exposed to offensive use of chemical when 
he knew our troops were exposed to defensive. Because he used 
that clever word of ``offensive,'' we made an assumption that, 
therefore, our troops were not exposed to chemicals. So----
    Mr. Christopherson. Right.
    Mr. Shays. OK.
    Mr. Christopherson. What his statement was saying was, 
based upon the best scientific knowledge which is out there--it 
actually still is out there at this moment in time--the 
conclusion you would have is that you do not have chronic 
without acute in terms of the chemical exposure. Now, the key 
thing is there, and that was, by the way, still the best 
knowledge. It is very thin; that is the problem with it.
    That is why we have said, while that is essentially true as 
a current statement of what the information is, you cannot base 
long-term judgments on that. That is why we said instead two 
things. One, the Institute of Medicine said, help us to figure 
out in our clinical programming in case it is out there, we 
miss something.
    Mr. Shays. OK.
    Mr. Christopherson. The second thing, we went out there and 
said, let us go ahead and start to fund some low-level chemical 
research because we have got to fill in this rather thin body 
of knowledge. The concern that you are raising back there about 
and this whole issue of why was not low-level chemical picked 
up a long time ago, we sort of put in the context of 
combinations, I think, of things.
    It is not that statement of judgment or anyone else. What 
it is, is a combination of no direct evidence, my understanding 
is, off the battlefield, combined with the fact that the best 
knowledge that was available out there was that you generally 
have to have an acute exposure; and, therefore, people have 
thought, this does not seem to be the most promising lead, and 
there may be other more promising leads.
    Going back to your EPA point, the germ of the point that is 
made there is that you are looking at generally longer term 
exposures at low level as opposed to a short-term exposure. The 
other assumption is generally that the exposure in the Gulf 
would be of relatively short duration.
    If you think back, for example, to what the witnesses said 
this morning, they were generally talking about, at the most, 
there would be eight alarms going off, which is generally 
indicating, even if there had been some exposure during that 
time, it would probably have been over a relatively short 
period of time, maybe 8 days, 2 days, and this kind of thing 
there, which again is very different than sort of the pesticide 
issue, which is something the British especially are focusing 
on.
    Mr. Shays. I am going to let Mr. Sanders get on this issue 
before we go on to the next one.
    Mr. Christopherson. Sure.
    Mr. Shays. I do not mean to be--I do not want to strain 
gnats and swallow camels here, but when you say this is our 
best knowledge, the word ``best'' has such a great sense to it. 
The best knowledge may have been meaningless because your best 
knowledge may just be absolutely dumb and stupid. And so you 
can say, ``Of the dumb-and-stupid knowledge we have, this is 
the best, but it is still dumb.''
    Mr. Rostker. You are reading it as in plain English as 
quite a declarative statement. We would not be happy making 
that statement as a declarative statement today.
    Mr. Shays. The problem is the VA used this statement as a 
basis for a failure to look at low-level exposure.
    Mr. Rostker. And I think we are talking about history here, 
not necessarily where we are today.
    Mr. Shays. And that is why I want to be certain. I just 
want to make sure that we are not trying to, in a sense, 
satisfy us, but in your heart of hearts, you still buy into 
this.
    Mr. Rostker. It was not the applicable statement today. 
Today, we are funding research to better understand low-level 
chem. We are more modest in our statements in terms of our 
understanding. We have a range of activities going on to better 
assess what science is telling us and push back the frontiers 
of science, so that would not be--it is not an applicable 
statement today and not a limiting statement for our program 
today.
    Mr. Christopherson. But, again I want to come back. That 
declarative in nature, which is what you have described, was 
not the case even back then. In the first place, our moving 
forward on funding low-level chemical was under the watch of 
Dr. Joseph. Our movement in that direction was a request to the 
Institute of Medicine for them to look at our clinical protocol 
was also to Dr. Joseph. That is why I say----
    Mr. Shays. What about Dr. Joseph? It was what?
    Mr. Christopherson. Under his tenure.
    Mr. Shays. Well, by then we had Khamasiyah, and you all on 
a Friday afternoon at 4 o'clock let the world know that maybe 
we had exposure. So I am just not impressed with that comment.
    Let me just go back to the VA, and then I will let you 
talk. I just want to know where the DOD is. I just need to now 
know where the VA is. What I hear you saying, so then you 
correct me, where I start out is may be faulty from your 
viewpoint.
    I start out from the fact that in my life as an American 
citizen, and as a State legislator, I have been taught to be 
concerned with low-level exposure, and I have been taught that 
low-level exposure leads to chronic illness. In my world as an 
American citizen and as a former State legislator and as a 
Member of Congress, I pay attention to OSHA, and I empower OSHA 
not to allow American citizens to be exposed to--low-level 
exposure to chemicals. That is my world, and what I am hearing 
you say is, well, that may be true, but if it is low level, it 
has got to be over an extended period of time.
    What I totally reject and am comfortable rejecting is that 
it has to be acute and if it is acute, it cannot be chronic, 
because I have never seen anything that would make someone be 
allowed to make that statement.
    Dr. Garthwaite. I believe the correct thing to say is we 
agree with you, and----
    Mr. Shays. I want you to state it in your own words.
    Mr. Feussner. Yes. I think what I would similarly agree and 
say, that I think it is clear that we have insufficient 
information to know what the possible long-term sequelae of 
low-dose exposures are, and I think we need to do additional 
research to explore that.
    I think in some ways we have spoken with our actions when 
we sponsored the international symposium associated with the 
Society of Toxicology meeting in Cincinnati in March. We began 
planning that meeting in September 1996 and invited the 
international community to help us specifically with the issue 
of low-level chemical agent exposures, and I think we need 
additional research to explore the sequelae of possible low-
level exposures.
    Mr. Shays. Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman. Thank you 
all very much for coming, and I apologize for having to miss 
some of your testimony.
    Let me ask for some rather specific responses to my 
questions. In December 1996, in the final report of the 
Presidential Advisory Committee on Gulf War Illness, the 
following statement is made, and I quote: ``Current scientific 
evidence does not support a causal link between Gulf veterans' 
illnesses and exposures while in the Gulf region to the 
following environmental risk factors assessed by the Committee: 
pesticides, chemical and biological warfare agents, vaccines, 
pyridostigmine bromide, infectious diseases, depleted uranium, 
oil well fires, and smoke and petroleum products.''
    That is from the Presidential Advisory Committee. Today, in 
late June 1997, do you agree with that finding, or do you find 
that incomplete and inaccurate? Dr. Rostker, or if anybody else 
wants to respond.
    Mr. Rostker. Well, as you know, we have discussed several 
times my inquiries are looking at what science says, and I have 
great respect for the PAC and the process they went through. I 
certainly am considering that, but in my organization I am 
reserving judgment, final judgment on all of these. I have 
research going on on every one of the issues that you have 
raised, and that research continues. I wish it was completed so 
I could be definitive in my answer. I can only tell you that 
the research continues in my organization.
    Mr. Sanders. OK. In so many words, what the PAC was saying 
is that we see no substantial scientific evidence to suggest 
that there is an environmental factor in Persian Gulf illness. 
Rather, we believe, bottom line, that it is stress related. 
That is not the conclusion? Dr. Murphy, I can continue reading, 
but I believe that that is--but, please, if you disagree with 
me, I have got the document here.
    Dr. Murphy. Let me try to restate it because I think that 
the words that I used have a different meaning to scientists 
than they might to the general public. They said that there was 
no current evidence of a causal relationship. That is probably 
the highest scientific standard that we would meet in 
discussing that, so there is no evidence that those agents at 
this point caused the illnesses to Persian Gulf veterans.
    Mr. Sanders. That is correct. That is what they said.
    Dr. Murphy. They have not ruled out doing further research.
    Mr. Sanders. I know, but let me ask you, can you respond to 
that? Do you agree with that? Do you believe that there is no 
current scientific evidence which sees a causal relationship 
between environmental----
    Dr. Murphy. There is no rigorous, scientific----
    Mr. Sanders. No rigorous. All right.
    Dr. Murphy [continuing]. Investigation that proves a cause-
and-effect relationship between the illnesses of Persian Gulf 
veterans and those agents. That does not mean that the VA has 
not given them very serious consideration and does not believe 
that the investigations need to continue at this point. We are 
trying to develop the scientific evidence that would allow us 
to make that scientific, causal link.
    Mr. Sanders. What I have concerns with, Dr. Murphy and 
everyone else, is when you will finally begin to accept 
evidence. I am not a scientist. I have other things to do other 
than research Persian Gulf illness, but I sent a letter out to 
Dr. Lashoff of the Presidential Advisory Committee, listing a 
dozen, separate studies which show a link. If you would like, I 
can list them for you, although I suspect that you are familiar 
with them, including two studies funded by the DOD itself.
    Now, the concern that I have, and let me jump right to the 
GAO report, and this comes from the summary of it by the New 
York Times. The GAO report found that the program announced by 
the Pentagon lacks a coherent approach, and because of flaws in 
methodology and focus ``is not likely to identify the potential 
causes of the illness.''
    In other words, what they are saying is there are a dozen 
different studies here which would respectfully disagree with 
you, Dr. Murphy. They suggest that there is a causal link. When 
is enough enough? When do we begin to say, yes, there may be 
something there; we want to develop treatment based on these 
studies? I am amazed. Let me give you just two examples, Mr. 
Chairman, of things which really fascinate me.
    The New York Times, April 17, 1996, headline: ``Chemical 
Mix May Be Cause of Illness in Gulf War.'' What the article 
primarily deals with is the work that you are familiar with 
done by Dr. Haley and Dr. Abodonia from Duke, and Haley is from 
the University of Texas. OK? They describe it, and they say, 
well, these investigators have suggested that there is a 
synergistic effect between pyridostigmine bromide, et cetera.
    Then they go to a comment from the Department of Defense. 
The Department of Defense said that the new report raised 
``some interesting hypotheses,'' but the Department had ``no 
direct knowledge of the details of the work.'' Do you know what 
amazed me? What amazed me is less than a year before, the 
Department of Defense had done research which came up with 
exactly the same conclusion at Fort Detrick on rats. Is that 
true? I hope you know that. That is your own research.
    Mr. Christopherson. Yes. What you have got there, there 
is--and, again, this research, as you know, has been funded--
there is research looking right now at the synergistic effects. 
There are early suggested results that say, in fact, those 
things do occur. The problem is that what you have seen there, 
if I may finish for a second here, is it is the first step, and 
it has to do with how you do sort of the first researchers say, 
``OK. Could there possibly be under the most severe of 
circumstances there?'' That is Step 1. Step 2 then comes down 
to initial funding researchers say, ``Does it occur under real-
life situation?'' That is the additional funding and research 
we need to do.
    What you have got then, kind of going back to Dr. Murphy's 
point there, is there are a number of areas that we are looking 
at right now which are suggestive of potentials of relationship 
to Gulf war illnesses. They do not yet stand the rigor of tests 
yet, so they are suggestive we need to pursue----
    Mr. Sanders. All right, but 1 second. I understand that, 
but you see, that is always the argument. Let me just pick up, 
Mr. Chairman, because I found this absolutely fascinating.
    New York Times, Wednesday, May 14th, headline: ``Study 
Links Memory Loss to Nerve Gases in Gulf.'' Do you know who 
paid for the study? We did. OK? First paragraph: The Defense 
Department said today the Pentagon-sponsored research have 
produced ``important results'' suggesting that exposure to low 
levels of nerve gas, Mr. Chairman, and some pesticides can lead 
to memory loss, a common complaint among veterans of the 1991 
Persian Gulf war. This is your study.
    Now, what really fascinated me about this article, if you 
go down three-quarters of the article, and it said: In its 
statement today, the DOD said, ``These initial findings require 
replication of the species, including nonhuman primates, before 
it could be possible to draw larger conclusions, the 
experiments, et cetera, on nonprimates laboratory, et cetera. 
The Pentagon also questioned whether the experiments in which 
the rats were injected with the chemicals over a 2-week period 
offered many clues to the health problems of the veterans. This 
route of administration and duration of exposure does not 
parallel any known human exposure to troops.''
    That is what the DOD said. Do you know what the researchers 
said? Dr. Pendergast is on your payroll. You know what he said. 
He said, I do not think it is too early to draw conclusions. 
``The type of exposure regime that we employed in the animals 
and the type of exposures that are troops experienced in the 
Gulf are analogous, and they types of memory deficits that we 
have seen in the animals and those reported in Gulf war 
patients are extremely similar.''
    In other words, you are almost disowning or separating 
yourself or minimizing the result that your own researchers 
got.
    Here is the point: The GAO says that there is no focus. It 
would seem to me that if I had a dozen different studies all 
over the country done by reputable scientists, including some 
of your own, that suggest that there is a chemical link, I 
would be jumping on the stuff, I would be funding the stuff, I 
would be funding the stuff, I would be bringing these people 
together, and I would be working with a sense of urgency. I 
would not be going along, da-da-da.
    There may have been some major breakthroughs. Am I 
qualified enough to tell you whether these breakthroughs are 
substantial? I am not, and I certainly agree with you. But what 
really upsets me is that I read you a quote where a study done 
paralleled your own study, and you do not even acknowledge and 
say, ``Yeah, that parallels what we did a year ago, and we are 
really working frantically hard because we have 70,000 veterans 
who are hurting, and we are going to leave no stone unturned.''
    Do you have a sense or urgency? Are you really going after 
these issues?
    Mr. Christopherson. Yes. Mr. Congressman, absolutely yes. 
Let me be very clear. It is extremely important to us. We have 
the doctors and nurses and the researchers, as part of what we 
fund here in Health Affairs, and the rest of the Department 
take this extremely seriously and have since day one. We have 
clearly been very active, especially in the last 2 years. 
Should we have started earlier? That is a different question. 
Yes, we should have. We already admitted that that is a 
shortcoming of the whole thing.
    It is clear we are funding research as fast as much money 
as we have to do so----
    Mr. Shays. Doctor, you are starting to talk as fast as this 
guy. Because he is a Congressman, I did not want to ask him----
    Mr. Christopherson. I can probably outdistance him.
    Mr. Shays. I did not want to tell him to slow down, though 
I was tempted, but if you would slow down.
    Mr. Christopherson. I will slow down. What we are doing 
right now is we are pushing--you have got to remember, by the 
way, there are a lot of different theories out there we are all 
trying to work through simultaneously. A lot of things have 
promise, whether it is the plasma kind of issue there, whether 
it is the issues around the combinations and, therefore, you 
might go down that road, leave no doubt that there is a serious 
commitment to try and find the answer.
    There are two reasons for this. One is because the Gulf war 
veterans who are trying to figure out how to take care of them 
today. I heard the same tragic stories you heard a few hours 
ago in terms of their--we take these to heart, and leave no 
doubt about that.
    The second thing, we have got to be worried. We have got 
future deployments to worry about, and we have got to figure 
out what we are going to do there, and we need to know what we 
need to change, if anything, to make sure that is better there. 
What we have got to do now is we also owe it to the troops to 
do two things: Pursue aggressively and make sure it is good 
research. What we cannot afford to do is go down wrong paths, 
start doing treatments that do not make sense. On the other 
hand, if it makes sense, we cannot afford not to do it, and 
that is the fine line we keep moving down as we move forward 
very aggressively.
    But no doubt, we are the ones who pushed forward the $27 
million and pushed the research out.
    Mr. Sanders. All right. Let me just ask you. Let me quote 
from Dr. Rostker's prepared statements. Currently over $2.5 
million has been allocated to research involving health effects 
of low-level chemical warfare agents, et cetera. All current 
projects will be completed in the year 2000.
    I mean, you know, is that a sense or urgency, in the year 
2000, 3 more years?
    Mr. Christopherson. I think what you run into, we 
unfortunately are living within some of the rules and 
regulations unfortunately of how you do grants. We are not 
happy with it either.
    Mr. Sanders. Then break the rules. You know, one of the 
problems that we have right now--let me finish. All right? And 
I would like some answers to this question, too. My 
understanding is that around this time you are releasing about 
$8 million in grants. Is that correct?
    Mr. Christopherson. Correct.
    Mr. Sanders. You are going to announce who is not getting 
it. I do not know who is getting it. By the time you have 
announced requests for proposals and you have peer reviewed and 
you are getting the money out, in my estimate it is going to be 
a good year. Is that a fair estimate or more than that?
    Mr. Christopherson. It is probably in that range, yeah. It 
takes that time to get it out, unfortunately.
    Mr. Sanders. But why? In other words, the point that I am 
getting and why I myself no longer believe, in all due respect, 
that the DOD and the VA should be given this responsibility, is 
it should not take that long if we are dealing with a sense or 
urgency.
    All right. Let me ask you this question.
    Mr. Shays. Do you want to just respond, though?
    Mr. Sanders. Why does it take a year when you have 70,000 
people who are hurting? Why can't you move it faster?
    Mr. Christopherson. The issue--we are caught between two 
pressure points, and Congress is part of that, where it is part 
of our own two pressure points. On the one hand, we are told to 
move forward as fast we can, which we would like to. We are 
also told to make sure you are doing peer-reviewed research 
that is going through--we are caught between two things, and 
then also make sure----
    Mr. Sanders. The chairman is much more polite than I am 
when he says I should be patient. He is right. I love the word 
``peer review.'' You know why I like the word ``peer review''? 
I will tell you why. As you know, and as Ed Towns, I think, 
appropriately mentioned before, the whole issue of multiple 
chemical sensitivity is highly controversial. You have honest 
and good people on both sides of the issue.
    Mr. Christopherson. Yes.
    Mr. Sanders. I am not here to denigrate anybody. I happen 
to believe in it; honest, sincere people do not. Who do you 
have who is peer reviewing these proposals who believes and 
knows something about multiple chemical sensitivity? Give me 
the names of the experts.
    Mr. Christopherson. I cannot. In the first place, I do not 
get down that deep into that part of it there. We use the 
American Institute of Biological Science as our peer-review 
organization that what goes out there and does that.
    Mr. Sanders. Well, here is the problem, you see. I do not 
mean to be facetious about it.
    Mr. Christopherson. I understand. I understand. We get 
along well, and we are working together on this issue. Do you 
agree? We have disagreements on other issues, Republican, 
independent, so forth and so on. In the world people look at 
issues in a different way. I read the response of your folks to 
one of the proposals that came through, and it was absolutely 
insulting to the fellow who wrote the proposal.
    In other words, if you do not have people on your staff who 
understand and believe in multiple chemical sensitivity, that 
every approach that is brought forth will never get peer 
reviewed, in some cases these researchers will be seen as 
quacks or frauds. Right? I am arguing and have seen from the 
beginning, from day one, we do not have people who believe in 
multiple chemical sensitivity, and I am not even blaming you. 
There is a whole segment of medicine that does not believe in 
it.
    I think you do not believe in it, and that is fair enough. 
But there are people who do believe in it who believe that you 
are way behind the time, who are desperate for solutions, and 
who want to see some attention given to those folks who do 
believe in the concept, and I do not think you have the 
capability of doing it.
    I am sure you have wonderful scientists, but tell me the 
name of one of those scientists who has developed a treatment 
that is effective for Persian Gulf illness so that he or she 
can stand in a position of peer reviewing of the research. Who 
are the people who have developed the treatment and the 
understanding? Can you give me the names? You do not have 
anybody. Is that right?
    Mr. Christopherson. Again, this external peer-reviewed 
stuff. This is not--we are not talking about inside-the-shop 
kind of thing. The American Institute of Biological Science, 
which we run this through, is designed to be impartial to a 
wide range of theories. They are not to be either against or 
for multiple chemical sensitivity. It really is meant to be a 
neutral place out there to look at these issues and to be open 
on the question of what may make good sense, either from 
researching causes or researching treatments.
    The difficulty is, and correct me if I am wrong, that the 
issue of multiple chemical sensitivity is hotly debated.
    Mr. Christopherson. Correct.
    Mr. Sanders. I have spoken before--it must have been 500 
doctors in a room in Texas, and you know what? Every one of 
them believed and works with the concept of multiple chemical 
sensitivity. And I have met doctors who have said that these 
people are frauds, that what they are doing is absolutely 
outrageous, and we have nothing to do with them. Both groups of 
people, I suspect, are honest.
    I think that the VA and the DOD have sided with those 
groups of people who do not believe in multiple chemical 
sensitivity, so I am asking you--for example, I would mention 
that Dr. Claudia Miller, who does believe in multiple chemical 
sensitivity--I do not want to speak for her. She applied for a 
grant. She went way up the bureaucratic ladder. The DOD awarded 
her the grant, and lo and behold, she never got the money; it 
was called back.
    Dr. Mya Shayevetz, who worked for the VA in Northampton, 
MA, went along the bureaucratic ladder. She treated people 
based on multiple chemical sensitivity. Suddenly, she did not 
get any money as well.
    Who do you have that is key on your staff who believes in 
multiple chemical sensitivity? Please answer that.
    Mr. Chairman, I do not hear much of a response.
    Mr. Christopherson. I cannot point to someone who is a 
believer in there. What I will indicate to you is that I am 
being neutral on it. I do not have a strong feeling one way or 
the other. I do not have an opinion one way or the other in 
that process there. But if the issue is, as you said, there is 
a very sharp debate out there----
    Mr. Sanders. Yes.
    Mr. Christopherson [continuing]. And that debate continues. 
It has been part of our discussion. We have talked about the 
Institute of Medicine. We have added special sessions talking 
about that because we are open and trying to look at what makes 
sense, as long as they are good science, and that is the key 
issue.
    Mr. Sanders. But that is the problem, and you know it, and 
I know it, that there are many people who say that the whole 
issue of multiple chemical sensitivity is bad science. Right, 
Dr. Murphy? Aren't there some people who are saying that?
    Dr. Murphy. There are people who say that.
    Mr. Sanders. I think I have heard people say that. OK? 
Maybe some people in this room have said that. What about Dr. 
Haley? Is his work important? Is he going to work with you? Is 
he going to get funding from you?
    Mr. Christopherson. Dr. Haley is important to us, as both 
we and Dr. Phil Landrigan, who reviewed his piece there, 
consider his work important. He has identified a number of key 
areas to look at. The question is, it has to be taken some next 
steps to figure out where----
    Mr. Sanders. Is he going to get funding to get research?
    Mr. Christopherson. I do not know at this point. Again, the 
funding part, I cannot speak to.
    Mr. Sanders. Who can speak? Again, when the GAO talks about 
lack of focus, that is what they are talking. You cannot talk 
to funding. You are telling us that you are going to do 
research, but you cannot tell us what line of research is going 
to get funding. Dr. Rostker, do you want to help us out here?
    Mr. Rostker. Yes. I think in the process you are talking 
about specific researchers--in the peer review process----
    Mr. Shays. Let me say this. One thing is very important. I 
do not want you to leave without feeling you get to answer a 
question.
    Mr. Sanders. Absolutely.
    Mr. Shays. So he is really a nice guy, and you can tell him 
you want to respond to it.
    Mr. Christopherson. In the peer-review process it would 
really be appropriate as policy and senior people to get down 
and dictate which researcher is being funded and which is not, 
and I might say that the intervention that we have done in the 
case of Dr. Nicolson's research is somewhat unique.
    But I look at the focus issue in broader terms, and we went 
out in this year's allocation of funds through the interagency 
organization we have with the VA and explicitly went out to 
fund research in the area of low-level chem because we felt 
that this had been neglected and that we needed more answers. 
And so I look at that in terms of the broad focus of the 
research as distinct from picking the individual research 
topics.
    Mr. Sanders. Let me respectfully disagree with you. What we 
are involved in, and please tell me if you disagree with me, is 
a major controversy over the causation of illness. I happen to 
believe--I have seen it; I work with people--I believe in the 
concept of multiple chemical sensitivity. There are many people 
who do not.
    What I am suggesting, and I think there is no question 
about this, that unless you have scientists and physicians who 
believe in that concept, that every single time a research 
grant comes forward based on a diagnosis of multiple chemical 
sensitivity, the result is going to be, sorry, these people at 
best do not know very much; at worst, they are frauds.
    It cannot be otherwise, and I would say that the evidence 
indicates up until this point that you have not been 
sympathetic to the concept of multiple chemical sensitivity. I 
have asked you if you could tell me--I know the names of some 
of these people, and I would like you to tell me that they are 
on board. Is Dr. Miller playing a key role as a peer reviewer? 
I do not think so.
    Dr. Murphy. Dr. Miller is on the VA Federal Advisory 
Committee. She is on our Persian Gulf Expert Scientific 
Committee, and we solicit her advice through that mechanism.
    Mr. Sanders. Yes. Believe me, I do know that, and I do know 
that her grant was rejected. Can you give me the name of any 
major researcher who believes in multiple chemical sensitivity 
who has gotten help from either VA or DOD? Is there any?
    Dr. Murphy. Yes. East Orange Environmental Hazards Research 
Center has a project ongoing, looking at the issue of multiple 
chemical sensitivity, and the researchers from East Orange are 
actively involved in the investigation of MCS in Gulf war 
veterans at this point.
    Mr. Sanders. Do you know some of the names offhand?
    Dr. Murphy. Howard Kipen. Dr. Howard Kipen is the principal 
investigator.
    Mr. Sanders. OK. My last question gets down to Dr. 
Nicolson, and then I am going to get the mic over there. As I 
heard him--Mr. Chairman, correct me if I misheard him--he 
indicated he had not been hearing from you guys for a number of 
months, that originally there was some contact.
    Mr. Rostker. Yes. I put that in the record. We had a number 
of interactions through March. In March, the protocols were 
agreed upon, and because this was going to be a sole-source 
contract, the DOD rep was advised that what we needed to do was 
work through the paper work. We have made sure that the money 
is there----
    Mr. Sanders. Right.
    Mr. Rostker [continuing]. And that we expect a contract to 
be awarded to the four laboratories within the next 2 weeks, 
and those laboratories then will be--and I went over the 
protocol roughly. Those laboratories then will be trained. 
Three hundred samples will be drawn. We have already put out a 
public announcement seeking volunteers to provide blood samples 
for this research, and we are looking for the research to take 
about 3 months, which the majority of the time would be 
training and certifying the labs in the three techniques.
    Mr. Sanders. And what is Nicolson's relationship to this 
work?
    Mr. Rostker. He will be contracted with to supervisor the 
instruction and certification of the labs in his technique.
    Mr. Christopherson. And also he will be involved in also 
training people in his technique----
    Mr. Sanders. OK.
    Mr. Christopherson [continuing]. So they will understand 
what he has got, and then they will go back.
    Mr. Sanders. So he will on day one write off and say these 
guys are trained, they are doing the work----
    Mr. Rostker. That is correct.
    Mr. Sanders [continuing]. And we feel good about this, and 
then we will see the results of that work.
    Mr. Rostker. And then the independent lab, we are going to 
have one of our labs and an independent lab both to look at 
this.
    Mr. Christopherson. A given sample will be sent to several 
labs. In some cases a sample may be sent several times to a 
lab, and they will see if there is corroboration between the 
techniques and between different labs using the same technique.
    Mr. Sanders. I yield, Mr. Chairman. Thank you.
    Mr. Shays. Thank you. Just to give you an idea, I do 
believe we will get you out of here before 4, just to give you 
a sense.
    I just want to, because there was an interruption--not an 
interruption, but we went in a slightly different direction, I 
am going to say that I am not interested when you all appear 
before me in the future to know what your view is on Dr. 
Joseph. I am basically accepting on the statement in terms of 
low-level exposure and what it means and does it ultimately 
lead to acute symptoms or chronic symptoms--excuse me.
    I am going to basically go under the assumption, unless you 
tell me differently, that you are taking a position of 
neutrality on that issue. You are basically saying you would 
either say yes or no, or are you going to say that you believe 
that low-level exposure can lead to chronic conditions in the 
future? I would like to have you just tell me where you are on 
that level, but I at least know you are rejecting that it does 
not.
    Mr. Christopherson. To be clear, we are open on the issue. 
We are at this point essentially about as neutral as you can 
get, given sort of the weighing of information, enough so that 
we are willing to go out and fund research in this area, enough 
so that we are willing to ask some very tough questions of our 
clinical program.
    Dr. Garthwaite. I think the same.
    Mr. Shays. Dr. Rostker, how many sites were there in 
Kuwait--excuse me--in Iraq and the Kuwait theater that we 
suspected had either biological and chemicals in them, be they 
manufacturing or depots?
    Mr. Rostker. There were many bombing lists, and targets 
came on and off the bombing lists based upon the latest 
information and in some cases the latest fad because things 
like the shape of a bunker became an indicator to the 
intelligence analysts of whether or not there may or may not 
have been chemicals in there. I think the maximum number was 
something like 34 if you took the intersection of all the 
lists. About 34 was the maximum number that DIA carried.
    Mr. Shays. And how many of those were blown up?
    Mr. Rostker. The manufacturing plants were blown up. The 
chemical and biological sites were targeted, but it is not 
clear what was blown up. What we clearly understood after the 
war was a great deal of the munitions were not in the bunkers 
but were out on the desert. In fact, the majority of the 
munitions at Khamasiyah were not at Bunker 73, but were either 
in the pit or the 6,000 chemical rounds that were simply out in 
the desert under a tarp, so that what was attacked, whether we 
hit or did not hit the bunker, was no indication of the amount 
of chemical munitions we would have detonated.
    And, in fact, after the war, when we were able to get into 
some of these sites because we had occupied that area, like 
Telio and Ananzarea, the bunkers we thought had chemical 
munitions did not have chemical munitions.
    Mr. Shays. Has the U.N. completed site visits of all----
    Mr. Rostker. The U.N. has done site visits, but the U.N.'s 
purpose of doing site visits----
    Mr. Shays. You interrupted me.
    Mr. Rostker. I am sorry, sir.
    Mr. Shays [continuing]. Of all these sites?
    Mr. Rostker. No, sir. The U.N.'s purpose of doing site 
visits is to investigate the Iraqi claims in their declaration 
statements. There are a few places where the Iraqis, based upon 
their own intelligence--excuse me--the UNSCOM, based upon their 
own intelligence, asked to be taken, and, to the best of my 
knowledge, they turned out in each case to be a conventional 
site. And, again, they were looking for S-shaped bunkers or 12-
frame bunkers and the like. Khamasiyah and Ananzerea were two 
of the sites that were declared to UNSCOM----
    Mr. Shays. Both sites were in the Kuwait theater?
    Mr. Rostker. Yes. The Kuwaiti theater----
    Mr. Shays. Our soldiers were in both sites.
    Mr. Rostker. Yes, but the Kuwaiti theater is sometimes 
confused with Kuwait, which it is not; it extends past Kuwait, 
precisely.
    Mr. Shays. The theater where our troops were?
    Mr. Rostker. The Kuwaiti theater was a map reference before 
the war which included southern Iraq, and it had no 
relationship to where the troops finally went. So some people 
get hung up on whether it was in or not in the Kuwaiti theater. 
That is really a technicality. We are talking about Iraq and 
Kuwait. The area we have absolute knowledge on is Kuwait 
because that is where we stayed after the war.
    Mr. Shays. Does the DOD and do you, either one, have 
knowledge of any sites still being called hot sites that you 
cannot visit?
    Mr. Rostker. Not that I know of, no.
    Mr. Shays. It is your testimony that you have no knowledge 
of any site being still considered a hot site.
    Mr. Rostker. No, sir, either by us or by UNSCOM.
    Mr. Shays. Are you aware of any classified material that 
either speaks to--let me see how I can ask this question. Are 
there classified reports about these sites, any of the 34 
sites?
    Mr. Rostker. That are outstanding. No, I do not.
    Mr. Shays. Have you seen every classified report----
    Mr. Rostker. I believe so, and there is another check to 
this, if I might, Mr. Chairman. A totally independent group 
under the direction of Walt Yako, the Special Assistant to the 
Secretary of Defense for Intelligence Oversight, has been 
carrying out a parallel intelligence investigation of 
Khamasiyah and any other similar sites in Iraq, and I have 
reviewed their preliminary reports, which had full access to 
our data and CIA's data, and there were no other sites that 
were, as you would call, ``hot.''
    Mr. Shays. Are there any, to your knowledge, Inspector 
General reports or reports by the GAO that call into question 
or review the protective gear that our troops used in Kuwait--
excuse me--used in that battle?
    Mr. Rostker. The protective gear?
    Mr. Shays. Masks?
    Mr. Rostker. Say that again, sir.
    Mr. Shays. Masks?
    Mr. Rostker. There were concerns about masks fitting, and 
we have gone to a new, universal mask.
    Mr. Shays. Have you seen any classified reports that cannot 
be released to the public that discuss the validity and 
integrity of either the M-40 or M-17?
    Mr. Rostker. No, sir.
    Mr. Shays. Have you seen any reports?
    Mr. Rostker. No, sir.
    Mr. Shays. Do you know of any reports existing that discuss 
them?
    Mr. Rostker. No. In fact, we just made a report to the 
President's Advisory Committee on MOPP gear, and those issues, 
they were not in our data base, and we saw none of that. Now, 
we were focusing on the war, but, to the best of my knowledge, 
no, sir.
    Mr. Shays. Dr. Rostker, it is my sense that you are being 
given an opportunity to look at that which is classified.
    Mr. Rostker. Oh, absolutely.
    Mr. Shays. And it is your testimony before this committee 
that you have not seen or are not aware of any Inspector 
General's reports discussing the integrity of the masks used by 
our soldiers.
    Mr. Rostker. I am not, but I certainly will poll my staff 
and provide a clarification of that if I am in error, and that 
would include anything that we would have seen, either 
classified or unclassified.
    Mr. Shays. Let me get into this issue of the GAO report 
that deals with the health and treatment of our soldiers. I get 
a sense that basically we are not able to properly diagnose 
and, therefore, effectively treat our soldiers because we do 
not really know yet what ails them as far as the VA is 
concerned and as far as the DOD is concerned. Is that correct? 
And nodding a head is not going to get in the transcript.
    Mr. Rostker. Certainly, for the undiagnosed diseases.
    Mr. Shays. But bottom line is there are tens of thousands 
of soldiers who have an undiagnosed disease or illness. Is that 
correct?
    Dr. Murphy. The treatment approach that we have taken is 
the approach that civilian doctors in VA and DOD doctors would 
take across the country, there are lots of nonveterans who have 
undiagnosed symptoms also----
    Mr. Shays. Lots of what?
    Dr. Murphy. Unexplained symptoms.
    Mr. Shays. Dr. Murphy, I am going to interrupt you a 
second, and then I am going to let you answer the question. But 
I just want to make sure, in the course of you answering the 
question, I forget what my question was, and my question was, I 
thought, fairly simple, that is basically is it true that we 
have--well, I will say it differently now because I forgot how 
I asked it, but it is my sense that we have tens of thousands 
of soldiers who have illnesses who the VA and the DOD, in the 
case of those who are active servicemen, who have no diagnosis. 
Is this correct? I just want to know the answer to that.
    Dr. Murphy. Yes.
    Mr. Shays. It is correct. OK. Now, Dr. Murphy, if you want 
to tell me there are people in the private sector as well who 
have undiagnosed illnesses, I concede that. Is that your point 
you want to make?
    Dr. Murphy. The point that I was trying to get to, sir, and 
I apologize for being so wordy, was that we often treat 
symptoms, and we do have very effective treatments for many of 
the common symptoms of Gulf war veterans. I will admit that 
there are groups of symptoms, people who have Chronic Fatigue 
Syndrome and fibromyalgia, where some of our currently used 
therapies are not as effective as we would like them to be, and 
one of the approaches that we need to take is to improve some 
of the therapeutic approaches.
    Mr. Shays. Hasn't it been the testimony of the VA and maybe 
the DOD that it is very difficult to diagnose chemical exposure 
and difficult to----
    Dr. Murphy. Yes.
    Mr. Christopherson. Yes, it is.
    Mr. Shays. OK. So, I mean, we have a lot of soldiers, men 
and women, who feel that they are sick and are very frustrated 
that the VA is not treating them, though your testimony, Dr. 
Murphy, is you are attempting to treat whatever symptoms you 
see. And this really gets to areas that Representative Sanders 
was involved in his questioning of you.
    I am trying to put myself in the mind of a veteran. It is 6 
years after the war, and we are not into treatments, except 
maybe for some symptoms. We are still into raw, general kinds 
of research, and we are into research that may not come to 
fruition until 2002 and beyond. That would scare the hell out 
of me if I was a veteran, and so I want to get into the concept 
of how are you treating our soldiers. One way is to try to 
treat the symptoms.
    Do you monitor the health of our veterans? A veteran comes 
in and they are sick and they have this level, you ask them to 
come in 6 months later and say, ``We wanted to see if you are 
getting better or worse''?
    Dr. Garthwaite. Sure. I think that individual physicians 
and individual care givers monitor the health of the 
individuals they are treating, and their followup examinations 
are based on what they think that is. Other than research 
studies, I know of no systematic approach to studying health 
outcomes of all patients on a continuous basis as a health care 
system, per se, other than the research studies. As indicated 
in my testimony at the beginning----
    Mr. Shays. Can I interrupt you there? This may be basic to 
you, but it is not basic to me. If I am a doctor and I am 
trying to get at what their problem is, and to me it is still a 
big mystery and to them it is frightening as can be, why would 
it have to be a research project? Why couldn't it just be the 
VA saying, ``Hey, we want to know how you are doing''?
    Dr. Garthwaite. We do do that. Each provider does that. If 
I am your doctor and you come to me for your diabetes, say, and 
I see you, then I will write your prescription for insulin, 
educate you how----
    Mr. Shays. But you have identified----
    Dr. Garthwaite [continuing]. And you will come back to see 
me, and I will----
    Mr. Shays. No, no, no. I am interrupting you only because 
there you identified an illness and a treatment. I am talking 
about the people that are ill but you cannot identify quite 
what the problem is, and I am interested to know, are you 
saying, well, are you getting sicker, or are you getting 
better?
    Dr. Garthwaite. Or identify an illness or not.
    Mr. Shays. Listen, do I make an assumption that the VA, if 
they cannot diagnose their problem, says they are not sick?
    Dr. Garthwaite. I do not believe we do.
    Mr. Shays. OK. So it is right for me to say, OK, you 
acknowledge they are sick. You do not quite know what it is. 
You might think it is, you know, something in their head, but 
they are sick, and it has had a manifestation on them.
    What I am trying to get to is, though, I thought one of the 
points the GAO was making in their study was that you are 
really not monitoring the health of the veteran.
    Dr. Garthwaite. But we cannot go to a computer data base 
and say, for all Persian Gulf veterans they had X amount of 
health, whatever the measure is, 4 years ago, and today they 
have Y health.
    Mr. Shays. Bernie is a veteran that comes to see you. If he 
is not well, do you call him in 6 months later? You have told 
him you do not know what his problem is.
    Dr. Garthwaite. Sure. Individually, yes, yes.
    Mr. Shays. Do you have a protocol that does that?
    Dr. Garthwaite. We--now 75 percent of all of our veterans 
are enrolled in primary care, which means they have an assigned 
doctor doing proactive----
    Mr. Shays. Dr. Garthwaite, do you have a protocol that gets 
these veterans back in? I just want to know.
    Dr. Garthwaite. No, no protocol.
    Dr. Murphy. We do not have a protocol, and the reason we do 
not have a protocol is that the therapy and the followup needs 
to be tailored to the individual veteran. Clearly, there are 
some people who need to be seen every couple of weeks or every 
month. Some might be seen every 3 months, some every 6 months, 
depending on the severity of their illness and how well they 
are responding to----
    Mr. Shays. But the problem is you may not know how----
    Dr. Murphy [continuing]. The treatments they are being 
given.
    Mr. Shays. I am sorry. The problem is you may not know how 
well they are 6 months later because you have not seen them, 
and they may say, ``Why the heck am I going to go back to the 
VA? They tell me it is in my head, or they say they simply do 
not know.''
    What big incentive is there for them to go back unless you 
proactively--I mean, this is maybe a poor analogy, but when we 
do case work for someone, we are trying to institute a process 
where we do not have the answer for Mr. Brown--I am not talking 
about health--something that is bothering him--it might be the 
IRS or something else. We then try to just maybe call them up a 
little later and say, ``How are you doing?'' and in the 
process, they say, well, we got a letter from the IRS that we 
did not get, and we know things have gone along better, or we 
got three more letters from the IRS, and we say, ``Why didn't 
you call us back?'' They said, ``Well, we did not know if you 
could really be helpful'' or whatever. But there is not active, 
proactive protocol that----
    Dr. Garthwaite. I think that is somewhat individual. We do 
have it now at every VA Medical Center a call-in line. We have 
assigned, like I say, 70-some percent of our patients, probably 
more than that because we are about to do another survey, but 
of our patients in primary care they have teams, they know who 
their providers are, and they know how they can get in touch 
with their principle physicians and other health-care 
providers.
    So I think we do that on an individual basis. I think the 
GAO's criticism was: do we have it on a systematic basis and 
can we statistically show that to them.
    Mr. Shays. Dr. Rostker, the GAO's recent report recommends 
that clinical progress of veterans should be monitored to 
promote better treatments and provide direction to research 
agenda. It also recommends that the diagnosis for stress and 
PTSD be refined. First, I will ask you, Dr. Garthwaite, do you 
agree with that recommendation?
    Mr. Rostker. Let me ask my colleague from Health Affairs to 
respond.
    Mr. Shays. OK. Why not start with you? I am sorry.
    Dr. Garthwaite. I missed the last part of it.
    Mr. Shays. Because I said to Dr. Rostker--I am sorry. I 
would like both of you to answer. The GAO's report recommends 
that clinical progress of veterans should be monitored to 
promote better treatment and provide direction to the research 
agenda. It also recommends that the diagnoses for stress and 
PTSD be refined. What do you think of that recommendation?
    Mr. Feussner. Yes. I would agree with that recommendation, 
and last fall the Cooperative Studies Program in VA funded a 
trial on trauma-related PTSD, a treatment trial involving 
approximately 350 veterans. Last fall, we funded another study, 
a multi-site study looking at seeing if we cannot come up with 
a computerized neurodiagnostic scheme--``protocol'' is the word 
I want--that would allow these diagnostic methods to not only 
be made efficient, more straightforward, but also make them be 
useful in a computerized fashion.
    Mr. Shays. OK. So the recent GAO report recommends that the 
VA and the DOD monitor the treatment outcomes of sick Gulf war 
veterans. Are you saying you are doing this, you intend to do 
this, or you do not know quite how to do it?
    Mr. Feussner. I am sorry. I thought your question was about 
PTSD.
    Mr. Shays. Well, that was the second part of it.
    Mr. Feussner. We plan to monitor----
    Mr. Shays. Let me just say this to you. If you do not have 
the resources, that is an issue. There are certain limits that 
you have.
    Mr. Feussner. Yes.
    Mr. Shays. But in the end, I want to know the answer to the 
question.
    Dr. Garthwaite. I would just say, as I have stated in my 
initial testimony, we believe that we should be monitoring 
health outcomes for all veterans. We believe all health-care 
systems should do it. We believe that insurance companies are 
asking all health-care systems to do it. We do not know of any 
health-care systems that do it in a systematic fashion. We have 
surveyed 32,000 veterans, using a form and a questionnaire that 
we think gets at health status. We plan to implement that----
    Mr. Shays. Is this an unrealistic recommendation?
    Dr. Garthwaite. No. We do not know that it is unrealistic 
or not. We believe that we need the information for all 
veterans, and we need it especially for Persian Gulf veterans, 
so we are going to pursue it, irregardless.
    We will not get a 100-percent sample because of the large 
numbers we deal with, but we will get a significant sample, and 
we will aim to better understand what the functional status of 
veterans are over time. We have a goal of improving that over 
time as well, and we are holding our managers accountable.
    Mr. Shays. The bottom line is that some veterans may be 
getting sicker, and we do not know it, and they may just choose 
to not come back to the VA.
    Let me just ask you as well, Dr. Christopherson.
    Mr. Christopherson. Let me do the latter point first, on 
the issue of the PTSD. That was a report which was requested 
and funded by us by the Institute of Medicine to look at our 
programs there. We do agree with it. We already indicated to 
ILM we agreed to it and that we are proceeding down that road 
to fix it.
    The second thing, on the issue of the monitoring, it is 
difficult to do, as Dr. Garthwaite has indicated there. We are 
committed to trying out some processes. We have already gone 
out looking for some people to fund to, in quotes, help us to 
look at a monitoring process. Essentially what you would be 
looking at is to run some samples down through some particular 
kinds of--to look at, for example, a particular set of 
illnesses, for example, some of the undiagnosed or difficult-
to-diagnose kind of categories, and see whether we see some 
progress in those kinds of areas.
    It is difficult to do. I think no one should sort of 
preclude it is not, but we are committed to doing that.
    Mr. Shays. OK. Let me just do one area, and then Mr. 
Sanders is going to come back, and that is the issue of 
depleted uranium. Dr. Rostker, are you aware of any studies 
that call into question or raise questions about the health 
consequences of depleted uranium?
    Mr. Rostker. Let me refer to Dr. Daxon, who is really quite 
an expert on that.
    Mr. Shays. OK. And if you get into anything classified----
    Mr. Rostker. I understand.
    Col. Daxon. Between the DOD and the DOE, we have been 
studying the health effects of uranium since we started the 
Manhattan Project in 1945. There is a wealth of information, 
both on inhalation toxicology and general toxicology of acute 
exposures to uranium.
    Mr. Shays. So this is not new stuff here.
    Col. Daxon. No.
    Mr. Shays. If that is the case, how come we have not warned 
our soldiers about the negative consequences of depleted 
uranium?
    Col. Daxon. Sir, I think the GAO report was accurate when 
it talked about what happened after the Persian Gulf war. We 
were relatively good about telling the people that actually 
touched the weapons or touched the tanks. That was relatively 
good. What we missed was in an actual combat situation, 
depleted uranium was going to be ``touched'' by a whole range 
of different soldiers. That population, we missed, and that is 
the population we are trying to train now.
    Mr. Shays. Well, let me just say this to you. I think you 
even missed the people who were handling the shells and so on, 
because they jumped into blown-out tanks and so on. So I guess 
I call into question whether you have even done that.
    What do you have now to notify our soldiers? You have a 
video of some kind. Do you want to describe that?
    Col. Daxon. Yes, sir. I cannot describe it. I am not the 
person that put it together or saw it, but it is basically a 
tier-1 training video that describes general procedures and 
precautions that are required that we are recommending 
currently for entering vehicles and dealing with vehicles that 
are contaminated with depleted uranium.
    Mr. Rostker. We shared the video with your staff earlier, 
and if I might be so bold, it is a very informative video. I 
think it is very well put together, and I would encourage you 
to see it.
    Mr. Shays. So the bottom line is, though, that is something 
we are doing now, but we did not do earlier.
    Mr. Rostker. Yes. In fact, just now, and it needs to be 
promulgated through the field, and I will take the 
responsibility to make sure that those recommendations go not 
only to the Army, but to the Marine Corps and the other 
services.
    The problem here, as I understand it, is not dealing with 
the shells as we showed them to you; they are quite safe. The 
issue is when they potentially can vaporize, and then the 
uranium dust, that dust----
    Mr. Shays. Well, we know they vaporize. We know that 70 
percent of it vaporizes.
    Mr. Rostker. That is right. And the dust does not travel 
far because it is so heavy, but as you climb over the vehicles 
and the like, more precautions should be taken to a wider 
population than we appreciated.
    Mr. Shays. That contrasts a little bit with Mr. Dietz, who 
suggests that it travels quite far, and his testimony was that 
this was a tremendous, high concentration. You were here for 
his testimony. Could you respond to it?
    Col. Daxon. Yes, sir, I was.
    Mr. Shays. And, sir, again, I just did not catch your name.
    Col. Daxon. It is Col. Eric Daxon.
    Mr. Shays. Thank you, Colonel.
    Col. Daxon. Yes, sir.
    Mr. Shays. OK. I guess the issue is it would not go for 
hundreds of miles, but will it last for hundreds of years, the 
concentration. But let me ask you to respond to Mr. Dietz's 
comments in particular, his testimony, how you reacted to his 
testimony?
    Col. Daxon. Sir, the key thing with the toxicity of 
anything, to include radiation, is not only was it there, but 
how much was there. The Army has done a great deal of studying 
in determining how much of these aerosols are present at what 
distance from tank impacts, DU fires, and those sorts of 
things.
    These studies started in the early 1970's. There were two 
National Materials Board studies that were done that are 
independent of DOD. The first was done in the early 1970's that 
basically gave the green light to using depleted uranium.
    Mr. Shays. Right.
    Col. Daxon. Then there was a second--the DOD conducted a 
study, and then there was a second National Materials Science 
Board and two other studies. They all addressed the issue of 
aerosolization and how far the aerosols go when a tank is 
struck or when several tanks are struck.
    Mr. Shays. Colonel, I want to say for the record, we may 
even decide that it can be quite dangerous, but still decide 
that we need it, because the alternative is worse.
    Col. Daxon. Yes, sir.
    Mr. Shays. If I am a soldier and I am in a tank, I want a 
shell that I know is going to do the job, but I just want to 
know the negative consequences. The more we have gotten into 
this, the more I have come to realize that if you are a 
soldier, you have shortened your life, even if you come back. 
No, I do not mean just on this; I mean on all the challenges 
that you face in warfare. I believe that in the serving of your 
country you also put yourself at tremendous health risk, some 
of it tremendously unavoidable.
    But are those studies based on fragments or particles?
    Col. Daxon. Sir, the early studies that were done were 
primarily looking at particulates, and there is a wealth of 
data on inhalation of uranium particulates. We have done it 
with the actual uranium-milling industry. There are a lot of 
studies that have been done on that.
    Mr. Shays. Would that be available for us to give to others 
to look at?
    Col. Daxon. Yes, sir. Absolutely. This is available in the 
open literature.
    Mr. Shays. OK. Then let me just--is there any--because I do 
not want to get off this--were there any studies that suggested 
that the depleted uranium could be harmful to our troops?
    Col. Daxon. Sir, the key thing is, for all of this stuff, 
both with radiation and chemical toxicity, the key thing is the 
amount, the chemical form, and where it came in.
    Mr. Shays. OK. But I am going to ask my question, unless it 
is classified information.
    Col. Daxon. No, sir. I will answer it directly. In the AEPI 
report that we put together there is a significant hazard for 
people that are inside a vehicle while the penetrator is being 
penetrated, while the tank is being penetrated by a DU 
penetrator.
    Mr. Shays. Yes. Well, it is also going to blow up as well.
    Col. Daxon. Yes, sir. Yes, sir. But in terms of the----
    Mr. Shays. That is the least of their problems at that 
moment.
    Col. Daxon. Yes, sir. But we have studied this because we 
wanted to be careful. In terms of the amount of uranium that 
would be inhaled, you can get milligram quantities if you are 
inside the vehicle while it is being penetrated by a DU 
penetrator.
    Mr. Shays. Well, I thank you.
    Mr. Sanders, thank you for your patience.
    Mr. Sanders. Thank you, Mr. Chairman.
    Let me start off with Dr. Rostker, but anyone else can jump 
in. We had a conference in Vermont last month, and I met with a 
number of veterans who are hurting, and if they asked me how 
they should conclude the performance of the VA and DOD after 6 
years in terms of diagnosing the problem and treating the 
problem, Dr. Rostker, what would we say? And I am sure that you 
do not have all the money that you want, but you have got a few 
million bucks there. You have a lot of researchers. What would 
we say after 6 years? What is the grade that we give the VA and 
the DOD on this?
    Mr. Rostker. I think that is a very difficult question to 
answer in one. To a veteran who has an unknown diagnosis, I can 
be quite certain, because I saw the same people on my 11-city 
swing, that they clearly are unhappy and angry and would give 
us a failing grade.
    The question is, what can we do about improving that, 
particularly for the veteran that we truly do not have a 
diagnosis? I am reminded of one of the angry veterans on 
television who said that if he were in charge, he would lock up 
all the admirals and generals and would not let them out of the 
room until they gave the answer of why he is sick.
    We do not have that answer. I am not sure we will ever get 
the answer for the individual, but we certainly are trying to 
understand what happened in the Gulf and to apply and push back 
the frontiers of science so we can, to the best of our ability, 
treat them.
    Mr. Sanders. Dr. Rostker, actually I was on a radio show 
today, and somebody was a little bit harsher. He suggested 
hanging, but not just putting them in jails.
    Let me ask you this. Without for 1 second impugning the 
sincerity and the hard work and the patriotism and your desire, 
there is no reason that I can possibly believe that everybody 
up there in the entire DOD and VA want the answer to this 
question as much as Chris and I and everybody else on this 
committee. Right? We all do.
    But sometimes we reach a conclusion that for whatever 
reason--maybe it is the system; maybe it is your bureaucracy; 
maybe that somebody can move, and it takes you a year to get 
out a grant--that is the system. We all have to work under 
systems. Is it possible that you guys are not going to be the 
agency to do it and that maybe we want to look outside of the 
VA and the DOD based on 6 years of not particularly effective 
work, without impugning anyone's sincerity? You know, 
businesses make these decisions every day, politicians.
    Mr. Rostker. I think there are a lot of parts to the 
problem, and one would be the medical. Are we funding the right 
medical projects? You have raised some concerns. Remember that 
we put out RFPs, we go through standard practices, et cetera.
    The same claims have been made, can we be trusted to assess 
what happened in the Gulf, and let me address that because that 
is really the primary concern of my office. We have an 
absolutely vital stake in that. Moreover, we have the expertise 
in that in ways that no other organization can possibly have. 
You cannot put an organization that starts and will have a 
clean slate on DU and then not have the kind of expertise that 
I have behind me, if you will.
    I think, in terms of the investigations that went on in the 
Gulf, some of the same questions you asked today of the 
veterans, that we are doing a job that is, I hope, credible but 
certainly expansive. We are not limited by funding. I am not 
limited largely by the bureaucracy within DOD, and we are truly 
leaving no stone unturned to try to understand what happened in 
the Gulf.
    Now, that is only part of providing the problem, but it is 
an important part as seen by even your own methodology here in 
the way you are approaching the problem. You are asking 
questions about, as you did today, correctly so, about what the 
soldiers saw in the Gulf and what happened in the Gulf. Very 
important, and it is critical for the future; and so in that 
regard, I think DOD is the only organization that can do that 
portion of the research.
    Mr. Sanders. I would just suggest, I mean, clearly the 
function of the Department of Defense is to win wars, and, for 
example, most people observe and believe that in the Persian 
Gulf, the Department of Defense functioned very well. They 
achieved a major victory in a short period of time. Whether 
that same agency is designed to come up with a solution and 
treatment for a strange disease, I have my doubts about that. I 
think those are two separate things. Let me ask you----
    Mr. Rostker. Congressman, may I respond?
    Mr. Sanders. Sure.
    Mr. Rostker. A couple of things you have to keep in mind. 
In the first place is when this is all said and done, when the 
Gulf war and where maybe history down there, DOD, and I would 
argue, VA health side, have got to be able to answer the 
questions.
    They have got to do two things. They have got to show they 
can take care of people. We have 6 million beneficiaries-plus, 
about 8 million eligibles we take care of every day through our 
whole system, families, retirees, active duty. This is not just 
a test around the Gulf war illness issue; this is a test of 
whether we can take care of people generally.
    We have unique situations here with the Gulf war, 
especially--and, again, you have got to parse this out a little 
bit. If you are looking for are we doing a good job in dealing 
with the cancers and the heart and the other kinds of problems 
there--by the way, a lot of what the illnesses are, by the way, 
are in those categories. It is the illnesses that are hard to 
figure out that is the issue here.
    I think what we have always said from day one is we have 
never claimed any exclusive club in terms of trying to find the 
answer. We believe we have been part of it. I think that is 
what it is. We have always been welcome to other parties, and 
that is why we pulled in ILM and a lot of other parties to help 
us figure some of these things out.
    It is also why when we go out in the research side of 
life--in the early days, we did a lot of research intramural, I 
mean, inside the building, using our people, because we had to 
get something started, going fairly quickly. We have now turned 
on that. We have said, no, let's go outside. Let's poll people 
from the outside.
    Mr. Sanders. You lead me to my next question.
    Mr. Feussner. Before--may I answer your other question?
    Mr. Sanders. Yes.
    Mr. Feussner. I would just like to have three points to 
make. The first is that we have had inputs from the National 
Institutes of Health, the Institute of Medicine, the 
international research community, Federal and non-Federal 
investigators, so we have asked and involved almost anyone on 
the planet that can inform the process.
    The second issue is that we do have some additional 
expertise in patient-centered research. A large part of our 
research is patient centered, not exclusively laboratory based.
    And then the third issue is the tradeoff between the time 
that might be lost by getting up to speed again or making a 
transition.
    Mr. Sanders. Let me just, actually taking off from both of 
your responses, you recently made grants--I believe there was a 
pool of some $8 million. Is my memory correct?
    Mr. Feussner. Correct.
    Mr. Sanders. When will that be made public? We have tried 
to find out who received the grants. I was curious. I did not 
have success.
    Mr. Feussner. What is happening right now, and there are a 
couple of sets of grants, by the way, that are in process, each 
on different points. One point is that in the final 
negotiations with the people who have won the grants to sort of 
work through the contracting procedures, and that is a close 
hold until that process is done, so that is coming out. That 
should be out, I think--Fran, you may know better than I when 
our research----
    Dr. Murphy. The AIBS has reviewed the proposals to review 
for scientific merit. They have been prioritized by the Persian 
Gulf Veterans Coordinating Board, and it is really now in the 
hands of the people who award the grants.
    Mr. Sanders. When will we know who received the grants?
    Dr. Murphy. Several months.
    Mr. Feussner. Yes. The last set is----
    Mr. Sanders. Several months, did you say, Doctor?
    Mr. Feussner. Right. Within the next 2 months. The reason 
is because it does take time to get through there. We have got 
to sort out--again, if we are going to do this right, 2 months 
it does take. We are committed to getting this money out this 
summer, and we will get it out this summer.
    Mr. Sanders. OK. Apparently you have notified some people 
that they have not received grants.
    Mr. Shays. I am just going to interrupt the gentleman a 
second to say that he has as much time as he wants. I just need 
to say I was a little off on my time before, but I do not have 
more questions, and if you----
    Mr. Sanders. I will be finished in a few minutes.
    Mr. Shays. OK. You have as much time as you want, but it 
will be helpful to----
    Mr. Sanders. So I am hearing that we will not know for sure 
who received the grants, Dr. Murphy, not until a couple of 
months. Is that what I am hearing?
    Dr. Murphy. Yes.
    Mr. Christopherson. There are a couple of sets of grants 
coming through. That is why the people you may be referring to 
may be in one of the earlier grant phases as opposed to the 
current one we just talked about.
    Mr. Sanders. OK.
    Mr. Christopherson. There are two grant sets, and the 
earlier set, those probably would be knowing by now that they 
had, but I am talking about the latest set where they would not 
yet know that.
    Mr. Sanders. OK. Would you be so kind as to send me, for 
both sets of grants, who the peer reviewers are? Is that public 
information?
    Dr. Murphy. The peer review is done by the American 
Institute of Biologic Science [AIBS] under a contract to the 
DOD, and they would hold those lists.
    Mr. Sanders. They would hold those lists?
    Dr. Murphy. Yes. DOD could request that information from 
them.
    Mr. Sanders. Come on, I should think that the U.S. Congress 
and the public has a right to know who reviewed the grants. Am 
I missing something here? That is very public knowledge. I 
would like--Mr. Chairman, I think this is an issue here of 
concern to me, because I want to make sure that the people who 
are reviewing these grants have an open mind with regard to 
multiple chemical sensitivity.
    Mr. Shays. Sure, sure.
    Mr. Sanders. And if I am going to find that they are all 
hostile, then I think that we have a very bad process. I would 
like to know who they are.
    Mr. Christopherson. My hesitancy was only because this is 
not--I have not been involved in that part of the process. I am 
just not sure. I want to make sure I do not give you an 
incorrect answer. We will get back to you very quickly.
    Mr. Shays. Yes. If we could have it be part of the record, 
and you can get----
    Mr. Christopherson. One way or the other, we will get back 
to you. If we can make it available, if there is not some 
reason, awfully good reason not to, we will get it back to you.
    Mr. Sanders. Yes.
    Mr. Christopherson. The answer is yes, if at all possible.
    Mr. Shays. When would you be getting back to us?
    Mr. Christopherson. This is the issue of----
    Mr. Shays. I said ``when.'' When would you be getting----
    Mr. Christopherson. I forget the answer to the question. I 
just do not know the answer.
    Mr. Shays. I understand you do not have the answer.
    Dr. Murphy. This should not take a long period of time.
    Mr. Christopherson. No, no.
    Mr. Shays. What is that?
    Dr. Murphy. It should not take a long period of time.
    Mr. Shays. So by next Wednesday you could get back to us?
    Dr. Murphy. Yes.
    Mr. Sanders. Good. Thank you very much.
    Mr. Christopherson. That is reasonable.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sanders. The next question is, Col. Roman, when he was 
testifying, mentioned a Dr. Baumzweiger at the L.A. VA 
Hospital, and he indicated that that gentleman was not asked--
the physician was not asked to continue treating Gulf war 
veterans, and that physician had made a diagnosis that Col. 
Roman suffered nerve damage which may have occurred at the 
Persian Gulf. Does anybody know anything about that, or can you 
get us some information on that?
    Dr. Garthwaite. We can give you more information. Dr. 
Baumzweiger was a neurology fellow who was working under the 
supervision of a staff neurologist at a particular medical 
center within the UCLA program, so there is some confusion in, 
I think, the patients and so forth, but we can give you lots of 
detailed information if you would like.
    Mr. Sanders. Can you get that information to this 
committee?
    Dr. Garthwaite. Sure.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sanders. OK. Let me ask you a question while we are on 
nerve damage. There are at least two studies that have been 
done, one by Jamal Hanson, and others, I believe, done in Great 
Britain, and one by Dr. Haley which suggest that there is 
actual brain damage--not brain damage, nerve damage for certain 
Gulf war veterans.
    Do you have a thought on that, and have you done any 
research which suggests that there is actual nerve damage, 
which then would take us out of the realm of the theoretical, 
and we would have some very concrete answers to some of the 
problems our vets are facing?
    Dr. Murphy. The tests that they used were standard, 
neurologic tests, and if you look at the results of both Dr. 
Haley's research and Dr. Jamal's research, the results were 
within the normal range for those individual patients, and only 
by grouping the results and doing a statistical analysis was 
there any abnormality found. In fact, very few patients were 
examined with those techniques by Dr. Haley's group. It was 
less than a half dozen, and there were total a total number of 
14 patients in Dr. Jamal's study.
    Individual veterans evaluated, using either the DOD or the 
VA protocol, have had similar tests, and a small number of them 
have shown abnormalities, but as a group, that is not a 
consistent finding.
    Mr. Sanders. Is this an area of research that you are 
exploring?
    Dr. Murphy. There are currently ongoing research studies 
looking at both nerve muscle and brain function that are being 
funded. The GAO report and also our annual report on research 
lists those for you.
    Mr. Sanders. But what I am hearing you saying is that based 
on the evidence that you have put together so far, you have not 
seen any abnormal numbers of people. Is that what I hear you, 
or did I not hear you say that?
    Dr. Murphy. There has been no consistently found objective 
abnormality on neurophysiologic testing. In small numbers of 
patients during clinical evaluations we have found evidence of 
abnormality.
    Mr. Sanders. I am not exactly sure what that means. You 
have found something, but you think it is not statistically 
relevant. Is that----
    Dr. Murphy. We have not been able to tie the abnormal 
results from our clinical tests to any specific exposure or to 
their Gulf service, and we do not believe that the research at 
this point conclusively shows that there are any objective, 
neurologic tests that are indicative of Gulf war illnesses.
    Mr. Sanders. OK. Mr. Chairman, my last question deals with 
pyridostigmine bromide. At, I believe, our last hearing, there 
was a gentleman--what was his name, the pharmacologist from 
Maryland? Dr. Tom Teidt, who is a pharmacologist from the 
University of Maryland? OK. Was at the University of Maryland, 
now lives in Florida, sat exactly where you are sitting now, 
Dr. Murphy, and gave us a very frightening description of what 
he believed to be the dangers associated with PB and its use in 
a hot climate where there is stress and so forth.
    I do not know if you are familiar with his testimony. Is he 
off the wall, is he right, and what work are you doing on that 
issue?
    Mr. Christopherson. The issue of PB and stress, and some of 
the issues that are raised around there are a concern of us as 
well. We are looking at that research. We are looking at other 
research as well that raises a question about whether stress, 
for example, can exacerbate and create additional problems 
there. Again, the data is not clear, but, again, it is worth 
looking at because, again, PB has been very important, 
obviously especially when you are dealing with exposure to 
nerve gas or potential exposure there.
    What we are doing right now is--so the answer is, yes, we 
are concerned about it; yes, we are taking a look at it. So 
far, it is not anything that tells us that for sure we should 
stop doing it, but it says we need to think about it as part of 
the total equation.
    Here is an important point, I think, when you look at the 
PB issue. It is true about PB and what we know or do not know 
yet today on it, and the issue comes down to the following, 
which is, in the first place, you do not want to do any kind of 
treatments, pretreatments, vaccinations you do not have to. PB 
is clearly in that category there.
    When you look at PB and how we used it in the Gulf war or 
how we might use it in the future in terms of there--it will be 
a very tough test, by the way, should we ever use it again in 
the future there--it is going to come down to you had better 
make sure you know which nerve gas you think is going to occur 
there; and, second, you are going to weigh these ``relative 
risks'' between the two things, and it is going to be a very 
tough discussion the next time we face this issue as to am I 
more worried about the soman, what is in PB, or am I more 
worried about the relative risks in terms of that, and we do 
not yet know all the answers.
    Mr. Sanders. But my point was, and somebody correct me if I 
am wrong, I think he almost used the expression ``poisoning our 
own,'' in other words--and I am not saying that he is right or 
not.
    Mr. Rostker. What my colleague is saying, in plain terms, 
is that we are a learning organization and that we are not as 
sanguine about PB as being as benign as we thought it was 6 
years ago.
    We are very interested in the research of PB, whoever funds 
it. We are pulling together a reassessment. That is one of the 
things that my office is doing. There are very important 
doctrinal issues. Clearly, in a soman environment, PB has a 
unique capability. We have to think through the risks here and 
the warning, and we are gaining knowledge about PB that is not 
falling on deaf ears.
    Mr. Sanders. In other words, and he was very somber, and, 
frankly, very scary, and what I am hearing you say is you are 
not dismissing his statement.
    Mr. Rostker. No.
    Mr. Christopherson. Absolutely not.
    Mr. Rostker. This is very serious. This is like the DU in 
terms of there is an advantage, but there is a cost.
    Mr. Christopherson. Correct.
    Mr. Rostker. This is a different kind. DU may be of a 
smaller magnitude, frankly----
    Mr. Christopherson. Correct.
    Mr. Rostker [continuing]. But this is clearly stuff we want 
to know a lot more about----
    Mr. Christopherson. Correct.
    Mr. Rostker [continuing]. And we want to make sure we know 
it now rather than face a decision in another Gulf.
    Mr. Sanders. Well, not only in another Gulf, but in 
understanding the problem that we have today. Is that correct?
    Mr. Rostker. Absolutely.
    Mr. Christopherson. Correct.
    Mr. Rostker. Now, some of that is independent on the issue 
of treatment and diagnosis and the like, but we are very much 
trying to understand better than we had the issue of 
pyridostigmine bromide. And I might say we are bringing in data 
and experiences not only from our country, but from other 
countries that have done this, particularly the Brits in some 
earlier testing they did with chemical agents in people.
    Mr. Sanders. So what I am hearing you saying, and I do not 
want to put words in your mouth--you said it--is that you are 
very concerned and regard it as a very----
    Mr. Rostker. We have not drawn a conclusion, but we are 
actively putting the pieces together to put us in a position to 
be better informed and draw some conclusions.
    Mr. Sanders. And some of the very serious concerns raised 
by others----
    Mr. Rostker. Absolutely.
    Mr. Sanders [continuing]. Are thoughts that you are taking 
seriously.
    Mr. Rostker. Absolutely.
    Mr. Christopherson. Correct.
    Mr. Sanders. Did anyone else want to comment on PB?
    Mr. Feussner. Yes. I would like to echo that. I think one 
of the intriguing observations that the new research is 
producing is the effect that stress can have on presentation 
of----
    Mr. Rostker [continuing]. The brain area.
    Mr. Feussner. Yes. And, again, when some folks think of 
stress, they think of psychological stress, but stress has 
neurotransmitter and neuroendocrine sequelae, and this is 
actually an example of how stress can perhaps create a problem 
that might not otherwise have occurred.
    Mr. Sanders. If my memory is correct, and somebody up here 
can correct me if I am wrong, I mean, it was almost like a 
macabre joke that PB, under stress, and God knows, everybody at 
war is in stress, and in heat can bring forth a negative 
reaction; and on top of that, if PB is administered after one 
is exposed to chemical warfare agents, it could be a very bad 
effect. Does that make----
    Mr. Christopherson. But I think the key thing that has 
changed in this equation, which is what we have all been 
referring to here, is the issue of the blood-brain barrier and 
the question under stress you can cross there. That was a new 
piece of information. That is what has caused people to go back 
and take another look at this.
    Now, we are still not sure what it means because while it 
says it can happen, it still does not tell you what the effects 
might be.
    Mr. Sanders. Right.
    Mr. Christopherson. And we have got to figure that out 
because, again, it is not like the issue is, well, we will just 
stop using PB and that is the end of the question. You still 
have this relative-risk issue you have to sort of work through, 
and we are doing that.
    Mr. Sanders. OK. Mr. Chairman, thank you, and thank all of 
you.
    Mr. Shays. I just have one last question, because I looked 
at my notes and realized that we had information that the Armed 
Forces Radiological Research Institute, AFRRI, conducted a 
study in fiscal year 1994 for about $1.7 million, and in fiscal 
year 1995 less than $1 million, on the hazards of DU. The 
results were that it was a threat to our troops. The research 
stopped in fiscal year 1995 and the results were not released.
    Colonel, it is a matter of public record, and we would love 
you just to quash it or sustain it, one or the other. First 
off, is my information accurate about the study being 
conducted?
    Col. Daxon. Yes, it is.
    Mr. Shays. OK.
    Col. Daxon. I actually put the study together.
    Mr. Shays. Oh, good. Then you are the man to ask.
    Col. Daxon. Yes, sir. I am no longer there, but the study 
is still ongoing. It is addressing all aspects, and we are 
focusing on the imbedded fragments because that is where we 
have some doubts still. The research is being published in the 
open literature. As we speak, the research is still being 
continued.
    Mr. Shays. So there was no result of that it was a threat 
to our troops.
    Col. Daxon. The research is not done yet, sir.
    Mr. Shays. OK.
    Col. Daxon. I hate to draw conclusions when the experiment 
is not finished.
    Mr. Shays. There were no conclusions drawn that it was a 
threat to our troops.
    Col. Daxon. At this point, no, sir, none that I am aware 
of.
    Mr. Shays. Let me thank all of you because you have been 
tremendously patient. I guess I should give you the same 
privileges----
    Col. Daxon. Sir, could I?
    Mr. Shays. Yes, sir. Do you want to say something?
    Col. Daxon. Yes, sir, I do. The position of AFRRI and the 
DOD is not that DU doesn't present a hazard. AFRRI at this 
point has not found any hazards that were not expected at this 
juncture. It is not our position that there are no hazards 
associated with DU.
    Mr. Shays. No. I think we all agree there are hazards, but 
you did not come to a preliminary finding that it was a threat 
to our troops.
    Col. Daxon. No, sir.
    Mr. Shays. OK.
    Col. Daxon. I can check that and get with the director of 
AFRRI to make sure that is still current.
    Mr. Shays. I think it would be good to have you--in fact, 
we would like an answer one way or the other, not just no 
answer. We would like you to either confirm your statement, 
which is on the record, or disqualify it, and get back to us by 
Wednesday.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Col. Daxon. Yes, sir.
    Mr. Shays. OK. Let me say that is there a question that we 
should have asked that you would have liked us to have asked? 
Yes.
    Mr. Rostker. Two points. On the issue of the MOPP gear, you 
asked specific questions about specific reports that I do not 
know of, and I will check; but let me say there was critical 
assessments of every piece of the MOPP gear and that we have 
moved substantially over time to a new mask. There was 
testimony today about the layer of carbon, the newest 
overgarments following the British have the carbon integrated 
into the fiber. It lasts longer. The issue today about it 
lasting only 12 hours was 12 hours in a saturated environment. 
The garment itself can last for a much longer period of time.
    Mr. Shays. Dr. Rostker, I need to say on the record that I 
am aware of two reports that are classified that I would like 
to talk to you about.
    Mr. Rostker. OK.
    Mr. Shays. And, Dr. Murphy.
    Mr. Rostker. I have one additional thing, if I might. You 
also raised the question of the alarms.
    Mr. Shays. Yes, sir.
    Mr. Rostker. And we just put together a small briefing for 
the PAC that we gave them earlier this week on the M-8 alarm, 
and I would like to make that available to you.
    Mr. Shays. What is the bottom line?
    Mr. Rostker. The bottom line is that a known interferant 
that would set off the alarms and provide false positives 
includes gasoline vapors and diesel-fuel exhaust. So the 
description of them turning it on on the trucks in a convoy and 
the alarms going off all the time is absolutely predictable, 
given the known interference.
    Mr. Shays. Let me just say, though, Dr. Rostker, that we 
have testimony that far more of them occurred after the war 
than before and that there was no noticeable difference in 
terms of environment.
    Mr. Rostker. Except for the oil fires and the like, which 
also were involved. The proper procedure is to, if an M-8 goes 
off and they MOPP'd as they described, is then to do an all-
clear based upon a 256 kit. We are investigating all of the 
256-kit positives that we can find.
    Mr. Shays. I feel that I need to state on the record that 
individuals have contacted this committee who will--I guess I 
cannot say that; they have not done it yet. Let's just leave 
this issue open. OK? We will leave it like that.
    Mr. Rostker. Yes, sir.
    Mr. Shays. Dr. Garthwaite.
    Dr. Garthwaite. Sir, just a couple of things. To the 
veterans out there, I would urge them to get a Persian Gulf 
Exam if they have not gotten one; and in relation to their 
frustration, I will remind all of us that we declared war on 
cancer, and although we have won some skirmishes, that is an 
ongoing war, and it has been going on for many years.
    The science is very difficult, very complex, and not a 
simple process, and it is not for lack of trying. And we are 
all frustrated. I think many of us in medicine are in medicine 
because we hope to be able to make a difference and to get some 
answers for some of these diseases.
    Second, I think, we appear before you with a great sense of 
humility. When I went to medical school, ulcers were definitely 
caused by too much acid. Today, we can tell you that they are 
definitely caused by bacteria. So what is very clear today may 
not be as clear in the future.
    And the third thing is about peer review. I would just like 
to say that it is human beings doing the best they can to judge 
other human beings, and I think that the point that was made, 
that there may be somewhat of a systemic bias of peer review 
for new and more radical ideas is very possible and plausible, 
and we should take that into account as we think about peer 
review.
    Mr. Shays. Thank you. Thank you. Let me just thank our 
court reporter, Ted Fambro. Also, I would like to thank Denise 
Nichols for taking care of our veterans, picking them up--the 
four of them did not live here--and making sure they had a 
square meal last night.
    I would also like to thank my director of this committee, 
Larry Halloran, and Bob Newman, who staffs and deals with Gulf 
war illnesses; also, Mr. Sanders' staff, Don Edwards and 
Cynthia Welgess; and also the minority staff, Cherri Branson; 
and to say to the witnesses you have been very helpful. You 
have been extraordinarily patient and tolerant, and it 
certainly speaks well for your concern about this issue, and we 
do appreciate that very much.
    With that, we will call this hearing adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
